<html>
<title> - EXAMINING THE EFFECTIVENESS OF THE VETERANS BENEFITS ADMINISTRATION'S TRAINING, PERFORMANCE MANAGEMENT AND ACCOUNTABILITY</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]




                   EXAMINING THE EFFECTIVENESS OF THE
                   VETERANS BENEFITS ADMINISTRATION'S
                    TRAINING, PERFORMANCE MANAGEMENT
                           AND ACCOUNTABILITY

=======================================================================

                                HEARING

                               before the

                 SUBCOMMITTEE ON DISABILITY ASSISTANCE
                          AND MEMORIAL AFFAIRS

                                 of the

                     COMMITTEE ON VETERANS' AFFAIRS
                     U.S. HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                               __________

                           SEPTEMBER 18, 2008

                               __________

                           Serial No. 110-105

                               __________

       Printed for the use of the Committee on Veterans' Affairs







                   U.S. GOVERNMENT PRINTING OFFICE
44-932                      WASHINGTON : 2009
----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free(866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, 
Washington, DC 20402-0001







                     COMMITTEE ON VETERANS' AFFAIRS

                    BOB FILNER, California, Chairman

CORRINE BROWN, Florida               STEVE BUYER, Indiana, Ranking
VIC SNYDER, Arkansas                 CLIFF STEARNS, Florida
MICHAEL H. MICHAUD, Maine            JERRY MORAN, Kansas
STEPHANIE HERSETH SANDLIN, South     HENRY E. BROWN, Jr., South 
Dakota                               Carolina
HARRY E. MITCHELL, Arizona           JEFF MILLER, Florida
JOHN J. HALL, New York               JOHN BOOZMAN, Arkansas
PHIL HARE, Illinois                  GINNY BROWN-WAITE, Florida
SHELLEY BERKLEY, Nevada              MICHAEL R. TURNER, Ohio
JOHN T. SALAZAR, Colorado            BRIAN P. BILBRAY, California
CIRO D. RODRIGUEZ, Texas             DOUG LAMBORN, Colorado
JOE DONNELLY, Indiana                GUS M. BILIRAKIS, Florida
JERRY McNERNEY, California           VERN BUCHANAN, Florida
ZACHARY T. SPACE, Ohio               STEVE SCALISE, Louisiana
TIMOTHY J. WALZ, Minnesota
DONALD J. CAZAYOUX, Jr., Louisiana

                   Malcom A. Shorter, Staff Director

                                 ______

       SUBCOMMITTEE ON DISABILITY ASSISTANCE AND MEMORIAL AFFAIRS

                    JOHN J. HALL, New York, Chairman

CIRO D. RODRIGUEZ, Texas             DOUG LAMBORN, Colorado, Ranking
PHIL HARE, Illinois                  MICHAEL R. TURNER, Ohio
SHELLEY BERKLEY, Nevada              GUS M. BILIRAKIS, Florida

Pursuant to clause 2(e)(4) of Rule XI of the Rules of the House, public 
hearing records of the Committee on Veterans' Affairs are also 
published in electronic form. The printed hearing record remains the 
official version. Because electronic submissions are used to prepare 
both printed and electronic versions of the hearing record, the process 
of converting between various electronic formats may introduce 
unintentional errors or omissions. Such occurrences are inherent in the 
current publication process and should diminish as the process is 
further refined.


                            C O N T E N T S

                               __________

                           September 18, 2008

                                                                   Page
Examining the Effectiveness of the Veterans Benefits 
  Administration's Training, Performance Management and 
  Accountability.................................................     1

                           OPENING STATEMENTS

Chairman John J. Hall............................................     1
    Prepared statement of Chairman Hall..........................    31
Hon. Michael R. Turner...........................................     3
Hon. Doug Lamborn, Ranking Republican Member, prepared statement 
  of.............................................................    32

                               WITNESSES

U.S. Government Accountability Office, Daniel Bertoni, Director, 
  Education, Workforce, and Income Security Issues...............     4
    Prepared statement of Mr. Bertoni............................    32
U.S. Department of Veterans Affairs, Michael Walcoff, Deputy 
  Under Secretary for Benefits, Veterans Benefits Administration.    20
    Prepared statement of Mr. Walcoff............................    68

                                 ______

American Federation of Government Employees, AFL-CIO, Michael 
  Ratajczak, Decision Review Officer, Cleveland Veterans Affairs 
  Regional Office, Veterans Benefits Administration, U.S. 
  Department of Veterans.........................................     9
    Prepared statement of Mr. Ratajczak..........................    39
Bartzis, Nicholas T., Cleveland, OH..............................    15
    Prepared statement of Mr. Bartzis............................    65
Disabled American Veterans, Kerry Baker, Assistant National 
  Legislative Director...........................................    11
    Prepared statement of Mr. Baker..............................    42
National Veterans Legal Services Program, Ronald B. Abrams, Joint 
  Executive Director.............................................    13
    Prepared statement of Mr. Abrams.............................    47
Human Resources Research Organization, Patricia A. Keenan, Ph.D., 
  Program Manager................................................    14
    Prepared statement of Ms. Keenan.............................    61

                   MATERIAL SUBMITTED FOR THE RECORD

Reports:
    Veterans' Benefits: Increased Focus on Evaluation and 
      Accountability Would Enhance Training and Performance 
      Management for Claims Processors, Report No. GAO-08-561, 
      dated May 2008.............................................    71

Post-Hearing Questions and Responses for the Record:
    Hon. John J. Hall, Chairman, Subcommittee on Disability 
      Assistance and Memorial Affairs, Committee on Veterans' 
      Affairs, to Michael Ratajczak, Decision Review Officer, 
      Cleveland Veterans Affairs Regional Office, letter dated 
      September 25, 2008, and Mr. Ratajczak's responses..........   108
    Hon. John J. Hall, Chairman, Subcommittee on Disability 
      Assistance and Memorial Affairs, Committee on Veterans' 
      Affairs, to Kerry Baker, Assistant National Legislative 
      Director, Disabled American Veterans, letter dated 
      September 22, 2008, and Mr. Baker's responses..............   113
    Hon. John J. Hall, Chairman, Subcommittee on Disability 
      Assistance and Memorial Affairs, Committee on Veterans' 
      Affairs, to Ronald B. Abrams, Joint Executive Director, 
      National Veterans Legal Services Program, letter dated 
      September 25, 2008, and Mr. Abrams responses...............   114
    Hon. John J. Hall, Chairman, Subcommittee on Disability 
      Assistance and Memorial Affairs, Committee on Veterans' 
      Affairs, to Dr. Patricia Keenan, Program Manager, Human 
      Resources Research Organization, letter dated September 22, 
      2008, and Dr. Keenan's response............................   117
    Hon. John J. Hall, Chairman, Subcommittee on Disability 
      Assistance and Memorial Affairs, Committee on Veterans' 
      Affairs, to Mr. Michael Walcoff, Deputy Under Secretary for 
      Benefits, Veterans Benefits Administration, U.S. Department 
      of Veterans Affairs, letter dated September 22, 2008, and 
      VA responses...............................................   119
    Hon. John J. Hall, Chairman, Subcommittee on Disability 
      Assistance and Memorial Affairs, Committee on Veterans' 
      Affairs, to Bradley Mayes, Director, Compensation and 
      Pension Service, Veterans Benefits Administration, U.S. 
      Department of Veterans Affairs, letter dated September 22, 
      2008, and VA responses.....................................   121
    Hon. John J. Hall, Chairman, Subcommittee on Disability 
      Assistance and Memorial Affairs, Committee on Veterans' 
      Affairs, to Dorothy Mackay, Director, Employee Development 
      and Training, Veterans Benefits Administration, U.S. 
      Department of Veterans Affairs, letter dated September 25, 
      2008, and VA responses.....................................   122

 
                     EXAMINING THE EFFECTIVENESS OF
                 THE VETERANS BENEFITS ADMINISTRATION'S
          TRAINING, PERFORMANCE MANAGEMENT AND ACCOUNTABILITY

                              ----------                              


                      THURSDAY, SEPTEMBER 18, 2008

             U.S. House of Representatives,
                    Committee on Veterans' Affairs,
                     Subcommittee on Disability Assistance 
                                      and Memorial Affairs,
                                                    Washington, DC.

    The Subcommittee met, pursuant to notice, at 10:06 a.m., in 
Room 340, Cannon House Office Building, Hon. John Hall 
[Chairman of the Subcommittee] presiding.

    Present: Representatives Hall, Lamborn, and Turner.

               OPENING STATEMENT OF CHAIRMAN HALL

    Mr. Hall. Good morning. The House Committee on Veterans' 
Affairs Disability Assistance and Memorial Affairs Subcommittee 
hearing on examining the effectiveness of the Veterans Benefits 
Administration's (VBA) training, performance management, and 
accountability will now come to order.
    I would ask everyone to rise for the Pledge of Allegiance. 
Flags are located at both ends, actually this end.
    [Pledge of Allegiance.]
    Mr. Hall. Thank you. And welcome again.
    Our Nation's veterans understand the necessity of proper 
and adequate training. Their lives have depended on it. The 
military trains for its operations and everyone knows every 
detail of their job prior to their mission.
    These same veterans should be able to expect the same level 
of competence when they seek assistance from the Veterans 
Benefits Administration. Unfortunately, that is not always the 
case as we have heard at other meetings and hearings throughout 
the year that this Subcommittee has held regarding the U.S. 
Department of Veterans Affairs (VA) disability claims 
processing system.
    The VA has standardized its training curriculum and 
requires that all claims processors must complete 80 hours of 
annual training. This is a lot of hours because, in fact, some 
healthcare providers do not need to meet that level of 
continuing education to maintain their clinical license or 
credentialing.
    The VBA training topics are identified by the Central 
Office (CO) or by the individual's Regional Office (RO). New 
employees go through an orientation process and there are 
additional online learning tools available through the VBA's 
training and performance support system.
    Yet, with all this effort, VA training seems to fall short 
of its intended goals. Less than 50 percent of the Ratings 
Veterans Service Representatives or RVSRs passed the 
certification exam even though it was an open book test.
    Frankly, I have seen the training manual and it could be 
measured in pounds, not pages. So I do not know how useful the 
book is, especially given the workload that the people being 
trained are already under. But that is sort of the crux of the 
matter.
    As outlined in previous hearings, there are significant 
inconsistencies in ratings between the VA's 57 Regional Offices 
and a high rate of remanded cases.
    I am pleased that the American Federation of Government 
Employees (AFGE) is here to shed light on the issue. You are a 
critical link to those on the front lines working to improve 
outcomes for our disabled veterans.
    The U.S. Government Accountability Office (GAO) released a 
report in May 2008 entitled, ``Veterans' Benefits: Increased 
Focus on Evaluation and Accountability Would Enhance Training 
and Performance Management for Claims Processors.'' That is a 
long title, but sums it up.
    [The GAO Report No. GAO-08-561, which was attached to Mr. 
Bertoni's prepared statement, appears on p. 71.]
    The report documented areas in which the VA needs to 
improve its training and hold accountable those it does train.
    According to the GAO, staff is not held accountable for 
completing the required training since the VBA does not track 
completion, so there are no consequences for not taking the 
training.
    Additionally, the VBA does not evaluate its training, so it 
does not know if it is successfully designed and implemented in 
educational program.
    Feedback is not consistently collected from RO employees on 
the training that they do receive and many have reported 
difficulty in accessing training because of their stringent 
productivity demands.
    I look forward to hearing more from the GAO about this 
report, but these are not surprising conclusions to the 
Veterans Service Organizations who have complained for years 
about the inadequacies of the VBA training program. So I am 
grateful that they have joined us here today as well.
    Training is not an issue that should be taken lightly. We 
all know the importance of good training, but effective 
implementation that ensures consistency and accountability can 
be elusive and that is what I hope we can address today.
    I have taken steps to ensure improved training outcomes, we 
have on this Committee when we passed and the full House passed 
H.R. 5892, the ``Veterans Disability Benefits Claims 
Modernization Act.''
    These policy enhancements will hopefully lead to 
compensation claims processing improvements and more accurate 
claims adjudication results for our veterans and their 
families.
    Moreover, I am not sure that the VBA's current training 
regimen complements its current claims processing improvement 
model or CPI. In fact, I am positive that the current coupling 
detracts from increased accountability efforts.
    I am pleased to report that with the help of many in this 
room, H.R. 5892 passed unanimously on July 31, 2008, by the 
full House. On August 1, 2008, Senator Clinton introduced 
companion legislation, S. 3419, in the Senate.
    So, Congress hopefully is on its way to rectifying the 
inadequacies in the VBA training system that have already been 
identified.
    Today's oversight hearing will allow us to look deeper into 
this issue and gauge where VA is in terms of its training 
protocol and see what other improvements can still be made.
    I look forward to hearing from our witnesses. I hope to 
learn more about best practices and strategies for measuring 
performance, building better training protocols, and 
accountability standards.
    [The prepared statement of Chairman Hall appears on p. 31.]
    And Mr. Lamborn, our Ranking Member, is not present yet, 
but, Mr. Turner, would you like to make an opening statement? 
If so, you are recognized.

          OPENING STATEMENT OF HON. MICHAEL R. TURNER

    Mr. Turner. Sure. Thank you, Chairman Hall.
    Thank you for this opportunity for collective discussion on 
the effectiveness of the Veterans Benefits Administration's 
training, VBA's performance management and accounting 
requirements.
    Over the course of the past several months, this 
Subcommittee has examined nearly every facet of the VA benefits 
claims process system in order to identify how we might help 
the Department overcome the claims backlog crisis.
    While the recent expansion of its workforce will certainly 
have a positive impact, VA must ensure that newly hired claims 
workers receive training that is commensurate with their 
responsibilities. It is critical that the training it provides 
meets the needs of the Department and its employees.
    It is equally important that the results of the training 
are evaluated. Without feedback, VA may never know whether or 
not the training is accomplishing its goals.
    Any viable training program should be able to identify 
deficiencies and demonstrate the intended and actual outcome of 
the curriculum. VA training must be connected to its vision and 
mission and VA managers need to be assured that if employees 
are pulled off the floor for training that it will result in 
long-term benefits.
    With the growing number of pending claims, there is a 
certain level of trepidation that there is too much work to do 
already and we will just get further behind if we have to 
conduct training.
    There must be clear support from the top down in order to 
conduct adequate training and acquire the expected outcomes. 
Certainly training new employees of everything they need to 
know in order to make sound rating decisions is a daunting 
task.
    The VA rating schedule itself is complex and it is merely a 
portion of the array of knowledge a competent adjudicator must 
possess to perform his or her job.
    Today's hearing is an opportunity to not only learn more 
about the training and assessment program VA provides its 
employees but also to reiterate to the Department that it 
should be forthright about any additional resources deemed 
necessary to fulfill this critical requirement.
    Mr. Chairman, I thank you for hosting this hearing on VA's 
training program and I yield back.
    Mr. Hall. Thank you, Mr. Turner.
    I would like to remind all panelists that your complete 
written statements have been made a part of the hearing record 
so that you can limit your remarks to 5 minutes so we can have 
sufficient time for follow-up questions once everyone has had 
the opportunity to testify.
    Our first panel, the entire panel, is Mr. Daniel Bertoni, 
Director of Education, Workforce, and Income Security Issues at 
the U.S. Government Accountability Office.
    Welcome, Mr. Bertoni, and you are now recognized for 5 
minutes.

 STATEMENT OF DANIEL BERTONI, DIRECTOR, EDUCATION, WORKFORCE, 
  AND INCOME SECURITY ISSUES, U.S. GOVERNMENT ACCOUNTABILITY 
                             OFFICE

    Mr. Bertoni. Mr. Chairman, Members of the Subcommittee, 
good morning.
    I am pleased to discuss training, performance management 
for Department of Veterans Affairs' disability claims 
processors.
    Last year, VA paid about $38 billion in benefits to nearly 
four million veterans and their families.
    The disability claims process has chronically suffered from 
long waits for decisions, large backlogs, and problems with 
accuracy and consistency.
    We have also noted that VA's program is in urgent need of 
transformation, especially in regard to how it assesses work 
capacity and provides interventions and support services to 
veterans.
    To address its management challenges, VA has hired 
thousands of additional staff. However, increased staff alone 
will not guarantee more timely, accurate, and consistent 
decisions.
    Among other things, adequate training and performance 
management will be key to developing new staff and ensuring 
that more experienced staff maintain needed skills.
    My remarks today draw from our prior work for this 
Subcommittee and focus on two areas, VA's training program for 
disability claims staff and its performance management system.
    Summary. Consistent with accepted training practice, VA has 
taken steps to align its training with the agency's overall 
mission and goals. For example, in 2004, VA established the 
Training and Learning Board to ensure that training support of 
VA's strategic and business plans.
    Various analyses. VA has also identified the skills and 
abilities needed by staff and taken steps to determine the 
appropriate level of investment in their training and 
prioritize funding.
    Finally, we found that VA's training program for new staff 
defined pertinent terms and concepts and provided many 
realistic examples of claims work. However, we did identify 
areas for improvement.
    While the VA collects feedback to assess initial training 
for new staff, not all training is evaluated to determine how 
relevant or effective it is. None of the Regional Offices we 
visited consistently collected feedback on training they 
provided either for new or experienced staff. Thus, VA's 
Central Office lacks key information on its entire training 
activities.
    Both new and experienced staff reported concerns with their 
training. Some staff noted that VA's computer-based learning 
tool, Training and Performance Support System (TPSS), was often 
out of date and too theoretical.
    The more experienced staff reported that they struggle to 
meet VA's annual 80-hour training requirement due to workload 
pressures or the lack of training relevant to their experience 
level.
    It is unclear what criteria was used to justify the 80-hour 
requirement, but identifying the right amount of training is 
crucial. Overly burdensome requirements can take staff away 
from essential tasks while too little training can contribute 
to errors.
    Putting aside the appropriateness of the current 
requirement, VA has no policies to hold staff accountable for 
meeting it and may be missing an opportunity to convey the 
importance of training as a means to meet individual goals as 
well as broader agency performance goals.
    Regarding performance management, VA's system generally 
conforms to accepted practices in that individual performance 
measures such as quality and productivity are also aligned with 
organizational performance measures.
    Staff are required to receive regular feedback on 
performance and employees and other key stakeholders were 
actively involved in developing the current system.
    However, we are concerned that under the current rating 
formula, VA's system may not make meaningful distinctions in 
staff performance. Although VA has a five category rating 
system in the field offices we visited, 90 percent of all staff 
ended up in only two, fully successful and outstanding as noted 
in the chart we provided.
    We have reported that four or five category systems are 
most useful for making performance distinctions. However, if 
staff ratings are clustered in only one or two categories as 
with VA, this may be problematic.
    Broad, overlapping performance categories may deprive 
managers of information needed to reward top performers, 
address performance issues, deprive staff of much needed 
feedback.
    VA has acknowledged potential issues with the rating 
formula and is considering some adjustments. However, the 
agency has never examined the distribution of all staff across 
the five performance categories. Absent this analysis, VA will 
lack a clear picture of what adjustments are actually needed.
    Conclusion. While VA recognizes the importance of 
developing and maintaining high performing staff, it must 
devote more attention to training and performance management.
    Additional study on such issues as the effectiveness of 
regional training, the appropriateness of the current training 
requirement, and the usefulness of computer-based learning 
tools is needed.
    Additional means for holding staff and managers accountable 
for completing training should be explored as well as options 
for enhancing the current rating system.
    We acknowledge VA's efforts to hire more staff. However, in 
the longer term, more fundamental changes are needed. VA and 
other Federal disability programs must adopt a more modernized 
approach to determining eligibility for benefits as well as the 
timing and portfolio of services that are provided.
    If progress is made in this area, effective training and 
performance management will be of crucial importance and will 
impact the degree to which service to veterans is ultimately 
improved.
    Mr. Chairman, this concludes my statement. I am happy to 
answer any questions you may have. Thank you.
    [The prepared statement of Mr. Bertoni appears on p. 32.]
    Mr. Hall. Thank you, Mr. Bertoni, for that most incisive 
statement and for your written statement as well, which goes 
into considerably more detail, of course.
    In your opinion, what is more effective, the classroom 
training or online tools?
    Mr. Bertoni. I do not know what individual mode of training 
is most effective. I think any training program should have a 
mix of classroom training, on the job, and online, computer-
based tools.
    Agencies should be looking at and evaluating each of those, 
call it the three-legged stool, to ensure that they complement 
each other, they are consistent in terms of the information 
they convey, and they are meeting the needs of staff.
    Mr. Hall. What did you think of the VA's learning 
management system and training and performance support system?
    Mr. Bertoni. Generally we used an in-house criteria to 
assess the four components of training system and generally 
there are four. Our criteria is based on various external 
experts, internal experts at GAO, private-sector individuals, 
nonprofits, and academia. And we came up with a criteria that 
we use quite often to evaluate training and performance 
management.
    Generally we break this apart into four categories, 
planning, design, implementation, and ultimately evaluation.
    And as our report notes, I think VBA and VA are doing an 
adequate job in many respects. They have aligned their training 
with broader agency goals. They have aligned their performance 
management system and with their measuring folks on with their 
broader agency goals and mission.
    So they are doing, I think, many things well relative to 
accepted practices, but still are falling short in terms of in 
the area of feedback. Feedback is essentially your evaluation 
loop. That is how you find and determine whether your training 
is relevant, whether it is effective, and whether it is being 
delivered at the appropriate time. To the extent you are not 
getting that feedback, I think you are missing an opportunity.
    They do a great job or a better job early on for the 
initial orientation training, but I think things fall off as 
staff return to their home units and begin taking training. And 
it is harder for us to get a handle on uniformity, consistency, 
and whether it is as effective as it could be.
    Mr. Hall. Thank you, Mr. Bertoni.
    I understand that proper training is vital to efficiency 
and accuracy, but is training the bottom line problem at VBA? 
Would you correlate the problems inherent in the backlog as an 
issue with training?
    Mr. Bertoni. It is hard to isolate all the factors that 
contribute to the backlog. There are laws, regulation that have 
contributed. There are management inefficiencies that have 
contributed. But training certainly is a tool to get at or to 
address many of the problems that agencies face. We would not 
do it if we did not think it was worthy.
    And clearly when you have good training, you can see 
results. Whether you can, you know, measure clear cause and 
effect, that is probably not something that you can always do. 
But generally a good, solid designed training system is 
effective.
    Beyond training, I do really believe that part and parcel 
with that is a good quality assurance process. Until you know 
where your soft spots are, where your problems are through your 
quality assurance reviews, it is very hard to design training 
that is going to really target and get at the problematic areas 
in your process.
    We have gone many years with timeliness, accuracy, and 
consistency issues, and I have to believe based on some work 
that we have done looking at the STAR system and other quality 
assurance processes that having more robust quality assurance 
could help VBA, VA identify some of the real root causes for 
inconsistency and inaccuracies.
    And I think they really need to focus on that. And it 
appears from the statement I read from VA this morning they are 
heading in that direction.
    Mr. Hall. In reviewing VBA's performance management system, 
how different was it from other Federal agencies? Three-part 
question here. Are there other agencies with a better 
performance management system that VA could adopt and would it 
make sense to give performance credits for training as well as 
for work completion so that there is not pressure to stay on 
the workload and not train?
    Mr. Bertoni. I do not know if it is a matter of giving 
credits for workload completion. I believe their rating should 
reflect the fact that they are doing a good job or a great job 
in terms of processing the workloads.
    Our concern with their performance management system is 
that it may not be rewarding. It may, in fact, be potentially 
demoralizing for some staff.
    I will give you an example. We'll use three people. You 
take the first person who is clearly a high flyer who rates 
exceptional across all the critical and noncritical dimensions. 
That person, it is a no-brainer. That person would be listed in 
the outstanding category.
    We will take another person who is just barely at the fully 
successful level and, you know, just barely eking out a fully 
successful rating, marginally falling below that, but at the 
end of the performance year ends up with a fully successful 
rating.
    Take a third person who is clearly also a high performer. 
That person gets exceptional ratings on all dimensions, 
critical and noncritical. With the exception of one, that 
person gets a fully successful. That individual will be dumped 
into the bucket with that fully successful person.
    Clearly that person falls somewhere between exceptional and 
outstanding, but because of that one fully successful in a 
critical dimension are dropping down into that lower bucket and 
all the incentives, the pay incentives, the other monetary 
incentives are not available.
    So if you are trying to create a world-class organization 
and incentivize people for hard work, this example really 
disturbs us. We see in the four regions that we visited 90 
percent of all folks in two categories and nobody in that 
second excellent category. It gives me pause.
    Mr. Hall. Thank you, Mr. Bertoni.
    My time is expired. I will now recognize and welcome our 
Ranking Member, the gentleman from Colorado, Mr. Lamborn.
    Mr. Lamborn. Yeah. And thank you, Mr. Chairman.
    Mr. Bertoni, you apparently have some familiarity with 
other departments other than the VA because of looking at 
training programs in other parts of the Federal Government.
    What are some successful components that you have seen in 
some of these other areas that you would suggest the VA should 
imitate?
    Mr. Bertoni. Again, I will hearken back to what we 
identified in our report. I think you really need to foster a 
rigorous system for feedback and evaluation. If you are 
focusing on new employees at the initial orientation level and 
getting good information there, fine. We acknowledge that.
    But when these folks transfer back or go out into their 
home units and are taking this, you know, training at the 
regional level, there is no feedback loop that is feeding back 
into VBA's headquarters so they can use this information to 
identify areas where they are falling short and ultimately to 
devise training to get at some of the problems that we have 
talked about in the area of accuracy and consistency.
    World-class organizations have completed that wheel, 
planning, design, implemented, and your evaluation loop. To the 
extent that all those elements are firing, you have better 
systems. And there are some organizations that do better than 
others.
    Mr. Lamborn. Thank you.
    Mr. Chairman, I yield back.
    Mr. Hall. Thank you, Mr. Lamborn.
    And one more question, Mr. Bertoni. In 2001, the GAO issued 
a report ``Veterans Benefits Training for Claims Processors 
Needs Evaluation.'' At that time, the GAO found that the TPSS 
was being implemented differently in each Regional Office. I 
know that the VBA has mandated some of the training, but 
employees have raised concerns about the training and claim 
limited time for it because of workload demands.
    So what differences do you see in the VA's training process 
from that time, from 2001 to the present?
    Mr. Bertoni. We really did not delve into the TPSS system. 
We had the prior report. We followed up our recommendations.
    I know that VA has taken steps to monitor and approve that 
system. I think there is an ongoing effort and I think almost a 
report to be issued shortly also. But we really did not delve 
into the system exclusively.
    We were only able to sort of give a snapshot of what was 
going on in the four Regional Offices and there was clearly 
some noise that the TPSS system was not all it could be for 
some folks in terms of the timeliness of the information in 
there, the relevance, especially in regard to the collection of 
medical evidence. I believe that came up frequently.
    But this was not a look at TPSS. It was sort of a broad-
based review of all the elements and tools that are there for 
staff to use.
    Mr. Hall. Okay. Well, that is all the questions I have. Mr. 
Lamborn, if you are done, I would thank you, Mr. Bertoni, again 
for your testimony. And your panel is now excused.
    Mr. Bertoni. Thank you.
    Mr. Hall. And thank you so much.
    And joining us now on our second panel, we would like to 
welcome Mr. Michael Ratajczak--is that correct----
    Mr. Ratajczak. Ratajczak. Thank you.
    Mr. HALL [continuing]. Decision Review Officer at the 
Cleveland Veterans Affairs Regional Office on behalf of the 
American Federation of Government Employees; Mr. Kerry Baker, 
Assistant National Legislative Director of the Disabled 
American Veterans (DAV); Ronald Abrams, Joint Executive 
Director of the National Veterans Legal Services Program 
(NVLSP); Dr. Patricia Keenan, Manager of Employee Performance 
Enhancement and Growth Program at the Human Resources Research 
Organization (HumRRO); and Mr. Nick Bartzis, a veteran from 
Cleveland, Ohio.
    Welcome, all, and your statements, written statements are 
in the record so that we will allow you to deviate and ask you 
to stay within the 5 minutes so we have time for questions for 
everybody.
    Tell me one more time. Ratajczak.
    Mr. Ratajczak. Ratajczak.
    Mr. Hall. Ratajczak. Mr. Ratajczak, you are now recognized 
for 5 minutes.

   STATEMENTS OF MICHAEL RATAJCZAK, DECISION REVIEW OFFICER, 
 CLEVELAND VETERANS AFFAIRS REGIONAL OFFICE, VETERANS BENEFITS 
   ADMINISTRATION, U.S. DEPARTMENT OF VETERANS, ON BEHALF OF 
  AMERICAN FEDERATION OF GOVERNMENT EMPLOYEES, AFL-CIO; KERRY 
   BAKER, ASSISTANT NATIONAL LEGISLATIVE DIRECTOR, DISABLED 
AMERICAN VETERANS; RONALD B. ABRAMS, JOINT EXECUTIVE DIRECTOR, 
 NATIONAL VETERANS LEGAL SERVICES PROGRAM; PATRICIA A. KEENAN, 
 PH.D., PROGRAM MANAGER, HUMAN RESOURCES RESEARCH ORGANIZATION 
   (HUMRRO); AND NICHOLAS T. BARTZIS, CLEVELAND, OH (VETERAN)

                 STATEMENT OF MICHAEL RATAJCZAK

    Mr. Ratajczak. Thank you.
    I think I have as much practical experience with regard to 
training issues at the VBA as anyone in the room. I served as 
centralized challenge instructor. I worked on the certification 
design Committees. I have identified trends in errors by 
interacting with Board of Veterans' Appeals (BVA) personnel. I 
have taken some remedial action to fix errors resulting from 
what ultimately is improper and effective training.
    As a Decision Review Officer every day, I kind of am 
serving as a forensic pathologist where I look at a case where 
a mistake was made and trying to assign a reason for that 
mistake. When I have done that more often than not, I will 
effectively as possible take the case to the person who may 
have made the mistake and say this is what you did, let us try 
and avoid that in the future.
    More often than not as an explanation for their actions, 
the folks who made an error will attribute the error to the 
fact that, well, I just did not know that. I was not trained. I 
do not even know where to find that information.
    To the extent that errors are made, it is obviously a 
reflection of improper training on behalf of the VBA.
    And what I would like to submit is that the folks who are 
making these errors, the front-line claims adjudicators, 
veterans representatives, specialists, decision officers, they 
have an interest in effective training. They do not want to 
make mistakes because as we all do, they have service to 
veterans at heart ultimately.
    But beyond that, if they are making mistakes, adverse 
employment action can be taken against them. They can be put on 
a production improvement plan. So they have a very real 
interest in effective training and participating in effective 
training.
    To the extent that that opportunity for effective training 
is not presented to them, I think we can do better.
    I was struck by the testimony in previous hearings before 
this Subcommittee and others regarding complexity, increasing 
complexity of the process, judicial review, explanations for 
why there is a backlog in the VBA.
    And all that is true. VBA no longer operates in splendid 
isolation for judicial review, so the court comes back and 
looks at VBA's processes and says, well, this is what you need 
to do, this is what you are not doing correctly.
    Those kind of decisions should be viewed more as an 
opportunity than as an impediment because we can take those 
decisions, take the reasoning in them, and identify things they 
need to be trained on so we avoid the mistakes in the future.
    Recognizing that there is a component to the backlog which 
is attributable to complexity in legal review, VBA, I do not 
think, has made the same leap to the fact that those same 
elements have a detrimental impact on an individual employee's 
ability to do their job.
    Obviously if a given claim is more complex and there are 
additional legal requirements placed on the Veterans Service 
Representatives (VSRs) and Rating Specialist, it is going to 
take them longer to do their job and maybe what we could do is 
design some effective training to make them more efficient in 
doing their job in the face of increasing complexity and 
increasing legal requirements. I am going to suggest briefly a 
couple of methods of doing that based on my experiences.
    I just want to note that I did read the GAO report. I think 
overall it is accurate, but I want to caution anybody who will 
listen to the extent that it may imply that individual claims 
processors are responsible for improper training, that cannot 
be the case. They do not have the ability to go to their 
management and say, hey, I need more training. You need to do 
that so I can do my job better. Frankly, that is someone else's 
job to do that training and give them the opportunity for it.
    Several actions can be taken to include training. Number 
one, centralize curriculum from Central Office implemented by 
instructors that are responsible to Central Office. That would 
provide a uniform voice to all Regional Offices. This is CO's 
policy.
    To the extent that adjudicators' experience will be 
informed by that uniform training, you would expect to get some 
uniformity and some more consistency in the decisions.
    Also, I think Veterans Service Representatives, Rating 
Specialists in particular, should be given work credit for 
doing deferred actions where they have direct additional 
development in a claim to the person who is responsible for 
developing the evidence. That would provide feedback to people 
developing the evidence and also an incentive to the Rating 
Specialists.
    Thank you.
    [The prepared statement of Mr. Ratajczak appears on p. 39.]
    Mr. Hall. Thank you, Mr. Ratajczak.
    Mr. Baker, now you are recognized for your statement.

                    STATEMENT OF KERRY BAKER

    Mr. Baker. Mr. Chairman and Members of the Subcommittee, on 
behalf of the DAV, I am pleased to offer my testimony to 
address VA's training, accountability, and performance 
measurement system.
    VA has a standard training curriculum for new claims 
processors and an 80-hour annual training requirement for all 
claims processors.
    DAV has long maintained that the VA should invest more in 
training and hold employees accountable for higher standards of 
accuracy.
    VA's problems caused by a lack of accountability do not 
begin in the development and the rating process and in the 
training program of which we can find little, if any, 
measurable accountability.
    For example, some employees inform DAV that many candidates 
begin centralized training before they complete or even start 
phase one training. Candidates are then not held responsible 
via formal testing on subjects before advancing to phase two 
training.
    As in phase one, VA refuses to test phase two trainees. 
Without such testing, VA cannot gauge the success of its 
learning objectives.
    During phase three training, employees work on real world 
cases. That notwithstanding, no accountability, no testing, and 
no oversight other than that provided locally. That oversight 
is not measured nationally.
    The result of such an unsupervised and unaccountable 
training system is that no distinction exists between 
unsatisfactory performance and outstanding performance. Lack of 
accountability during training eliminates employee motivation 
to excel.
    The need for improvements in VA's training program became 
evident when it began the skills certification test for VSRs. 
The first two attempts at the test produced a 25- and a 29-
percent pass rate. The third produced a 42-percent pass rate 
but only after employees completed a 20-hour prep course to 
pass the test.
    Mandatory, comprehensive testing designed cumulatively one 
subject area to the next for which VA then holds trainees 
accountable should be the number one priority of any plan to 
improve VA's training program.
    Further, VA should not allow trainees to advance to 
subsequent stages of training until they have successfully 
completed such testing.
    DAV has also long stated that in addition to training, 
accountability is the key to quality. Therefore, timeliness.
    We believe VA's quality assurance or STAR Program is 
severely inadequate. In 2006, the STAR Program reviewed just 
over 11,000 compensation and pension (C&P) claims for improper 
payments. There was only .72 percent of the total number of 
cases available for review. However, a more reliable measure of 
VA's accuracy and its lack of accountability is shown through 
the Board of Veterans' Appeals' annual report.
    Fiscal year 2007, the Board decided approximately 40,000 
appeals. The Board reversed 21 percent of those appeals and 
remanded over 35 percent. Of those remands, over 7,000 of those 
cases or nearly 20 percent were remanded because of errors in 
the most basic of procedures, procedures that should be 
elementary to every single decision-maker.
    The problem is compounded when one considers that those 
errors cleared the local Board, local Rating Board and the 
local Appeals Board which contain VA's most senior Rating 
Specialists. These facts clearly show little incentive for many 
employees to concern themselves with the quality of their work.
    Congress should require the Secretary to report on how the 
Department could establish a quality assurance and 
accountability program that will detect, track, and hold 
responsible those employees who commit errors.
    We believe that effective accountability can be engineered 
in a manner that would hold each VA employee responsible for 
his or her work as a claim moves through the system while 
simultaneously holding all employees responsible.
    If such errors are discovered, employees responsible for 
such errors should forfeit a portion of their work credit. This 
idea is discussed more in my written testimony, but I would be 
happy to explain further if the Committee has questions.
    I believe this type of accountability system will draw on 
the strengths of VA's performance measurement system, thereby 
allowing easier and less disruptive implementation of stronger 
and more effective accountability.
    Mr. Chairman, that concludes my statement, and I will be 
happy to try to answer any questions you might have.
    [The prepared statement of Mr. Baker appears on p. 42.]
    Mr. Hall. Thank you, Mr. Baker.
    Now, Mr. Abrams, you are recognized for 5 minutes.

                 STATEMENT OF RONALD B. ABRAMS

    Mr. Abrams. Good morning, Mr. Chairman and Members of the 
Committee. I am pleased to have the opportunity to submit this 
testimony on behalf of NVLSP.
    As some of you know, we have trained thousands of service 
officers and lawyers in veterans' benefits law. We have written 
books, textbooks, and guides on veterans' benefits and we help 
people represent veterans seeking VA benefits.
    We also conduct quality reviews of the VA Regional Offices 
on behalf of the American Legion. We believe after reviewing 
all of this that the effectiveness of VBA training should be 
measured by the quality of the work product produced by VA 
adjudicators.
    Therefore, the quality and timeliness of VA adjudication 
should reflect the effectiveness or lack thereof of VA 
training. Because the quality of VA adjudications is in our 
opinion inadequate, NVLSP must conclude that VBA training is 
not effective or adequate.
    In the experience of NVLSP over 10 years of quality checks, 
over 40 VA Regional Offices combined with extensive 
representation before the Veterans Court, we find that most of 
the worst VA errors are the result of premature Regional Office 
decisions.
    We find that many VA managers emphasize quantity over 
quality, making many aspects of training not relevant. That is 
because VA workers want to please the people they work for. 
Training is de-emphasized because production is paramount.
    VA employees consistently let us know that they are told 
that time spent training reduces the time available to produce 
decisions. Also training VA workers regarding the procedures 
designed to protect the rights of claimants, developing the 
claim fully, reviewing the entire file instead of top sheeting, 
which is just looking at the first couple of pages--all takes 
time. The essence of fairness in this particular process is 
giving the VA worker the time to do the job.
    In fact, in September 2008, courageous VA Regional Office 
employees filed a grievance exposing this overemphasis on 
production. That grievance is attached to my testimony. The 
grievance asserts that the Regional Office created and 
encouraged a culture in which quantity is emphasized to the 
detriment of quality, that the RO failed to properly implement 
training to assure that those reviewing claims are sufficiently 
trained and that the RO failed to properly implement a fair and 
impartial performance appraisal system that assures that 
quantitative measures of performance are not emphasized to the 
detriment of measures of quality.
    These VA workers allege they were told to produce cases. It 
did do not care about the quality of their work or it did not 
care that much. And we think that the quality of the VA work is 
much worse than what is reported by the VA.
    As Kerry testified, the BVA statistics are scary. If over 
50 percent of what goes up to the Board of Veterans' Appeals 
has to be returned because the VA in general failed to follow 
proper process, we have a problem. That is the best quality 
check possible.
    I want to thank you for permitting NVLSP to testify on this 
important issue. I will be happy to take any questions.
    [The prepared statement of Mr. Abrams appears on p. 47.]
    Mr. Hall. Thank you, Mr. Abrams. We will have some 
questions for you.
    Dr. Keenan, you are now recognized.

             STATEMENT OF PATRICIA A. KEENAN, PH.D.

    Dr. Keenan. Good morning, Mr. Chairman and Members of the 
Subcommittee. I am Patricia Keenan, a Program Manager at the 
Human Resources Research Organization or less formerly and more 
shortly is HumRRO.
    HumRRO is a nonprofit 501(c)(3) research and development 
organization established in 1951 that works with Government 
agencies and other organizations to improve their effectiveness 
through improved human capital development and management.
    Our comment today is about the compensation and pension 
services training program as well as on methods to reduce 
training variance.
    I am the project leader for HumRRO's work with VBA skills 
certification programs. HumRRO has worked closely with C&P 
service on skill cert programs for Veterans Service 
Representatives or VSRs since 2001.
    We have seen passing rates on the VSR test rise steadily 
since the beginning indicating to us that C&P's training 
initiatives are having a positive effect.
    As part of our work, we conducted numerous focus groups and 
interviews at Regional Offices. As a result, we identified 
several factors that decrease rating consistency.
    First, the RVSR job is very cognitively demanding. It 
requires knowledge of medical conditions, regulations, and the 
rating schedule, attention to detail, decisiveness, and strong 
analytical ability. These requirements exacerbate the other 
challenges RVSRs face.
    The second factor we identified is the problem of 
incomplete information in the rating schedule. While the 
schedule contains over 700 diagnostic codes, by comparison, the 
international classification of diseases by the medical 
profession contains thousands of codes.
    Many areas of the rating schedule leave room for 
interpretation and RVSRs develop individual rules for matching 
the medical evidence to the schedule. This allows them to 
reduce the cognitive load and work more quickly, but it also is 
a source of rating variance.
    The rating schedule does not have diagnostic codes for some 
conditions such as Parkinson's disease or carpal tunnel 
syndrome. When a claim includes an unlisted condition, the RVSR 
rates it by analogy to a closely related disease or injury. By 
their nature, these analogous codes lack criteria for rating, 
so raters have to research different conditions to make the 
evaluation that may not be very straightforward.
    The third challenge to the RVSR is related to workload. The 
sheer volume of cases awaiting adjudication sometimes results 
in a lack of attention to detail. One way this shows itself is 
in cases that are not ready to rate and require additional 
development. This means the RVSR has spent time reviewing a 
case, but the decision must wait for new information and the 
case must be reviewed a second time.
    The pressure also shows itself in rating decisions that 
rely too heavily on the use of templates rather than clearly 
establishing the connection between the medical evidence 
presented and the regulations in a way that is easily 
understandable.
    It is very important that veterans feel confident that 
their cases have been fairly evaluated.
    VBA's recent wave of hiring was the best long-term response 
to the influx of claims. However, one result has been that 
newly hired RVSRs do not understand the development process 
well.
    Although the workload of the RVSR is not going to lighten 
in the near future, there are some actions that could help 
improve rating consistency.
    First, to address one of the workload issues, newly hired 
RVSRs should work predetermination for several weeks to learn 
the system. The obvious drawback to this is that it would take 
longer for new RVSRs to begin rating cases. But we believe 
having this additional knowledge would pay off in the longer 
term.
    Second, job aids that include more specific medical 
information and rating schedule would ease the cognitive 
complexity of the job and reduce the individual interpretation 
of the ratings. However, job aids cannot help with the complex 
problem of writing good rating decisions.
    One long-term solution to this problem would be to develop 
a selection tool that assesses an applicant's ability to 
synthesize information and present it in a well-structured, 
easily comprehensible document.
    Finally, VBA should ensure that all RVSRs continue to 
receive standardized training.
    It has been HumRRO's pleasure to work with the C&P service 
for the past 7 years. We are honored to be even a small part of 
the valuable work the Veterans Benefits Administration does for 
America's veterans. We have watched both the skill 
certification program and C&P service over this time. The 
effort devoted to training has been steadily improving pass 
rates on the test.
    Beyond training, we have identified several areas that 
could further increase rating consistency. Addressing the 
problems of cognitive complexities, ambiguity in the rating 
schedule, and workload is something VBA should continue.
    Thank you for this opportunity.
    [The prepared statement of Ms. Keenan appears on p. 61.]
    Mr. Hall. Thank you, Dr. Keenan.
    Mr. Bartzis, you are now recognized for 5 minutes.

                STATEMENT OF NICHOLAS T. BARTZIS

    Mr. Bartzis. Thank you, sir.
    Thank you for the invitation to speak here today as a 
veteran and I am here today as a private citizen. However, I 
have a few statements beyond my written statement to go 
through. Most of them are in the form of----
    I raise my right hand approximately 20 inches. I am going 
to show approximately a half an inch with my left hand. If we 
determine we have two cases, the cases make the mistake, make 
the same mistake on the same issue, how long is it going to 
take to go through all of the medical evidence on the case on 
the right as opposed to the case on the left? The answer to 
that question to me or the question itself is how much time is 
it going to take?
    But what I am really talking about is time. If I have to go 
through 20 inches of medical evidence or if I have to go 
through \1/4\ inch or \1/2\ inch of medical evidence, I am 
going to spend a significantly different amount of time to find 
the error.
    It has been stated earlier that part of the problem is the 
development issue, but the actual issue is how much time does 
it take and who is going to do it. That is a question I believe 
the Committee should ask.
    The second issue is accountability. Who is going to do it 
and when and where is a failure, if any?
    The rest of the statements are in my written statement, and 
I will defer to that. Thank you very much.
    [The prepared statement of Mr. Bartzis appears on p. 65.]
    Mr. Hall. Thank you, Mr. Bartzis.
    I will recognize myself now for a round of questions.
    Mr. Ratajczak, what happens when RO staff cannot complete 
the 80 hours of training?
    Mr. Ratajczak. To the best of my knowledge, nothing 
happens. I do not think there is any detrimental effect on the 
individual adjudicator if they have not concluded their 
training requirements. I suppose that there would be some 
method in place for them to do some remedial training. But to 
the extent that they are not held accountable for ensuring the 
training to begin with, nothing happens.
    As far as a practical matter, what happens is they do not 
get enough training and obviously we get poor decisions and 
increasing appeals.
    Mr. Hall. Dr. Keenan, you spoke of new hires having an 
initial period of, if I understood you correctly, of training 
before they start working on cases.
    What amount of time do you recommend and is that something 
that you have seen succeed in other similar situations in other 
agencies?
    Dr. Keenan. For them to work predetermination before they 
start rating cases?
    Mr. Hall. Right. To just have a concentrated training 
period before they start rating cases.
    Dr. Keenan. Well, right now they do have a 3-month training 
period before they start rating, but they do not have enough 
time to learn all the intricacies of predetermination which is 
all the evidence gathering that is required for the RVSR then 
to be able to make ratings, solid ratings. So if they could 
spend an extra 6 or 8 weeks doing pre-d, just learning the 
whole claims process.
    What we heard in our visits to the ROs was that the people 
who are promoted internally to RVSRs, it is a road running much 
more than people who are hired from the outside.
    Mr. Hall. Yes.
    Dr. Keenan. And that makes perfect sense. It is a very 
complicated process. There is a lot to learn in PR and when you 
are doing a rating decision, you have to understand, you have 
to be able to look at the evidence and know that you have 
enough there to make your decision.
    If the VSR has not developed all of that information and 
you do not know this and you spend time going through your case 
and then have to defer it, as Michael mentioned before, so if 
they could spend more time once they have gone through their 
initial training and then go through pre-d, spend some time, 
they will still be working cases in pre-d, so they are helping 
in that sense getting things ready to rate, they will have a 
much better sense of the whole process.
    Mr. Hall. So rather than 3 months, you suggest 4 or 5 
months, in effect? An additional 6 to 8 weeks, you said?
    Dr. Keenan. Yes.
    Mr. Hall. Why do you think Dr. Keenan, so many VBA 
employees had a problem in passing the open book test that you 
developed?
    Dr. Keenan. When VBA first told us they wanted an open book 
test, we were totally dumfounded. We do a lot of certification 
work and it is always closed book. You come in on a Saturday. 
You take the test.
    But once we realized the complexity of the job and the fact 
that people really cannot do their job just with their memory, 
it is just too complicated, there are too many rules, too much 
money, too many regulations, they have to have training aids, 
job aids, you know, regulations available to them so that they 
can make these decisions.
    The tests are fairly applied, so it is not just a matter of 
recall which screen you use for that, although those are 
important to know because it makes you work more efficiently. 
The----
    Mr. Hall. So you think they need more time to take the 
test?
    Dr. Keenan [continuing]. Well, we actually just had a 
meeting about that yesterday. We are going to add----
    Mr. Hall. Because it is a learning experience? The test 
itself?
    Dr. Keenan [continuing]. We want them to learn while they 
are testing.
    Mr. Hall. Right.
    Dr. Keenan. We hope that they will come in knowing that. 
And we had originally set the time limit. It is a two part 
test, half in the morning and half in the afternoon, 2 hours 
and 45 minutes in the morning and 2 and 45 in the afternoon. We 
are going to expand that to a full 3 hours both times.
    Mr. Hall. Thank you. I am sorry to have to interrupt you, 
but I only have a little bit of time left in this round.
    Mr. Baker, in your testimony, you mentioned that the VBA 
does not test participants after each phase of training.
    Do you think it would be better to test at these intervals 
instead of the certification exam or in addition to the 
certification exam?
    Mr. Baker. Well, if I may clarify. It sounded like I was 
pretty rough on VA employees there and I want to make sure that 
you know I was not aiming at VA employees. It was the system 
that I would like to see improved.
    But to answer your question, I think it should be both, 
absolutely testing during the training phases, cumulative 
testing, so that you are responsible for what you learned in 
the previous phase and the current phase and so on and so on.
    I agree with the open book because my opinion this is more 
of a legal system than anything else and as complex it is, 
people need to know where to find it. And I would go as far as 
to have those resources cited in the answers.
    But if there was some incentive to do that, I think you 
would end up with a lot better training right up front.
    Mr. Hall. With Mr. Lamborn's patience and agreement, I am 
going to just go on and ask a couple more questions even though 
the red light is on.
    Mr. Abrams, what steps would you recommend that VA follow 
to improve their training program and, in particular, should 
VBA training be contracted out to lawyers and doctors who 
specialize in disability compensation cases?
    Mr. Abrams. The first thing that we would recommend is that 
we make upper management accountable by evaluating the BVA 
reversal and remand rate. We are not confident in the STAR 
Program. We do know many of the VA managers and they are good 
people. They are smart. And if their promotions and raises were 
contingent in part on the quality of the work performed at 
their Regional Office or for Central Office, the national 
figures, I have confidence that they would implement a real 
good training program because it would affect them.
    Right now it does not affect anybody when things are not 
good at the Board or even at the court where I know that we 
screen many, many cases. And the ones we take, we win over 90 
percent of the time because there are many process errors.
    Can you ask your second question again?
    Mr. Hall. The second question, and this relates to various 
aspects of the VA's work, because of the backlog, the workload 
and the complexity and funding or staffing difficulties over 
the years, we keep running up against privatization proposals. 
But in particular, this is training I am talking about.
    Mr. Abrams. Right.
    Mr. Hall. Should VBA training be contracted out to lawyers 
and doctors who specialize in disability compensation cases?
    Mr. Abrams. Well, I will tell you, on one of our quality 
trips, I was asked by the Regional Office manager to train the 
Rating Boards in an area where we all agree they were making 
error after error. And after I was finished training, they came 
up to me and said we would like to do what you say, but we do 
not have time.
    When I got back to DC, I realized that we have an ethical 
issue here. If we are going to sue the VA in Federal Court as a 
matter of practice, if we are going to represent veterans, I am 
not certain that most knowledgeable lawyers who represent 
veterans before the VA, the Board, and the courts should be 
involved in training the VA too. It seems to put the advocate 
on both sides of the table.
    I think that if the VA wants to contract, I think that the 
people who do that may have to give up their other duties. 
There is a real tension there to me.
    Mr. Hall. Okay. Thank you so much, Mr. Abrams.
    Mr. Bartzis, you testified in your written statement that 
nationwide for the period of January 1, 2007, through September 
5, 2008, the training and performance support system basic 
rating completion report lists 2,115 RVSR employees. Only 124 
have completed the TPSS portion of the training. This is a 
completion rate of 17 percent.
    Could you elaborate on this point, please?
    Mr. Bartzis. First, I would like to state that there is a 
calculation error. The error is, it is not 17 percent 
completion rate. It is a 5.8 percent completion rate.
    Second, it is common knowledge of myself and other people, 
VA employees that I speak with that TPSS does not get 
completed. What we have is a complex system and we have 
multiple layers of people who get employed at different times.
    One layer of employee hired at a certain date may only 
complete portions of the basic completion report. Another 
section might complete half of it. Another section might 
complete a very small portion.
    In order to elaborate, what this shows me is a very low 
percentage of VA employees have completed the scheduled 
training. Whether it is 5.8 percent or 17 percent or 50 
percent, what we have is a significantly low portion of a 
completion of training during a specified time period.
    Mr. Hall. Thank you, Mr. Bartzis.
    I will now recognize Mr. Lamborn.
    Mr. Lamborn. Thank you, Mr. Chairman.
    And I have a couple of questions for Mr. Ratajczak.
    There seemed to be three main bodies of knowledge that the 
VA employees who are doing this need to be aware of, the VA 
rating schedule, Title 38, and precedent court decisions.
    Are you finding in your review of erroneous decisions that 
one or more of those areas are where there needs to be extra 
training?
    Mr. Ratajczak. I would say it is the application of court 
decisions and continuing legal requirements to the actual 
development of cases insofar as that interacts with the 
veterans.
    It is not hard, well, I should not say it is not hard, but 
it is easier to rate or adjudicate a claim, make the decision 
with regard to the entitlement service connection, evaluation, 
and effective date if all the evidence is before you.
    When the evidence is not before you, when the case is not 
properly developed, it becomes difficult if not impossible to 
do that correctly. Given the time constrains that folks have to 
make these decisions, oftentimes they are not given any 
incentive to actually make the case right before they make the 
decision.
    So I think the real crux of the problem is that the folks 
who are developing the evidence need to know what they are 
developing and why they are developing it and how to do that. 
And that, I think, is informed by the case law and the 
regulations.
    Mr. Lamborn. Okay. Thank you.
    And, secondly, in the area of centralized training 
curriculum, which you were referring to from the Central 
Office, who do you think should develop this? Should it be 
experienced field employees or is there also a role for outside 
experts?
    Mr. Ratajczak. Well, the one thing that the GAO report 
points out is that Central Office staff does a very good job 
with regard to developing a curriculum for initial hires. And 
to that extent, I think that the Central Office staff as it 
exists now maybe with some additional personnel would be able 
to design a curriculum that is relevant to new issues as they 
develop and design a curriculum that sets forth the best 
practice with regard to how these issues should be dealt with 
by folks out in the field, some language that they can use in 
their rating decisions so that they are legally sufficient.
    I think that might be the better way to go simply because 
those folks that are already in VBA are already familiar with 
the process. If we were to go out and try to contract out, get 
someone else to do it, I think that there would be a very large 
lag time, number one.
    And, number two, ultimately the training has to be 
responsive and coordinated with what the policy of the VBA is. 
Contracted lawyers, et cetera, who are not interpreting that 
policy and those practices, we may get a good disconnect.
    Mr. Lamborn. Okay. Thank you for your answers.
    And thank you all for your testimony.
    Mr. Hall. Thank you, Mr. Lamborn.
    We have more questions, but what we are going to do is 
submit them to you in writing. And you have provided lots of 
answers in your testimony to begin with.
    So, Mr. Ratajczak, Mr. Baker, Mr. Abrams, Dr. Keenan, Mr. 
Bartzis, thank you for your work on behalf of our Nation's 
servicemembers and veterans. And you are now excused. Thank you 
very much.
    And joining us in our third panel is Michael Walcoff, 
Deputy Under Secretary for Benefits of the Veterans Benefits 
Administration at the Department of Veterans Affairs.
    Mr. Walcoff is accompanied by Dorothy Mackay, Director of 
Employee Development and Training of the Veterans Benefits 
Administration, and Bradley Mayes, Director of Compensation and 
Pension Service of the VBA at the Department of Veterans 
Affairs.
    Of course, you know the routine. Your written statement is 
made a part of the record, so feel free to deviate from it. Mr. 
Walcoff, you are now recognized for 5 minutes.

   STATEMENT OF MICHAEL WALCOFF, DEPUTY UNDER SECRETARY FOR 
BENEFITS, VETERANS BENEFITS ADMINISTRATION, U.S. DEPARTMENT OF 
  VETERANS AFFAIRS; ACCOMPANIED BY DOROTHY MACKAY, DIRECTOR, 
     EMPLOYEE DEVELOPMENT AND TRAINING, VETERANS BENEFITS 
   ADMINISTRATION, U.S. DEPARTMENT OF VETERANS AFFAIRS; AND 
  BRADLEY MAYES, DIRECTOR, COMPENSATION AND PENSION SERVICE, 
 VETERANS BENEFITS ADMINISTRATION, U.S. DEPARTMENT OF VETERANS 
                            AFFAIRS

    Mr. Walcoff. Thank you, Mr. Chairman.
    Actually, I did have an oral statement that was derived 
from my written statement, but instead I think because the 
written statement is part of the record, I would like to use 
this time just to address some of the issues that were raised 
by the previous panels. Hopefully that will be okay.
    I want to start with some of the testimony presented by my 
old friend, Mr. Abrams. And in his testimony, he talked about 
what he saw as an emphasis within VBA on productivity at the 
expense of quality. And he said that he has seen that and heard 
that from employees who work within VBA.
    What I would like to offer concerning that is the objective 
criteria that we actually use to evaluate our employees and our 
managers, and I will give you three instances to refute what 
Mr. Abrams said.
    First of all, in our Directors' performance standards, we 
have in their standards equal elements for both productivity 
and quality. They are weighted exactly the same.
    In our employees' performance standards, again we have two 
elements, two of the elements are productivity and quality, 
again weighted exactly the same.
    And in our incentive award criteria, we go a step further. 
In that criteria, in order for a station to qualify for what we 
call level two money, they have to meet a variety of factors 
and normally we will list, say, five or six factors and say you 
have to meet four of them.
    But in addition to the four of the six factors, they have 
to meet all of their quality factors. That is one that never 
can be waived. Always have to meet quality. And I think that 
gives an indication of the fact that we do put a lot of value 
on quality, certainly as compared to productivity.
    Another statement Mr. Abrams made had to do with work sent 
back from the Board. And he said that 50 percent, over 50 
percent of work that is sent to the Board comes back to the VA 
as incorrect.
    I will tell you that is basically a totally false 
statement. The remands, as he was referring to, the actual 
avoidable remand rate, meaning cases that go back to the ROs 
because of mistakes made by those Regional Offices is 18 
percent.
    Now, I am not saying 18 percent is something that is, you 
know, as good as we would like it to be, but it is a far cry 
from over 50 percent. And I wanted to clarify that on the 
record.
    Mr. Chairman, in your opening statement and then in 
questions with Dr. Keenan, you talked about certification and 
said that you had been told that over 50 percent of the Rating 
Specialists, RVSRs, who took the certification test failed it.
    And I wanted to clarify that. The actual pass rate on the 
one RVSR certification test that we have given is 85 percent. 
What you were referring to is the pass rate on the VSR test 
which was at 49 percent.
    And what I would say to you is that you have to understand 
that the VSR certification test measures the employee's ability 
to move into the senior technical position in authorization, 
which is what a VSR does.
    The person who gets that position has to be at a point 
where they can authorize the work of other employees. We do not 
believe that every employee necessarily will get to the point 
where they can authorize the work of other employees.
    So, frankly, 50 percent as a pass rate did not surprise us 
and I do not believe there is anything wrong with that. The 85 
percent on Rating Specialists is different because that is a 
test that measures basic knowledge of rating skills. So I would 
expect the pass rate to be higher in that and, of course, it 
was.
    I want to address something that Dr. Keenan said where she 
talked about the desire that Rating Specialists should have an 
extra 3 weeks of training in predetermination.
    Normally in ideal circumstances, we promote people to the 
Rating Specialist from the VSR position where they have been 
doing that development work throughout their career. So it is 
really not necessary to do additional training.
    Because of the unusual circumstance that we have been going 
through over the last year and a half where we were hiring so 
many people, bringing most of them in as VSRs, we were put in a 
position where we really could not promote the number of Rating 
Specialists that we would need to do the work that is being 
developed by these new VSRs all from the VSR position because 
then we would be left with no experienced VSRs and we wound up 
having to hire some Rating Specialists off the street.
    And they are the people that she is talking about that 
should spend some time in predetermination. That is a very 
small percentage of the total Rating Specialists that we hire, 
but I think her point is well taken and it is something that we 
will definitely look at.
    There are three points that I wanted to make just 
addressing some of the previous remarks. And at this point, I 
will turn it over and say I will be very willing to----
    Mr. Hall. Even though the light is red, you are the guy 
that we are here to hear from, so feel free to continue.
    Mr. Walcoff [continuing]. Okay. Then let me address one 
other thing that you had mentioned and that was that employees 
should get credit for training.
    And, in effect, they do get credit for training in that 
when we measure their productivity during the day, they get 
excluded time for any time that they are in training. So that 
does not count against them. If anything, it makes it so that 
the ratio of hours available for work and the work they do is 
equal so that they do not get penalized for being in training. 
And I think that is an important point.
    But at this point, I think I would like to end my statement 
and be available to answer any questions you have.
    [The prepared statement of Mr. Walcoff appears on p. 68.]
    Mr. Hall. Thank you, Mr. Walcoff.
    Mr. Lamborn is double booked for most of this day, so we 
are going to let him go first, the Ranking Member, Mr. Lamborn.
    Mr. Lamborn. Thank you, Mr. Chairman.
    At this point, I will just defer to you because I do not 
have any questions.
    You have done a good job in your written testimony and I 
will be looking that over further. And I will submit further 
questions to you if any arise. Thank you.
    Mr. Walcoff. Thank you, sir.
    Mr. Hall. Thank you, Mr. Lamborn.
    Mr. Walcoff, we talked earlier with one of the panelists 
about getting 80 hours of training and what happens to an 
employee who does not complete it.
    Could you answer that same question? What does VA do about 
employees who do not complete their training? Are there 
incentives to complete it and are there any penalties to not 
completing it?
    Mr. Walcoff. Let me answer that by saying that I agree with 
the statement that was made by Mr. Ratajczak on the second 
panel that I do not believe that it should be the 
responsibility of the employee to complete the training. I 
think it is management's responsibility to make sure that all 
their employees complete the training because, frankly, an 
employee is not going to go up to the manager and say, oh, I am 
leaving my desk now to go sit in on training and I will be back 
in an hour. The manager has to be the one to orchestrate that.
    So the person that should be held responsible for employees 
meeting their training are the managers. And I will tell you 
that we have an element in the Directors' performance standards 
and it is in most of the coaches' standards that talks about, 
and it is in the Human Resource responsibilities, I believe, it 
is named a critical element, and it talks about the fact that 
the manager is responsible for doing a bunch of different 
things involving Human Resources (HR), one of which is making 
sure that training is done.
    But I will tell you that in reviewing that and, frankly, in 
reviewing it in preparation for this hearing, I spoke with the 
Associate Deputy Under Secretary for Field Operations and 
discussed with her the need to probably make this a little more 
specific and make it so that we have in there very specifically 
that our managers will be responsible for making sure that all 
their employees complete the number of hours for that position 
that is required because the requirement we currently have, 
while I think it is specific enough, I think that a third party 
might say, well, it is too generous. So we are going to make it 
even more specific because we do believe that somebody should 
be responsible for that and it should be the managers.
    Mr. Hall. Well, that makes sense and I am happy to hear it.
    In your testimony, you mentioned that last year, you 
trained 2,150 new VSRs and RVSRs. What percentage of your 
rating workforce does that represent approximately?
    Mr. Walcoff. Well, the 2,100 is Rating Specialists and 
VSRs.
    Mr. Hall. Right.
    Mr. Walcoff. I mean, I can tell you that we have about 
1,800 Rating Specialists and we have somewhere around 4,500 
VSRs. But, of course, some of those are people that have been 
there for many, many years. And the numbers you are referring 
to are just the people that went through the challenge training 
during this year.
    So it is kind of tough. It is a hundred percent of the new 
employees that we hired is what I would say. You know, I know I 
am not answering your specific question, but challenge is 
really geared to new employees and every employee must go to 
challenge training.
    Ms. Mackay. We can indicate that fiscal year 2008, 727 of 
the 2,000 or 2,200 people that we have trained in centralized 
training were RVSRs. So that gives you an indication of what 
percent they represent of the workforce.
    Mr. Hall. Mr. Walcoff, you noted that VBA did training with 
an independent consultant to evaluate the challenge training.
    What were the results of that? You contracted with an 
independent consultant. What were the results of that study?
    Mr. Walcoff. I am going to ask Ms. Mackay to answer that.
    Ms. Mackay. Yes. I do want to make the point that we have 
actually done evaluation on a number of different programs. In 
fact, we have done two different evaluations of the TPSS 
program. As GAO noted, one of those was in 2007 and one was in 
2008.
    We also reviewed the Challenge program. Some of the 
recommendations that have come out of that and the point that 
was made was that it does provide value to the organization, 
that the program itself is providing value to the organization.
    There were some recommendations about resequencing some of 
the training modules. Right now there are many that are done on 
the post end of Challenge training, if you will, and we want to 
move some of them to the beginning so that there is less 
duplication.
    The TPSS modules are done on the tail end of Challenge 
training at home station training. Those are very explicit with 
tests at the end of them.
    In the Challenge centralized training, there is some 
repetition of some of the learning that is taking place, so we 
want to move some of those modules forward.
    Those were some of the results that came out of the 
Challenge evaluation. It is a good program. The employees like 
it. We got excellent results. Of the three studies that we did, 
two on TPSS and one on Challenge. We have data from 37 ROs. We 
did 470 interviews and we interviewed through survey, survey 
response 2,700 employees.
    So we really got a very representative sample of the 
population out there including, you know, subject matter 
experts and bargaining unit employees in the field.
    Mr. Hall. Has the VA also conducted a time and motion 
study?
    Mr. Walcoff. I am going to ask Brad to answer that.
    Mr. Mayes. Yes, we have. We conducted one in fiscal year 
2007, I think, was the last time a motion study was conducted.
    Mr. Hall. And any results you would care to share with us?
    Mr. Mayes. Well, what we do with information that we get 
from the time and motion study is we determine if the weights 
are appropriate for the end products that we use for 
performance management. In other words, how many hours does it 
take to do an original compensation claim, how many hours does 
it take to do a reopened compensation claim or a Dependency and 
Indemnity Compensation (DIC) claim. And then those end products 
as employees work those types of cases, they get work credit, 
the station gets credit. Ultimately that is used for resource 
allocation as well.
    So there were some adjustments made to the work credits 
based on that study. But off the top of my head, I do not 
remember exactly what the----
    Mr. Hall. Would you please send the Subcommittee the study? 
It is something we would like to have a look at and save you 
from having to tell us or remember all the details of it.
    Mr. Mayes, how long can an employee be on a performance 
improvement plan?
    Mr. Mayes [continuing]. Well, the----
    Mr. Walcoff. Yeah. If you do not mind, I will answer that. 
I am a former HR guy, so I have knowledge of that.
    The performance improvement plan (PIP) as laid out in our 
negotiated agreement is 90 days. And they have 90 days during 
which they meet regularly with their supervisor. They get 
counseling sessions in terms of how they are doing. We ask them 
what help do you need in order to meet your performance 
standards. Is there training you need. Is there any particular 
information that you need. And then they are evaluated at the 
end of the 90 days and then a decision is made on whether they 
should be kept in their position or removed from their 
position.
    Mr. Hall. So if the employee improves, but then does not 
achieve the fully successful rating on their evaluation, do you 
do another improvement plan or just move them to a different 
position or move them?
    Mr. Walcoff. There are situations where an employee will be 
not meeting their standards. They go on a PIP. They meet their 
standards. They go off the PIP. They do not meet their 
standards and then you put them on another PIP.
    The case law actually in that situation says that if that 
happens a number of times, and it is undefined what the number 
is, that you may actually be looking at a conduct problem 
rather than a performance problem. It is something that 
occasionally we run into.
    Most of the time when employees are on a PIP, hopefully we 
are able to give them the assistance and the tutoring that they 
need so that they can become satisfactory in their jobs and 
never be on a PIP again.
    Mr. Hall. Is the ASPEN system, which tracks employee 
performance, integrated with the STAR Quality Review Program 
and how is that information cross-referenced?
    Mr. Walcoff. The ASPEN system is merely just a shell that 
we use for tracking. You know, we have to do quality control, 
performance evaluations of individuals because that is part of 
their performance standards. We needed some vehicle to track 
that.
    In other words, if we are looking at Dorothy Mackay as an 
employee, how many cases did she do this month, how many were 
correct, and be able to track that over a year. That is all 
that Aspen is.
    The quality assurance program that is STAR is a totally 
separate program. They are not connected in any way other than 
one measures quality of an individual whereas the quality 
assurance program, the STAR Program measures quality for the 
organization.
    Mr. Hall. The primary goal of training obviously is to 
improve the accuracy of the rating decisions. However, there 
are still accuracy issues at many ROs.
    Should there be additional training in those offices and 
are those employees still eligible for bonuses and promotions 
even if the office's accuracy rate is below the national 
standard?
    Mr. Walcoff. Let me answer the second part of the question 
in terms of the bonuses. As I had mentioned earlier, the level 
two awards, which are the primary source of bonuses for 
employees, is dependent on the station performance and quality. 
So if a station is not making quality, that station will not 
get level two money that they could give to those employees.
    There is something called level one which is a smaller 
amount of money that every station gets for their own use. And 
if you happen to have an individual in a C&P, in a service 
center who is an outstanding employee, whose individual work is 
outstanding, even though the work of that division is not 
outstanding, you have at least that level one money where you 
can reward that individual. So----
    Mr. Hall. Management discretion?
    Mr. Walcoff [continuing]. Right. Exactly.
    Mr. Hall. I want to ask Ms. Mackay how many actual days of 
training do you provide at the Academy? Do trainees have to 
sign in and out every day and how do you track their 
participation?
    Ms. Mackay. I assume we are talking about the Challenge 
students related to C&P training because we do do training at 
the Academy as well.
    It is 3 weeks of training. And I noted in DAV's testimony 
that they thought that the travel time really cut into the 3 
weeks of training. These are bargaining unit employees, so we 
do have to pay attention to the fact that, you know, we do not 
want them traveling on the weekend. But we only cut one and a 
half days off of that 3 weeks. So it is 1 day on the front end 
and then a half day on the back end.
    So it is, you know, virtually 3 weeks long of training. And 
they are there. There is an accountability. There are 
instructors there along with a course manager. So any coming 
and going of students during that 3 weeks of centralized 
training is duly noted.
    It is only for emergency purposes. We have had some folks 
who might have gotten sick or whatever. They are monitored. And 
not only are they monitored in terms of their health and 
getting them back in the classroom, but there is a 
communication with the Regional Office that they have been 
removed from the classroom for whatever reason. So that 
notification is made to the RO as well.
    So we keep a good track of the students when they are at 
the Academy for that 3 weeks of training.
    Mr. Hall. What is the pass/fail rate at the Baltimore 
Academy?
    Ms. Mackay. In terms of?
    Mr. Hall. The employees you train.
    Ms. Mackay. Well, if they go through the modules and the 
training, the 3 weeks of training, there is not any graduation 
per se of them. There is enforcement every single day.
    Again, whenever you have a classroom full of students with 
varying levels of ability, it is the job of the instructors to 
really assess that classroom and see whether they need to pay 
particular attention and give special effort and interest to 
particular students, that they get it before they leave the 
classroom, that particular lesson.
    So in that sense, they do or should when they leave the 
Academy have learned the modules and the lessons that they need 
in order to go back and do the post training at their station.
    Mr. Hall. If we could just talk about the training manual, 
the five volume training manual for a second. It seems like it 
may not be the most effective tool.
    Have you consulted with the private-sector organizations 
that specialize in developing training protocols or Federal and 
private-sector agencies?
    Ms. Mackay. I think I am going to pass that to Mr. Mayes.
    Mr. Mayes. I am not familiar with the five volume training 
manual. I think you might be talking about what we call our 
Manual of Adjudication Procedures. We call it 11MR right now. 
It should just be M21-1. We had rewritten the manual a couple 
of years ago and completed it. It is a number of volumes.
    The way I look at the manual is that we start with statute 
and regulations and sometimes, as you know, some of these 
statutes and regulations are rather difficult to apply or 
understand or interpret at the Regional Office level.
    So the manual then takes those procedures or those 
regulations and interprets those in a more, I would call it, a 
more straightforward fashion so that our VSRs and our RVSRs in 
the field have a ready reference to apply the laws and 
regulations properly.
    And it is complex. When we did the task analysis for our 
VSRs a number of years ago, actually, Admiral Cooper noted 
this, and they were working with the Claims Commission, there 
is something on the order of 11,000 tasks. It is complex work 
and it does take a lot of rules to make sure that we comply 
with the law.
    Mr. Hall. We have been known to write some complicated and 
challenging laws.
    Mr. Mayes. I was not referring to any of your legislation.
    Mr. Hall. We held a roundtable with survivors back in the 
spring. At that time, we heard tales of folks who have 
encountered VBA employees who did not seem to know much about 
survivors' benefits such as DIC.
    Do you do specialized training around those issues?
    Mr. Mayes. Well, training on the Dependency and Indemnity 
Compensation benefit is part of the training curriculum for our 
new VSRs. So, yes, that is included in that curriculum.
    And that curriculum, by the way, requires 26 weeks. So the 
formal curriculum, 26 weeks. It is two to 3 weeks of 
prerequisite training. Then we send our VSRs off to Challenge 
where they have another 3 weeks of formal training. We utilize 
the TPSS modules, the training, performance, support system 
modules in this training and then they go back to the Regional 
Office.
    And it is a combination, as the gentleman from GAO said, it 
is a combination of computer-based training and then moving 
away from that and practically applying it. And DIC is part of 
that process, that curriculum.
    Mr. Hall. Thank you.
    Now, Mr. Walcoff, I want to ask you a couple more questions 
here.
    VHA has had success with teleconferencing capabilities. I 
am curious if VBA has sought out the same opportunities to 
train with teleconferencing.
    Mr. Walcoff. I am looking at Dorothy to see whether we 
actually use teleconferencing for training.
    Ms. Mackay. Yes.
    Mr. Mayes. I can tell you most recently, we identified in 
the field some challenges applying the DeLuca rules. In other 
words, a court case a number of years ago that said that when 
there is limitation resulting--when pain results in limitation 
of function or motion, that we can adjust the evaluation 
commensurately.
    And so what we did recently was we had a national 
conference call that was targeted at our Rating Veteran Service 
Representatives. We identified this through our quality 
assurance program. So when we find through our quality 
assurance program that we have a targeted area that needs 
focus, then frequently we will have a teleconference with RVSRs 
or managers out in the field.
    And we are doing that right now as part of our followup 
from the findings on STAR. We are doing that monthly with the 
Regional Office. So there is an example where we would use 
conference calls to initiate discussion on topics that are 
causing some problems in the field.
    Mr. Hall. You know, that is obviously a developing and more 
frequently used tool that you may find yourselves wanting to 
use more.
    I want to also ask what training is required of Board of 
Veterans' Appeals employees.
    Mr. Walcoff. Well, you know, that is something that we are 
not really involved in. I mean, BVA has their own training 
programs for their employees and I do not think any of us are 
in a position to be able to answer that.
    Mr. Hall. Then we will not ask you that question then.
    So the Subcommittee staff recently conducted a site visit 
to Okinawa, Guam, and Hawaii to review the claims processing 
issues there. And a point that was brought up in Japan was the 
role of the U.S. State Department in compiling claims 
information for the Islands of Micronesia, Palau, and the 
Marshall Islands. The Department of the Interior handles 
veterans' claims.
    How does VA inform other agencies and train them in the 
claims application process and educate them on other benefits 
information?
    Mr. Walcoff. That is going to be yours again.
    Mr. Mayes. Well, we do work with representatives from the 
State Department who are involved in communicating information 
about veterans' benefits. We recently had a training seminar. 
Members of the Compensation and Pension Service staff conducted 
that training. So we are involved in that.
    Primarily what we have State Department personnel doing is 
again giving out information and also they are involved in the 
coordination of compensation and pension exams for veterans who 
reside overseas. So we give them information and provide 
training for that as well.
    Mr. Hall. Okay. Lastly, I wanted to ask a question about 
dose reconstruction. The Veterans' Advisory Board on Dose 
Reconstruction met this month and discussed the advantages of 
having the specialization and ionizing radiation claims in one 
RO so the training could be targeted.
    If this is true for atomic veterans' claims, would 
specialization and targeted training benefit veterans with 
other conditions such as Post Traumatic Stress Disorder (PTSD) 
or Traumatic Brain Injury (TBI)?
    Mr. Walcoff. I think that the idea of specializing in that 
sense is something that we have had a lot of discussion about.
    And at this point, the problem is that when somebody, for 
instance, files a claim for PTSD, invariably there are going to 
be other issues that they are also claiming. And it is very 
difficult to send just the PTSD part of a file, you know, to 
another office and say you work on that and we will leave 
everything else at the home office because everybody needs 
access to the entire file.
    What we do believe is as we move, I hope steadily, toward 
getting to the point where we go paperless and we have 
electronic files, one of the real advantages of that will be 
that if we want a particular office to, say, do the PTSD part 
of the claim, they will be able to access the file the same 
time as the home office is accessing the file because it is 
electronic. And that really would make it so that we would be 
able to do that type of specialization on a more frequent 
basis.
    The radiation claims are so complex and there are so few of 
them that we felt that it made sense to do it even with the 
fact that we are in paper. But ultimately I believe that when 
we go paperless, it will open all kinds of doors for us exactly 
as you are talking.
    Mr. Hall. You are a moving target, as you know, and in our 
oversight capability or legislative capability, we are trying 
to encourage or fund or to help you move in directions that you 
are already moving in many circumstances.
    So you just brought up the paperless thing. I want to ask 
you how that is going. I know even though our bill has passed 
the House, we are waiting for Senate action, which hopefully we 
will see. But at the same time, I am sure you are somewhere 
down the road.
    Any reports on that?
    Mr. Walcoff. There are a lot of things that are happening. 
The biggest thing right now is we are awaiting for the awarding 
of a contract for our lead systems integrator, which is going 
to be a very key piece as we move forward because the 
integrator is going to be the person that or the organization 
that works with us in coordinating all the different parts of 
this, you know, project that we call paperless, you know, 
including the part that deals with a veteran's ability to apply 
online for benefits, including the ability for a veteran to go 
into our system and be able to determine the status of his 
claim without having to pick up the phone and call us, 
including the part about making all the actual paper 
electronic.
    There are so many pieces to this and the integrator is 
going to be a key player. That contract is supposed to be 
awarded before the end of the fiscal year. So that is a major, 
major step forward with us. So we are very, very optimistic in 
terms of the future.
    The Secretary, I will tell you, Mr. Chairman, the Secretary 
has been relentless in terms of telling us that we will be 
paperless. So we are absolutely getting a lot of encouragement.
    Mr. Hall. In terms of your continuing efforts to do the 
things that we are trying to tell you to do or ask you to do, 
is there any report or progress? Have you been working on 
updating the rating schedule at the same time?
    Mr. Walcoff. Brad, you want----
    Mr. Mayes. Yes. I do not know if you saw the press release. 
I think it came out yesterday or the day before. But we are 
creating a Federal Advisory Committee that will be tasked with 
taking a look at the schedule, looking at the studies that have 
been done recently.
    And we have the Marsh-West study. We have the Disability 
Benefits or Veterans Disability Benefits Commission, the Dole-
Shalala Commission. There are a lot of folks out here that have 
done some work and looked at it.
    And, of course, I think you know that we have contracted 
with a firm to review the aspects of the Dole-Shalala proposed 
legislation that the President sent over to Congress.
    So this Advisory Committee will be looking at all of that 
and then making recommendations to the Secretary on, I would 
say, how do we get moving and prioritize and what is next.
    And, finally, I want to mention to you that we had proposed 
a new rule for traumatic brain injury. We think that is going 
to go final very quickly. It is going to change the rating 
criteria for TBI. We just updated the skin portion that was 
proposed. We think we are close to going final on that. And we 
are working on adding presumptive for Amyotrophic Lateral 
Sclerosis (ALS).
    Mr. Hall. And this is really the last question now. Where 
do you stand with the quality of life study?
    Mr. Mayes. Well, that is the study that I just mentioned. 
We are in the process of going through it. Our technical 
comments have been requested. So as we move through that and 
provide that feedback to the contractor. Once that is complete, 
then it will be published and available to the Committee.
    Mr. Hall. Great. We look forward to receiving that.
    Thank you all for your statements, for your answers, for 
the work you do for our veterans.
    And I would like to thank everybody from all the previous 
panels for your insight and opinions.
    And this hearing now stands adjourned.
    [Whereupon, 11:45 a.m., the Subcommittee was adjourned.]



                            A P P E N D I X

                              ----------                              

           Prepared Statement of Hon. John J. Hall, Chairman,
       Subcommittee on Disability Assistance and Memorial Affairs
    Our Nation's veterans understand the necessity of proper and 
adequate training--their lives have depended on it. The military trains 
for its operations and everyone knows every detail of their job prior 
to the mission. These same veterans should be able to expect the same 
level of competence when they seek assistance from the Veterans 
Benefits Administration. Unfortunately, that is not the case, as we 
have heard at other meetings and hearings throughout the year that this 
Subcommittee has held regarding the VA disability claims processing 
system.
    VA has standardized its training curriculum and requires that all 
claims processors must complete 80 hours of annual training. This is a 
lot of hours because in fact some healthcare providers don't need to 
meet that level of continuing education to maintain their clinical 
license or credentialing.
    The VBA training topics are identified by Central Office or by the 
individual's Regional Office (RO). New employees go through an 
orientation process and there are additional online learning tools 
available through the VBA's Training and Performance Support System.
    Yet, with all of this effort, VA training seems to be falling short 
of its intended goals. Less than 50 percent of the Ratings Veterans 
Service Representatives (RVSRs) passed the certification exam, even 
though it was an open-book test. But, frankly, I've seen the training 
manual and it can be measured in pounds not pages, so I don't know how 
useful their book is and that can be the crux of the matter right 
there. More importantly, as outlined in previous hearings, there are 
significant inconsistencies in ratings between VA's 57 ROs and a high 
rate of remanded cases.
    I am pleased that the AFGE is here to shed light on this issue. You 
are a critical link to those on the frontlines working to improve 
outcomes for our disabled veterans.
    The Government Accountability Office (GAO) released a report in May 
2008 entitled, ``Veterans' Benefits: Increased Focus on Evaluation and 
Accountability Would Enhance Training and Performance Management for 
Claims Processors'' that documented the areas in which VA needs to 
improve its training and hold accountable those it does train.
    According to the GAO, staff is not held accountable for completing 
the required training, since VBA does not track completion, so there 
are no consequences for not taking the training. Additionally, VBA does 
not evaluate its training, so it does not know if it has successfully 
designed and implemented an educational program. Feedback is not 
consistently collected from RO employees on the training that they do 
receive and many have reported difficulty in accessing training because 
of their stringent productivity demands. I look forward to hearing more 
from the GAO about this report.
    But, these are not surprising conclusions to the Veterans Service 
Organizations, which have complained for years about the inadequacies 
of the VBA training program. So, I am grateful that they have joined us 
here today as well.
    Training is not an issue that should be taken lightly. We all know 
the importance of good training, but effective implementation that 
ensures consistency and accountability can be elusive and that is what 
I hope we can address today. I have taken steps to ensure improved 
training outcomes when I introduced the ``Veterans Disability Benefits 
Claims Modernization Act'', H.R. 5892. These policy enhancements will 
lead to compensation claims processing improvements and more accurate 
claims adjudication results for our veterans and their families. 
Moreover, I am not sure that VBA's current training regimen complements 
its current Claims Processing Improvement model, or CPI. In fact, I am 
positive that the current coupling detracts from increased 
accountability efforts.
    I am pleased to report, with the help of many in this room, H.R. 
5892 passed the House on July 31, 2008, by a 429 to 0 vote. On August 
1, 2008, Senator Clinton introduced companion legislation to my bill, 
S. 3419. So, Congress is well on its way to rectifying the inadequacies 
in the VBA that have already been identified to us.
    Today's oversight hearing will allow us to drill deeper into this 
issue and gauge where VA is at in its training protocol and see where 
other improvements can still be made. I look forward to hearing from 
our witnesses today and hope to learn more about best practices and 
strategies for measuring performance and building better training 
protocols and accountability standards.

                                 <F-dash>
  Prepared Statement of Hon. Doug Lamborn, Ranking Republican Member,
       Subcommittee on Disability Assistance and Memorial Affairs
    Thank you Chairman Hall for yielding.
    I am pleased to have this opportunity for a collective discussion 
on the effectiveness of the Veterans Benefits Administration's (VBA's) 
training, performance management, and accountability requirements.
    Over the course of the past several months, this Subcommittee has 
examined nearly every facet of the VA benefits claims processing system 
in an effort to identify how we might help the Department overcome the 
claims backlog crisis.
    While the recent expansion of its workforce will certainly have a 
positive impact, VA must ensure that newly hired claims workers receive 
training that is commensurate with their responsibilities.
    It is critical that the training it provides meets the needs of the 
Department and its employees.
    It is equally important that the results of the training are 
evaluated. Without feedback, VA may never know whether or not the 
training is accomplishing its goal.
    Any viable training program should be able to identify deficiencies 
and demonstrate the intended and actual outcome of its curriculum.
    VA training must be connected to its vision and mission, and VA 
managers need to be assured that if employees are pulled off the floor 
for training that it will result in long-term benefits.
    I'm sure that with a growing number of pending claims, there is a 
certain level of trepidation that, ``There's too much work to do 
already and we'll just get further behind if we have to conduct 
training.''
    There must be clear support, from the top down, in order to conduct 
adequate training and acquire the expected outcomes.
    Certainly, training new employees on everything they need to know 
in order to make sound rating decisions is a daunting task.
    The VA rating schedule itself is complex and it's merely a portion 
of the array of knowledge a competent adjudicator must possess to 
perform his or her job.
    I view today's hearing as an opportunity to not only learn more 
about the training and assessment program VA provides its employees, 
but also to reiterate to the Department that it should be forthright 
about any additional resources deemed necessary to fulfill this 
critical requirement.
    I look forward to our witnesses' testimony and a productive 
discussion on VA's training program.
    I yield back.

                                 <F-dash>
 Prepared Statement of Daniel Bertoni, Director, Education, Workforce, 
   and Income Security Issues, U.S. Government Accountability Office
               Improvements Needed in VA's Training and 
                     Performance Management Systems
                             GAO Highlights
Why GAO Did This Study
    The Department of Veterans Affairs' (VA) disability claims process 
has long been a subject of concern because of long waits for decisions 
and large backlogs of claims pending decisions. To address these 
issues, VA has hired almost 3,000 new claims processors since January 
2007. However, adequate training and performance management are 
essential to developing highly competent disability claims processors 
and ensuring that experienced staff maintain the skills needed to issue 
timely, accurate, and consistent decisions.
    The Subcommittee on Disability Assistance and Memorial Affairs, 
House Veterans' Affairs Committee asked GAO to present its views on (1) 
VA's training for its claims processors, and (2) VA's performance 
management of this staff. This statement is based on a May 2008 report 
on VA's training and performance management (GAO-08-561) and has been 
updated as appropriate.
What GAO Recommends
    In its May report, GAO recommended that VA collect feedback from 
staff on the training provided in the regional offices and use this 
feedback to improve training; hold staff accountable for meeting their 
training requirement; and assess, and if necessary adjust its process 
for placing staff in overall performance categories. VA concurred with 
these recommendations, but has not yet reported any significant 
progress in implementing them.
What GAO Found
    Training for VA disability claims processors complies with some 
accepted training practices, but VA does not adequately evaluate its 
training and may have opportunities to improve training design and 
implementation. VA has a highly structured, three-phase training 
program for new staff and an SO-hour annual training requirement for 
all staff. GAO found that VA has taken steps to plan this training 
strategically and that its training program for new staff appears well-
designed and conforms to adult learning principles. However, while VA 
collects some feedback on training for new staff, it does not collect 
feedback on all the training conducted at its regional offices. 
Moreover, both new and experienced staff reported problems with their 
training. Some new staff told us a computer-based learning tool is too 
theoretical and often out of date.
    More experienced staff said they struggled to meet the annual SO-
hour training requirement because of workload pressures or could not 
always find courses relevant given their experience level. Finally, the 
agency does not hold claims processors accountable for meeting the 
annual training requirement.
    VA's performance management system for claims processing staff 
generally conforms to accepted practices. For example, individual 
performance measures, such as quality and productivity, are aligned 
with the agency's organizational performance measures, and VA provides 
staff with regular performance feedback. However, the system may not 
clearly differentiate among staff performance levels. In each of the 
regional offices we visited, at least 90 percent of claims processors 
were placed in just two of five overall performance categories. Broad, 
overlapping performance categories may deprive managers of the 
information they need to reward top performers and address performance 
issues, as well as deprive staff of the feedback they need to improve.
             Fiscal Year 2007 Appraisals for Four Offices 
                 Were Concentrated in Two Categories


[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]


    Source: VBA regional office.

    Mr. Chairman and Members of the Subcommittee:

    I am pleased to have the opportunity to comment on training and 
performance management for Department of Veterans Affairs' (VA) 
disability claims processors. In fiscal year 2007, VA paid about $37\1/
2\ billion in benefits to more than 3.6 million veterans and their 
families. The disability claims process has long been a subject of 
concern for VA, the Congress, and veterans' service organizations due 
to long waits for decisions, large backlogs of pending claims, and 
problems with the accuracy and consistency of decisions. Moreover, we 
have noted that VA's current disability process is in urgent need of 
re-examination and transformation, especially in regard to how it 
assesses the work capacity of individuals with disabilities in today's 
world and in its ability to provide timely and appropriate benefits. 
With an increase in claims resulting from injuries sustained in Iraq 
and Afghanistan and from an aging veteran population, these issues will 
likely persist. To address them, VA added almost 3,000 new claims 
processors from January 2007 to July 2008 and has plans to add even 
more staff by the end of September 2008. Earlier this year, I testified 
before this Subcommittee that enlarging VA's disability workforce is 
likely to produce certain human capital challenges for the agency.\1\ 
More staff alone will not guarantee effective disability claims 
processing. Among other things, adequate training and performance 
management are essential to developing highly competent new disability 
claims processors and ensuring that experienced staff maintain the 
skills needed to issue timely, accurate, and consistent disability 
decisions.
---------------------------------------------------------------------------
    \1\ GAO, Veterans' Disability Benefits: Claims Processing 
Challenges Persist, While VA Continues to Take Steps to Address Them, 
GAO-08-473T (Washington, DC: Feb. 14, 2008).
---------------------------------------------------------------------------
    My remarks today primarily draw from our May 2008 report for the 
Committee on Veterans' Affairs and focus on (1) VA's training for its 
disability claims processing staff and (2) its performance management 
system for claims processors. We conducted our work in accordance with 
generally accepted Government auditing standards.\2\ For this 
testimony, we updated information from our report, as appropriate, to 
reflect the current status of VA training and performance management 
systems.
---------------------------------------------------------------------------
    \2\ GAO, Veterans' Benefits: Increased Focus on Evaluation and 
Accountability Would Enhance Training and Performance Management for 
Claims Processors, GAO-08-561 (Washington, DC: May 27, 2008).
---------------------------------------------------------------------------
    In summary, although we found that training for VA disability 
claims processors complies with some accepted training practices, it is 
not adequately evaluated, and some aspects of training design and 
implementation could be improved. We found that VA has taken steps to 
strategically plan its training, including the establishment of a 
training board to evaluate the agency's training needs. Also, VA's 
training program for new staff appears well-designed and conforms with 
adult learning principles. However, while VA collects feedback on many 
of the training methods and tools for new staff, not all the training 
VA conducts is evaluated to determine how relevant or effective it is. 
Moreover, both new and experienced staff reported problems with their 
training. Some new staff members reported that a computer-based 
learning tool was not useful. Also, VA requires 80 hours of training 
annually for all claims processors, but some experienced claims 
processors struggled to meet this requirement because of workload 
pressures, and some could not always find relevant courses. It is not 
clear what criteria VA uses to justify the number of required training 
hours. Furthermore, individual claims processors are not held 
accountable for meeting the annual training requirement, although 
according to VA, the agency has implemented a new learning management 
system allowing it to monitor staffs completion of the training 
requirement.
    VA's performance management system for claims processing staff 
generally conforms to accepted performance management practices. For 
example, individual performance measures, such as quality and 
productivity, are aligned with the agency's organizational performance 
measures, and VA provides claims processing staff with regular feedback 
on their performance. However, the system may not clearly differentiate 
among performance levels. Broad, overlapping performance categories may 
deprive managers of the information they need to reward top performers 
and address performance issues, as well as deprive staff of the 
feedback they need to improve.
Background
    The Veterans Benefits Administration (VEA) within VA administers 
the disability compensation and pension programs, whereby VA claims 
processing staff assess veterans' applications for disability 
compensation and pension benefits. Aside from benefits for veterans, 
VEA claims processing staff make eligibility determinations for 
deceased veterans' spouses, children, and parents. In short, they are 
responsible for ensuring that the decisions that lead to paying 
disability compensation and pension benefits are timely, accurate, and 
consistent.
    The VA disability claims process involves multiple steps and 
usually involves more than one claims processor. When a veteran submits 
a claim to one of VEA's 57 regional offices, staff in that office are 
responsible for obtaining evidence to evaluate the claim, such as 
medical and military service records; determining whether the claimant 
is eligible for benefits; and assigning a disability rating specifying 
the severity of each of the veteran's impairments. These ratings 
determine the amount of benefits eligible veterans will receive.
    VA has faced questions about the timeliness, accuracy, and 
consistency of its disability decisions. GAO designated Federal 
disability programs, including VA and other programs, as a high-risk 
area in 2003. In particular, our prior work found VA relied on outmoded 
criteria for determining program eligibility that did not fully reflect 
advances in medicine and technology or changes in the labor market. As 
a result, VA's disability program may not recognize an individual's 
full potential to work. In addition, VA has seen processing times for 
their disability claims increase over the past several years, and 
inconsistencies in disability decisions across locations have raised 
questions about fairness and integrity.
    Some have suggested that VA needs to address its training and 
guidance related to claims processing in order to improve consistency 
and that it should conduct periodic evaluations of decisions to ensure 
the accuracy of ratings across disability categories and regions. VA 
has reported that some of the inconsistency in its decisions is due to 
complex claims, such as those involving post-traumatic stress disorder, 
but it has also acknowledged that the accuracy and consistency of 
claims decisions needs further improvement.
Training Complies With Some Accepted Practices, But VBA Does Not 
        Adequately Evaluate Training and May Be Falling Short in 
        Training Design and Implementation
    To prepare newly hired staff to perform the tasks associated with 
processing disability claims, VEA has developed a highly structured, 
three-phase program designed to deliver standardized training. The 
first phase is designed to lay the foundation for future training by 
introducing new staff to topics such as medical terminology and the 
computer applications used to process and track claims. The second 
provides an overview of the technical aspects of claims processing, 
including records management, how to review medical records, and how to 
interpret a medical exam. The third includes a combination of 
classroom, on-the-job, and computer-based trainings. The second and 
third phases in this program are designed to both introduce new 
material and reinforce material from the previous phase.
    To help ensure that claims processing staff continually maintain 
their knowledge after their initial training and keep up with changing 
policies and procedures, VEA's Compensation and Pension Service 
requires all claims processing staff to complete a minimum of 80 hours 
of technical training annually. This training requirement can be met 
through a mix of classroom instruction, electronic-based training from 
sources such as the Training and Performance Support System (TPSS), or 
guest lecturers. VBA's regional offices have some flexibility over what 
courses they provide to their staff to help them meet the training 
requirement. These courses can cover such topics as establishing 
veteran status, asbestos claims development, and eye-vision issues.
    We found that VBA has taken some steps to strategically plan its 
training for claims processors in accordance with generally accepted 
training practices identified in our prior work.\3\ For example, VBA 
has taken steps to align training with the agency's mission and goals. 
In 2004, VBA established an Employee Training and Learning Board 
(board) to, among other things, ensure that the agency's training 
decisions support its strategic and business plans, goals, and 
objectives. Also, VBA has identified the skills and competencies needed 
by its claims processing staff by developing a decision tree and task 
analysis of the claims process. In addition, VBA has taken steps to 
determine the appropriate level of investment in training and to 
prioritize funding. The board's responsibilities include developing an 
annual training budget and recommending training initiatives to the 
Under Secretary of Benefits. Further, we found that VBA's training 
program for new claims processing staff appears well-designed, in that 
it conforms to adult learning principles by carefully defining all 
pertinent terms and concepts and providing abundant and realistic 
examples of claims work.
---------------------------------------------------------------------------
    \3\ GAO, Human Capital: A Guide for Assessing Strategic Training 
and Development Efforts in the Federal Government, GAO-04-546G 
(Washington, DC: March 2004).
---------------------------------------------------------------------------
    However, while VBA has developed a system to collect feedback from 
new claims processing staff on their training, the agency does not 
consistently collect feedback on all of the training it provides. For 
example, none of the regional offices we visited consistently collected 
feedback on the training they conduct. Without feedback on regional 
office training, VBA may not be aware of how effective all of its 
training tools are.
    Moreover, both new and experienced claims processing staff we 
interviewed reported some issues with their training. A number of staff 
told us the TPSS was difficult to use, often out-of-date, and too 
theoretical. Some claims processing staff with more experience reported 
that they struggled to meet the annual training requirement because of 
workload pressures or that training topics were not always relevant for 
staff with their level of experience. VBA officials reported that they 
have reviewed the 80-hour training requirement to determine if it is 
appropriate, but they could not identify the criteria or any analysis 
that were used to make this determination. Identifying the right amount 
of training is crucial. An overly burdensome training requirement may 
needlessly take staff away from essential claims processing duties, 
while too little training could contribute to processing and quality 
errors.
    In addition to lacking a clear process for assessing the 
appropriateness of the SO-hour training requirement, VBA also has no 
policy outlining consequences for individual staff who do not complete 
the requirement. Because it does not hold staff accountable, VBA is 
missing an opportunity to clearly convey to staff the importance of 
managing their time to meet training requirements, as well as 
production and accuracy goals. In fiscal year 2008, VBA implemented a 
new learning management system that allows it to track the training 
hours completed by individual staff. Although VBA now has the capacity 
to monitor staffs completion of the training requirement, the agency 
has not indicated any specific consequences for staff who fail to meet 
the requirement.
VA's Performance Management System Generally Conforms With Accepted 
        Practices, But May Not Clearly Differentiate Among Staff's 
        Performance Levels
    VA's performance management system for claims processors is 
consistent with a number of accepted practices for effective 
performance management systems in the public sector.\4\ For example, 
the elements used to evaluate individual claims processors-such as 
quality, productivity, and workload management-appear to be generally 
aligned with VBA's organizational performance measures. Aligning 
individual and organizational performance measures helps staff see the 
connection between their daily work activities and their organization's 
goals and the importance of their roles and responsibilities in helping 
to achieve these goals. VA also requires supervisors to provide claims 
processors with regular feedback on their performance, and it has 
actively involved its employees and other stakeholders in developing 
its performance management system.
---------------------------------------------------------------------------
    \4\ GAO, Results Oriented Cultures: Creating a Clear Linkage 
between Individual Performance and Organizational Success, GAO-03-488 
(Washington, DC: Mar. 14, 2003).
---------------------------------------------------------------------------
    However, VA's system may not be consistent with a key accepted 
practice-clear differentiation among staff performance levels. We have 
previously reported that, in order to provide meaningful distinctions 
in performance for experienced staff, agencies should preferably use 
rating systems with four or five performance categories.\5\ If staff 
members' ratings are concentrated in just one or two of multiple 
categories, the system may not be making meaningful distinctions in 
performance. Systems that do not make meaningful distinctions in 
performance fail to give (1) employees the constructive feedback they 
need to improve and (2) managers the information they need to reward 
top performers and address performance issues.
---------------------------------------------------------------------------
    \5\ GAO, Human Capital: Preliminary Observations on the 
Administration's Draft Proposed ``Working for America Act,'' GAO-06-
142T (Washington, DC: Oct. 5, 2005).
---------------------------------------------------------------------------
    VA's performance appraisal system has the potential to clearly 
differentiate among staff performance levels. Each fiscal year, 
regional offices give their staff a rating on each individual 
performance element: exceptional, fully successful, or less than fully 
successful. For example, a staff member might be rated exceptional on 
quality, fully successful on productivity, and so forth. Some elements 
are considered critical elements, and some are considered noncritical. 
Staff members are then assigned to one of five overall performance 
categories, ranging from unsatisfactory to outstanding, based on a 
formula that converts a staff member's combination of ratings on the 
individual performance elements into an overall performance category 
(see fig. 1).
           Figure 1--VA Overall Performance Appraisal Formula

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]


    Source: GAO analysis of VBA information.

    However, there is evidence to suggest that the performance 
management system for claims processing staff may not clearly or 
accurately differentiate among staffs performance. Central office 
officials and managers in two of the four regional offices we visited 
said that, under the formula for assigning overall performance 
categories, it is more difficult to place staff in certain overall 
performance categories than in others-even if staffs performance truly 
does fall within that category. These managers said it is especially 
difficult for staff to be placed in the excellent category. In fact, at 
least 90 percent of all claims processors in the regional offices we 
visited ended up in only two of the five performance categories in 
fiscal year 2007: fully successful and outstanding (see fig. 2).
         Figure 2--Fiscal Year 2007 Overall Performance Ratings
          for Claims Processors in Four Regional Offices Were
    Concentrated in the Outstanding and Fully Successful Categories

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]


    Source: VBA regional offices.

    Some managers told us that there are staff whose performance is 
better than fully successful but not quite outstanding, but that under 
VA's formula, it is difficult for these staff to be placed in the 
excellent category. To be placed in the excellent category, a staff 
member must be rated exceptional in all the critical elements and fully 
successful in at least one noncritical element. However, managers told 
us that virtually all staff who are exceptional in the critical 
elements are also exceptional in the noncritical elements, and they are 
appropriately placed in the outstanding category. On the other hand, if 
a staff member is rated fully successful on just one critical element, 
even if all other elements are rated as exceptional, the staff member's 
overall performance category falls from outstanding to fully 
successful.
    Neither VBA nor VA central office officials have examined the 
distribution of claims processing staff across the five overall 
performance categories. However, VA has acknowledged that there may be 
an issue with its formula, and the agency is considering changes to its 
performance management system designed to allow for greater 
differentiation in performance. Absent additional examination of the 
distribution of claims processors among overall performance categories, 
VA lacks a clear picture of whether its system is working as intended 
and whether any adjustments are needed.
    In conclusion, VA appears to have recognized the importance of 
developing and maintaining high performing claims processors. It needs 
to devote more attention, however, to ensuring that its training and 
performance management systems are better aligned to equip both new and 
experienced staff to handle a burgeoning workload. Specifically, in our 
May 2008 report, we recommended that VA should collect feedback from 
staff on training provided in the regional offices in order to assess 
issues such as the appropriateness of the 80-hour annual training 
requirement and the usefulness of TPSS. We also recommended that the 
agency should use information from its new learning management system 
to hold staff members accountable for meeting the training requirement. 
In addition, we recommended that VA should assess whether its 
performance management system is making meaningful distinctions in 
performance. In its comments on our May 2008 report, VA concurred with 
our recommendations, but it has not yet reported making any significant 
progress in implementing them.
    While hiring, training, and evaluating the performance of staff is 
essential, commensurate attention should be focused on reviewing and 
aligning disability benefits and service outcomes to today's world. In 
prior work, we have noted that VA and other Federal disability programs 
must adopt a more modern understanding of how technology and labor 
market changes determine an individual's eligibility for benefits, as 
well as the timing and portfolio of support services they are provided. 
To the extent progress is made in this area, effective training and 
performance management systems will be of crucial importance. Moreover, 
the way VA's larger workforce is distributed and aligned nationwide can 
also significantly impact the degree to which it succeeds in meeting 
the agency's responsibilities to veterans in the future. In short, VA 
should seize this opportunity to think more strategically about where 
to best deploy its new staff and how to develop and maintain their 
skills.
GAO Contact and Staff Acknowledgments
    Mr. Chairman, this concludes my remarks. I would be happy to answer 
any questions that you or other Members of the Subcommittee may have.
    For further information, please contact Daniel Bertoni at (202) 
512-7215 or <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="12707760667d7c7b765275737d3c757d643c">[email&#160;protected]</a> Also contributing to this statement were 
Clarita Mrena, Lorin Obler, David Forgosh, and Susan Bernstein.
Related GAO Products
    Veterans' Benefits: Improved Management Would Enhance VA's Pension 
Program. GAO-08-112. Washington, DC: February 14, 2008.
    Veterans' Disability Benefits: Claims Processing Challenges 
Persist, while VA Continues to Take Steps to Address Them. GAO-08-473T. 
Washington, DC: February 14, 2008.
    Disabled Veterans' Employment: Additional Planning, Monitoring, and 
Data Collection Efforts Would Improve Assistance. GAO-07-1020. 
Washington, DC: September 12, 2007.
    Veterans' Benefits: Improvements Needed in the Reporting and Use of 
Data on the Accuracy of Disability Claims Decisions. GAO-03-1045. 
Washington, DC: September 30, 2003.
    Human Capital: A Guide for Assessing Strategic Training and 
Development Efforts in the Federal Government. GAO-03-893G. Washington, 
DC: July 2003.
    Results-Oriented Cultures: Creating a Clear Linkage between 
Individual Performance and Organizational Success. GAO-03-488. 
Washington DC: March 14, 2003.
    Major Management Challenges and Program Risks: Department of 
Veterans Affairs. GAO-03-110. Washington, DC: January 1, 2003.
    Veterans' Benefits: Claims Processing Timeliness Performance 
Measures Could Be Improved. GAO-03-282. Washington, DC: December 19, 
2002.
    Veterans' Benefits: Quality Assurance for Disability Claims and 
Appeals Processing Can Be Further Improved. GAO-02-806. Washington, DC: 
August 16, 2002.
    Veterans' Benefits: Training for Claims Processors Needs 
Evaluation. GAO-01-601. Washington, DC: May 31, 2001.
    Veterans Benefits Claims: Further Improvements Needed in Claims-
Processing Accuracy. GAO/HEHS-99-35. Washington, DC: March 1, 1999.

                                 <F-dash>
     Prepared Statement of Statement of Michael Ratajczak, Decision
      Review Officer, Cleveland Veterans Affairs Regional Office,
     Veterans Benefits Administration, U.S. Department of Veterans,
   on Behalf of American Federation of Government Employees, AFL-CIO

Dear Chairman and Members of the Subcommittee:

    Thank you for the opportunity to testify today on behalf of the 
American Federation of Government Employees, AFL-CIO (AFGE), the 
exclusive representative of employees in the Veterans Benefits 
Administration (VBA).
    I currently serve VBA as a Decision Review Officer (DRO) at the 
Cleveland VA Regional Office (RO). I joined VBA's workforce in 
September of 2001. I worked with the Tiger Team Remand Unit that 
resolved some of the oldest pending Board of Veterans Appeals remands 
in the country and served as an operational model for VBA's Appeals 
Management Center. I also served as a Specialized Rating Veterans 
Service Representative (RVSR) in the Tiger Team and the Cleveland 
Resource Unit of the Appeals Management Center. My duties with VBA have 
also included temporary assignments to a Remand Quality Review Project 
which was intended, at least in part, to identify common errors 
occurring at the RO level which necessitate remand of cases to the RO 
by the Board of Veterans Appeals. I have also served as an instructor 
in Centralized Challenge Courses for newly hired RVSRs. I currently 
serve as AFGE's representative on the VBA Design Committees for Basic 
and Journey-level RVSR Certification Testing. Prior to my employment 
with the VA, I was an attorney in private practice.
    In reviewing past Congressional testimony by VBA, I was struck by 
the consistent reference to increased complexity of claims and 
continuing judicial refinement of the duty to assist veterans under the 
Veterans Claims Assistance Act of 2000 (VCAA) as factors contributing 
to the claims backlog. Yet, VBA's testimony never mentioned the obvious 
impact of increasing claims complexity and duty to assist mandates on 
employees' ability to develop and adjudicate claims, or review case 
development and adjudications upon notice of disagreement from 
claimants within the time constraints imposed by productivity 
requirements set by management.
Training and Performance Management are Closely Linked
    All who work in VBA claims processing agree that increased claims 
complexity and additional duties imposed by law are perhaps the most 
important factors slowing performance and reducing productivity. 
Therefore, in addition to adequate hiring, effective training must be 
an essential component of any VBA effort to increase the timeliness, 
accuracy and consistency of claims processing. Ultimately, the veterans 
seeking benefits are shortchanged by VBA's failure to make any 
accommodation in performance standards to reflect growing claims 
complexity and new legal requirements. VBA's insistence on holding 
claims processors to production standards that do not allow adequate 
time to develop, consider, and resolve complex claims in accordance 
with the duties imposed by law is a disservice to veterans and 
undermines the intent of the Veterans Claims Assistance Act.
    GAO found in its May 2008 report that VBA's training program for 
claims processors does not consistently track completion of training or 
ensure that training requirements are uniformly adhered to at the RO 
level. To the extent that GAO recommends that VBA be held accountable 
for fully implementing and tracking the training it mandates, it is 
laudable. However, I am very concerned that the report could be misread 
to imply that individual claims processors are ultimately responsible 
for ensuring that they complete their mandatory training requirements. 
Ultimately, it is VBA management's responsibility to provide the 
necessary time and resources for employees to complete well designed, 
comprehensive, up-to-date training programs. No individual claims 
processor can demand of local management that he or she receive 
training when a determination is made that employee resources are 
better devoted to other concerns, such as fulfilling a monthly or 
fiscal year production goal. Management's failure to devote time to the 
initial and continuing education of claims processors in favor of 
fulfilling a short-term production goal is similar to VBA eating its 
seed corn, since it deprives claims processors of the means to become 
more efficient, accurate, and fulfill their ever changing and 
increasingly complex duties.
    Similarly, management's failure to ensure adequate training time 
impairs the ability of VBA's certification testing program for VSRs and 
RVSRs to be an objective measure of training effectiveness. This places 
an unfair burden on individual claims processors who are thus less 
likely to achieve a passing score on certification testing, and in 
turn, advance their careers.
    In order for training to be meaningful, management must afford the 
participant time to read and analyze the material, and internalize its 
meaning through cognitive effort and practical application. The 
complexity of the claims process administered by VBA does not admit to 
simple resolution by reference to checklists, decision trees or 
presentation of information without elucidation. This complexity is 
well illustrated by a videotape that was recently shown to VBA claims 
processors on the application of GAF (global assessment of functioning) 
scores in the context of assigning disability ratings for service 
connected posttraumatic stress disorder. This 2 hour training video 
focuses on one very discrete issue in rating a very specific type of 
claim that is fraught with difficulties. It serves as a reminder that 
even well-prepared training material presented by highly competent and 
learned professionals can be of limited value in the absence of an 
opportunity for meaningful interactive learning. Training materials 
must be combined with the opportunity for trainees to receive timely 
feedback from an individual who understands the subject and can provide 
relevant, consistent, and immediate guidance to trainees struggling to 
internalize the meaning of the material in the context of the duties 
attendant to their positions.
    Similarly, while materials such as Fast Letters, Training Letters, 
and Decision Assessment Documents may be useful in drawing a claims 
processor's attention to a particular nuance or change in the claims 
process, they do not necessarily serve as useful training tools. The 
usefulness of such materials is further diminished if claims processors 
are not given adequate time to digest the materials VBA provides to 
notify them of changes in interpretation or implementation of policies, 
regulations, statutes, or case law.
    GAO's favorable findings about the effectiveness of centralized new 
hire training confirm the benefits of a curriculum that is developed, 
designed and implemented through Central Office. Therefore, I urge this 
Subcommittee to support greater centralization of mandatory continuing 
training, specifically a nationally uniform curriculum taught by a 
cadre of instructors at every RO who have completed the Instructor 
Development Curriculum, and who are available to implement training 
materials designed by Central Office. The presence of a team of 
qualified instructors at every RO, charged with implementing a relevant 
curriculum developed by Central Office staff and accountable to Central 
Office, would help close the gap between VBA Central Office's 
expectations for training and conflicting or incompatible goals of 
local management.
    The breakdown in VBA's training process seems to occur at two 
critical junctures: first, at the RO where time devoted toward training 
may be viewed as an unwarranted impediment to achieving immediate 
production goals; and second, between Central Office and ROs because 
Central Office does not adequately identify trends in errors that are 
amenable to training or provide enough specific curricula for 
continuing employee education.
    VBA should apply lessons learned from its Remand Quality Review 
Project to acquire data pertaining to common development errors by 
reviewing a statistically relevant sample of deferred rating decisions 
from a wide range of ROs. VBA should then use that data to tailor 
training to common development errors, including improper deferrals of 
rating decisions, and develop effective strategies to help employees 
avoid those time consuming errors in the first instance. This type of 
feedback loop already exists in the healthcare arena to prevent medical 
errors, including the Veterans Health Administration that has long 
played a leadership role in medical error reduction.
Performance Standards Must Reflect Claims Complexity and Legal 
        Requirements
    VBA recognizes that increasingly complex claims and continuous 
refinement of the legal requirements attendant to claims processing has 
a detrimental effect on the size of VBA's pending workload inventory. 
However, VBA has either failed or refused to recognize that those same 
factors have a detrimental effect on the productivity of individual 
claims processors insofar as additional time is needed to develop, 
adjudicate, or review claims. By not adjusting individual productivity 
standards to reflect the increasing complexity and difficulty of the 
claims process, VBA may once again be failing to provide the service 
its claimants deserve. The needs of claimants intersect with the 
requirements imposed on claims adjudicators precisely in the 
implementation of performance standards. If claims processors are 
required to choose between developing, rating, or reviewing a case in 
accordance with all legal requirements and fulfilling their production 
requirements, a temptation is presented to make a decision in favor of 
their own immediate interests. As an example, RVSRs are generally given 
no production credit for identifying development deficiencies in a 
given case, or directing action to correct those deficiencies via 
deferred rating actions. Often, such deferred actions are time-
consuming and complex. Consequently, RVSRs are often met with a choice 
between meeting their productivity requirements and ensuring that 
decisions are rendered in accordance with all applicable duty to assist 
requirements and are, in essence, given no meaningful credit for 
ensuring that claims are adequately developed. One of the many 
unfortunate side effects of this problem is that the VSRs charged with 
developing claims oftentimes receive no meaningful feedback from RVSRs 
concerning development deficiencies. Of course, the ultimate effect of 
this system is felt by claimants, and reflected in an increasing appeal 
rate. Such a system of measuring ``productivity'' is disrespectful to 
claims processors and claimants alike. Productivity requirements that 
do not take into account the increased time necessary to develop, 
adjudicate, or review increasingly complex claims in an increasingly 
stringent legal environment ultimately lead to bad service for 
claimants, since productivity is often rewarded over quality.
    As AFGE has urged this Subcommittee in the past, I cannot overstate 
the importance of requiring thorough time-motion studies so that VBA 
performance standards for claims processors may be informed and 
adjusted by reference to valid and scientific data. Unless and until 
VBA has valid empirical evidence concerning what claims adjudicators 
can reasonably be expected to accomplish in a given period, any mandate 
concerning what those employees must do in the same period will be 
suspect. Moreover, insofar as such suspect standards are used to 
project the need for additional human resources or trends concerning 
future claims inventory levels, any projections upon which they are 
based will also be suspect. The proposal in H.R. 5892 for a study of 
the VBA work credit system will provide valuable data toward this goal.
    Nor should VBA continue to set performance standards for claims 
processors by fiat with reference to the ``experience'' of managers who 
are years removed from any meaningful contact with the day-to-day 
exigencies of claims processing, and expect to meaningfully address 
workload trends or human capital requirements. These managers should be 
required to devote a portion of their workday (e.g. 50 percent) to 
developing or adjudicating claims in order to keep a fresh perspective 
of what it takes to conform to an individual position description. Such 
a requirement would also have the benefit of reducing the pending 
claims inventory. Therefore, I also support the requirement in H.R. 
5892 that managers pass the same certification tests as the employees 
they supervise. The absence of such a requirement would permit non-
certified supervisors to be charged with critiquing the work of 
certified employees, thereby seriously undermining the credibility of 
the certification process.
    Increased tracking and implementation of continuing training at VBA 
is laudable, but only insofar as it will ultimately serve claimants. An 
educated and well-trained workforce should be one of VBA's highest 
goals. However, VBA's claims processing workforce must also be afforded 
adequate time to perform their duties in accordance with their 
training, and that consideration must be reflected in individual 
performance standards.
Methods to Increase Accountability and Reduce Rating Variances
    If continuing training of VBA claims processors is made consistent 
by reference to a curriculum created by VBA centralized training staff 
and implemented by a corps of instructors accountable to VBA's Central 
Office, rating variances could reasonably be expected to decrease as 
claims processors conform their individual activities to their uniform 
training.
Conclusion
    I view the GAO report not as an indictment on claims processors' 
skills, abilities, or willingness to learn as much as a description of 
VBA's failure to provide relevant, useful continuing training or 
adequately track the efficacy of that training. Ultimately, training 
deficiencies at VBA are not the product of nor should they be the 
responsibility of individual claims processors.
    The claims processing workforce at VBA is among of the finest and 
most dedicated workforces in Government. Unfortunately, insofar as VBA 
inadequately provides continuing training to claims processors and then 
attempts to hold them responsible for deficiencies in quality and 
productivity, claims processors may be disproportionately affected by 
inadequate training. To illustrate that fact it might be instructive 
for this Subcommittee to inquire of VBA whether they can recall a 
single instance of any VBA manager who has ever been disciplined, 
demoted, or formally reprimanded for failing to adequately train an 
employee. In contrast, there are numerous instances of long term claims 
processors with good work histories being disciplined, demoted, 
formally reprimanded, or even discharged for failing to meet their 
productivity or quality requirements. The crux of the problem is a 
failure by VBA to provide the continuing training necessary for our 
Members to be productive, efficient and accurate in fulfillment of 
their duties. The onus of inadequate training should not be 
disproportionately borne by employees charged with the day to day 
processing of claims or the constituency they are honored to serve. 
Thank you.

                                 <F-dash>
   Prepared Statement of Kerry Baker, Assistant National Legislative 
                  Director, Disabled American Veterans
    Mr. Chairman and Members of the Subcommittee:

    On behalf of the 1.3 million members of the Disabled American 
Veterans (DAV), I am honored to appear before you today to discuss the 
effectiveness of the Veterans Benefits Administration's (VBA's) 
training, performance management, and accountability requirements. In 
accordance with our congressional charter, the DAV's mission is to 
``advance the interests, and work for the betterment, of all wounded, 
injured, and disabled American veterans.''
                                TRAINING
    VBA has a standard training curriculum for new claims processors 
and an 80-hour annual training requirement for all claims processors. 
The training program in VBA is basically a three-stage system. First, 
VBA policy requires new staff to complete some orientation training, 
which is provided in their home offices. Second, they are required to 
attend a 2- to 3-week centralized training course that provides a basic 
introduction to job responsibilities. Third, new staff are required to 
spend several more months in training at their home offices, which 
includes on-the-job training and/or instructor-led training that follow 
a required curriculum via use of an online learning tool called the 
Training and Performance Support System (TPSS). VBA policy states that 
all claims processors are required to complete a minimum of 80 hours of 
training annually. VA Regional Offices (ROs) have some discretion over 
what training they provide to meet this requirement.
    The VA's three-phased program for new claims processors is designed 
to deliver standardized training, regardless of training location or 
individual instructors. Topics included in the training program contain 
a lesson plan with review exercises, student handouts, and copies of 
slides used during the instructor's presentation. The VBA also has an 
annual 80-hour training requirement for new and experienced rating 
veterans' service representatives (RVSRs) and veteran service 
representatives (VSRs).
    The first phase of training for new RVSRs is prerequisite training. 
It begins at new RVRSs' home regional offices when they begin working. 
The prerequisite training is designed to lay the foundation for future 
training by introducing new employees to topics such as the software 
applications used to process and track claims, medical terminology, the 
system for maintaining and filing a case folder, and the process for 
requesting medical records. VBA specifies the topics that must be 
covered during prerequisite training: however, ROs can choose the 
format for the training and the timeframe. New VSRs and RVSRs typically 
spend two to 3 weeks completing prerequisite training in their home 
office before they begin the second program phase. Nonetheless, VA 
personnel informed the DAV that many new employees are only allowed 
approximately 7 days to complete the training.
    The second phase of training is known as centralized training, 
wherein new VSRs and RVSRs spend approximately 3 weeks in classroom 
training. The 3-week timeframe is misleading because the first and last 
portions of week one and three are utilized for travel. Therefore, the 
actual training time is closer to 2 weeks.
    Participants from multiple ROs are typically brought together in 
centralized training sessions, which is usually at the Veterans 
Benefits Academy in Baltimore, Maryland. Centralized training provides 
an overview of the technical aspects of the VSR and RVSR positions. 
These training classes usually have at least three instructors, but the 
actual number can vary depending on the size of the group. VBA's goal 
is to maintain a minimum ratio of instructors to students.
    To practice processing different types of claims, VSRs work on 
either real or hypothetical claims specifically designed for training. 
Centralized training for new RVSRs focuses on topics such as: systems 
of the human body; how to review medical records; and, how to interpret 
medical exams. To provide instructors for centralized training, VBA 
relies on RO staff who have received training on how to be an 
instructor. Centralized training instructors may be VSRs, RVSRs, 
supervisors, or other staff identified by RO managers as having the 
capability to be effective instructors.
    The VBA has increased the number of training sessions because of 
the influx of new staff. In fiscal year 2007, VBA increased the 
frequency of centralized training and its student capacity at the 
Veterans Benefits Academy. During fiscal year 2007, VBA held 67 
centralized training sessions for 1,458 new VSRs and RVSRs. Centralized 
training sessions were conducted at 26 different ROs during fiscal year 
2007, in addition to the Veterans Benefits Academy. By comparison, 
during fiscal year 2006, VBA held 27 centralized training sessions for 
678 new claims processors. Nonetheless, VBA has not run its benefits 
academy near to full capacity in 2008, the reasons for which are 
unclear.
    When new VSRs and RVSRs return to their home office after 
centralized training, they are required to begin their third phase of 
training, which is supposed to include on-the-job, classroom, and 
computer-based training modules that are part of VBA's Training and 
Performance Support Systems (TPSS), all conducted by and at the RO. New 
VSRs and RVSRs typically take about 6 to 12 months after they return 
from centralized training to complete all the training requirements for 
new staff.
    In addition to the foregoing three-phase training program, VBA also 
requires 80 hours of annual training for all VSRs and RVSRs. The 
training is divided into two parts. At least 60 hours must come from a 
list of core technical training topics identified by Compensation and 
Pension (C&P) Service. VBA specifies more core topics than are 
necessary to meet the 60-hour requirement, so regional offices can 
choose those topics most relevant to their needs. They can also choose 
the training method used to address each topic, such as classroom or 
TPSS training. The RO managers decide the specificities of the 
remaining 20 hours.
Analysis and Recommendations
    The DAV has consistently maintained that VA should invest more in 
training adjudicators and decision-makers, and that it should hold them 
accountable for higher standards of accuracy. Nonetheless, such 
training has not been a high priority in VBA. We have further 
consistently stated that proper training leads to better quality, and 
that quality is the key to timeliness. Timeliness follows from quality 
because omissions in record development, failure to afford due process, 
and erroneous decisions require duplicative work, which add to the load 
of an already overburdened system. The VBA will only achieve such 
quality when it devotes adequate resources to perform comprehensive and 
ongoing training, devotes sufficient time to each case, and imposes and 
enforces quality standards through effective quality assurance methods 
and accountability mechanisms.
    One of the most essential resources is experienced and 
knowledgeable personnel devoted to training. More management devotion 
to training and quality requires a break from the status quo of 
production goals above all else. In a 2005 report from VA's Office of 
Inspector General, VBA employees were quoted as stating: ``Although 
management wants to meet quality goals, they are much more concerned 
with quantity. An RVSR is much more likely to be disciplined for 
failure to meet production standards than for failing to meet quality 
standards,'' and that ``there is a lot of pressure to make your 
production standard. In fact, your performance standard centers around 
production and a lot of awards are based on it. Those who don't produce 
could miss out on individual bonuses, etc.'' \1\ Little if anything has 
changed since the Inspector General has issued this report.
---------------------------------------------------------------------------
    \1\ Department of Veterans Affairs Office of Inspector General, 
Rep. No. 05-00765-137, Review of State Variances in VA Disability 
Compensation Payments 61 (May 19, 2005).
---------------------------------------------------------------------------
    A review of VBA's training programs mentioned above reveals that 
its problems caused by a lack of accountability do not begin in the 
claims development and rating process--they begin in the training 
program. Essentially, we can find little, if any, measurable 
accountability in VBA's training program.
    For example, despite VBA's program requirements for its new hires 
to complete phase-one training before advancing to the phase-two 
centralized training, some VA employees anonymously informed the DAV 
that many candidates begin centralized training without having had the 
opportunity to participate in and/or complete phase-one training. 
Additionally, candidates are not held responsible via formal testing on 
subjects taught during phase-one training. While oversight may or may 
not exist for this portion of training, the DAV could find none.
    Without resorting to a critique of the substance of VBA's subject 
matter taught during phase-two training, or any other phase for that 
matter, we limit our analysis again to accountability. As in phase one, 
VBA refuses to test participants of phase-two training. The obvious 
goal is to ensure employees attend the required course--ensuring that 
employees achieve VBA's learning objectives appears to have no priority 
whatsoever.
    By now, a new employee has approximately 1 month of training and is 
supposedly prepared for phase-three training. Keep in mind that during 
phase three, new employees will work on real-world cases whose outcomes 
affect the lives and livelihoods of disabled veterans and their 
families. Real cases notwithstanding, again there is no accountability, 
no testing, and no oversight outside that of which is provided locally; 
again, that oversight is not measured nationally.
    The result of such an unsupervised and unaccountable training 
system is that no distinction exists between unsatisfactory performance 
and outstanding performance. This lack of accountability during 
training further reduces, or even eliminates, employee motivation to 
excel. This institutional mindset is further epitomized in VBA's day-
to-day performance, where employees throughout VBA are reminded daily 
that optimum work output is far more important quality performance and 
accurate work.
    The effect of VBA's lack of accountability in its training program 
was demonstrated when it began offering skills certification tests to 
support certain promotions. Beginning in late 2002, VSR job 
announcements began identifying VSRs at the GS-11 level, contingent 
upon successful completion of a certification test. The test consisted 
of 100 multiple-choice questions, which were open-book. The VA allowed 
participants to use online references and any other reference material, 
including individually prepared notes in order to pass the test.
    The first validation test was performed in August 2003. There were 
298 participants in the first test. Of these, 75 passed for a pass rate 
of 25 percent. VBA conducted a second test in April 2004. Out of 650 
participants, 188 passed for a pass rate of 29 percent. Because of the 
low pass rates on the first two tests, a 20-hour VSR ``readiness'' 
training curriculum was developed to prepare VSRs for the test. A third 
test was administered on May 3, 2006, to 934 VSRs nationwide. Still, 
the pass rate was only 42 percent. Keep in mind that these tests were 
not for training, they were to determine promotions from GS-10 to GS-
11.
    The VBA recently began similar testing with RVSRs. The DAV was 
unable to obtain those tests result. VA employees nonetheless informed 
us that VBA's test results for RVSRs were no better than test results 
for VSRs.
    These results reveal a certain irony, in that VBA will offer a 
skills certification test for promotion purposes, but does not require 
comprehensive testing throughout its training curriculum. The following 
``accountability'' portion of this testimony further illustrates the 
product of inadequate training.
    Mandatory and comprehensive testing designed cumulatively from one 
subject area to the next, for which VBA then holds trainees 
accountable, should be the number one priority of any plan to improve 
VBA's training program. Further, VBA should not allow trainees to 
advance to subsequent stages of training until they have successfully 
completed such testing.
    To be fair, the DAV understands that VBA is not solely at fault on 
this subject. The VA employees union has objected to the type of 
testing mentioned herein. We do not expect such objections to cease. In 
fact, we feel the only way to moot these objections is for Congress to 
mandate such testing through statutory change. Section 105 of H.R. 5892 
mandates some testing for claims processors and VBA managers, which is 
an improvement over current practices; however, it does not mandate the 
type of testing during the training process as explain herein. 
Measurable improvement in the quality of and accountability for 
training will not occur until such mandates exist.
                             ACCOUNTABILITY
    The DAV has consistently stated that, in addition to training, 
accountability is the key to quality, and therefore to timeliness as 
well. As it currently stands, almost everything in VBA is production 
driven. In addition to basing personnel awards on production, the DAV 
strongly believes that quality should be awarded at least on parity 
with production. However, in order for this to occur, VBA must 
implement stronger accountability measures for quality assurance.
    VA's quality assurance tool for compensation and pension claims is 
the Systematic Technical Accuracy Review (STAR) program. Under the STAR 
program, VA reviews a sampling of decisions from regional offices and 
bases its national accuracy measures on the percentage with errors that 
effect entitlement, benefit amount, and effective date.
    Inconsistency signals outright arbitrariness in decision-making, 
uneven or insufficient understanding of governing criteria, or rules 
for decisions that are too vague or overly broad and allows them to be 
applied according to the prevailing mindset of a particular group of 
decision-makers. Obviously, VA must detect inconsistencies before the 
cause or causes can be determined and remedied.
    Simply put, there is a gap in quality assurance for purposes of 
individual accountability in quality decision-making. In the STAR 
program, a sample is drawn each month from a regional office workload 
divided between rating, authorization, and fiduciary end-products. For 
example, a monthly sample of ``rating''-related cases generally 
requires a STAR review of 10 rating-related end products.\2\ Reviewing 
10 rating-related cases per month for an average size regional office, 
an office that would easily employee more than three times that number 
of raters, is undeniable evidence of a total void in individual 
accountability. If an average size regional office produced only 1,000 
decisions per month, which we feel is quite conservative, the STAR 
program would only review 1 percent of the total cases decided by that 
regional office. Those figures leave no room for trend analysis, much 
less personal accountability.
---------------------------------------------------------------------------
    \2\ See M21-4, Ch. 3, Sec. 3.02.
---------------------------------------------------------------------------
    To put this in better perspective, according to VA's 2007 
performance and accountability report, the STAR program reviewed 11,056 
compensation and pension (C&P) cases in 2006 for improper payments. 
While this number appears significant, the total number of C&P cases 
available for review was 1,540,211. Therefore, the percentage of cases 
reviewed was approximately seven tenths of 1 percent, or 0.72 percent.
    Another method of measuring the VA's need for more accountability 
is an analysis of the Board's Summary of Remands, while keeping in mind 
that its summary represents a statistically large and reliable sample 
of certain measurable trends. The examples must be viewed in the 
context of the VA (1) deciding 700,000 to 800,000 cases per year; (2) 
receives over 100,000 NODs; and (3) submits 40,000 appeals to the 
Board. The examples below are from October 2006 to October 2007.
    Remands resulted in 998 cases because no ``notice'' under section 
5103 was ever provided to the claimant. The remand rate was much higher 
for inadequate or incorrect notice; however, considering the confusing 
(and evolving) nature of the law concerning ``notice,'' we can only 
fault the VA when it fails to provide any notice.
    VA failed to make initial requests for SMRs in 667 cases and failed 
to make initial requests for personnel records in 578 cases. The number 
was higher for additional followup records requests following the first 
request. This number is disturbing because initially requesting a 
veteran's service records are the foundation to every compensation 
claim. It is claims development 101.
    The Board remanded 2,594 cases for initial requests for VA medical 
records and 3,393 cases for additional requests for VA medical records. 
The disturbing factor here is that a VA employee can usually obtain VA 
medical records without ever leaving the confines of one's computer 
screen.
    Another 2,461 cases were remanded because the claimant had 
requested a travel board hearing or video-conference hearing. Again, 
there is a disturbing factor here. A checklist is utilized prior to 
sending an appeal to the Board that contains a section that 
specifically asked whether the claimant has asked for such a hearing.
    The examples above totaled 7,298 cases or nearly 20 percent of 
appeals reaching the Board, all of which cleared the local rating board 
and the local appeals board with errors that are elementary in nature. 
Yet they were either not detected or they were ignored. Many more cases 
were returned for more complex errors. But for nearly a 20-percent 
error rate on such basic elements in the claims process passing through 
VBA's most senior of rating specialist is simply unacceptable.
    The problem with the VA's current system of accountability is that 
it does not matter if VBA employees ignored these errors because those 
that commit such errors are usually not held responsible. They 
therefore have no incentive to concern themselves with the quality of 
their work. Above all else, these figures showing that the VA's quality 
assurance and accountability systems require significant enhancement.
Recommendation
    Congress should require the Secretary to report on how the 
Department could establish a quality assurance and accountability 
program that will detect, track, and hold responsible those VA 
employees who commit egregious errors. Such report should be generated 
in consultation with veterans' service organizations most experienced 
in the VBA claims process.
    The DAV believes that effective accountability can be engineered in 
a manner that holds each VBA employee responsible for his/her work as a 
claim moves through the system while at the same time holds all 
employees responsible simultaneously. As errors are discovered 
(definition of such errors to be determined, but specific to employee 
responsibility), employees responsible for such errors must be held 
accountable by forfeiture of work credit percentage.
    For example, if a Decision Review Officer (DRO) reverses a decision 
from a frontline rating specialist because of error, as opposed to 
difference of opinion or receipt of new evidence, then the frontline 
employee should be subject to forfeiture of a portion of work credit 
that is normally used to track production standards applicable to 
performance bonuses. In turn, if a case proceeds to the BVA and is 
reversed or remanded on similar grounds, then both the frontline rater 
as well as the DRO should forfeit work credit, and so one. The same 
should apply to Veterans' Law Judges at BVA when the Court of Appeals 
for Veterans Claims finds error in a BVA decision.
    Such a cumulative accountability system would effectively eliminate 
potential abuse of the system through the proverbial good-old-boy club. 
One employee would be far less likely to cover for errors or look the 
other way from errors committed by a fellow employee if they knew their 
performance standards were equally at risk. This type of system would 
ensure personal accountability at every stage in the claims process 
without seriously disrupting or dismantling VBA's current performance 
measurement system.
                        PERFORMANCE MEASUREMENT
    VA's benefits delivery system has become particularly multifaceted, 
especially when considering the various types of claims a beneficiary 
may file, the various stages of development and decision-making within 
each claim, and the potential changes that can occur at any particular 
stage of the claim. Currently, VA utilizes over 50 pending end-product 
codes\3\ for a multitude of actions. The number of end-product codes 
may be further expanded by using ``modifiers'' that designate specific 
``issues'' for types of claims within a certain broader category.
---------------------------------------------------------------------------
    \3\ M21-4, App. A, Glossary of Terms and Definitions. Manpower 
Control and Utilization in Adjudication Divisions (Pending End Product: 
``A claim or issue on which final action has not been completed. The 
classification code identified refers to the end product work unit to 
be recorded when final disposition action has been taken.'').
---------------------------------------------------------------------------
    The VA's end product codes are used in conjunction with its 
productivity and work measurement system. The productivity system is 
the basic system of work measurement used by C&P Service, but it is 
also used for report and tracking. Additionally, VA's end-product codes 
are also utilized in the STAR program. The program is also a tool used 
for quantitative measurement, a tool utilized in preparing budget 
forecasts, and in distributing available staffing.
    Quantitative and productivity measurement are also tools used in 
comparing and tracking employment of resources. Both productivity 
measurement and work measurement are tools available to management for 
this purpose. Quantitative measurement also allows Central Office and 
Area Offices to compare stations and to track both local and national 
trends. Productivity measurement and work measurement are complementary 
measurement systems that each depend, in part, on VA's end product code 
system. The end-product code system is further used in determining work 
credit provided to VA's employees and is therefore vital in measuring 
employee production goals and awarding performance awards. Changes 
should not be mandated that would cause VA to lose the ability to 
manage and track its day-to-day functions.
    The DAV finds no measurable flaws in VBA's overall measurement 
systems. In fact, our foregoing recommendations concerning improvements 
in VBA's accountability would draw on the strengths in its measurement 
systems, thereby allowing easier and less disruptive implementation of 
stronger and more effective accountability. <greek-l> *** FORCED SO 
BODONI DASH IS NOT AT TOP OF PAGE ***  deg.
    We hope the Subcommittee will review these recommendations and give 
them consideration for inclusion in your legislative plans. Mr. 
Chairman, thank you for inviting the DAV to testify before you today.

                                 <F-dash>
   Prepared Statement of Ronald B. Abrams, Joint Executive Director, 
                National Veterans Legal Services Program
    Mr. Chairman and Members of the Committee:

    I am pleased to have the opportunity to submit this testimony on 
behalf on behalf of the National Veterans Legal Services Program 
(NVLSP). NVLSP is a nonprofit veterans service organization founded in 
1980 that has been assisting veterans and their advocates for 28 years. 
NVLSP has trained thousands of service officers and lawyers in veterans 
benefits law, and has written educational publications that thousands 
of veterans advocates regularly use as practice tools to assist them in 
their representation of VA claimants. NVLSP also conducts quality 
reviews of the VA regional offices on behalf of The American Legion. 
NVLSP also represents veterans and their families on claims for 
veterans benefits before VA, the U.S. Court of Appeals for Veterans 
Claims (CAVC), and other Federal courts. Since its founding, NVLSP has 
represented over 1,000 claimants before the Board of Veterans' Appeals 
and the Court of Appeals for Veterans Claims (CAVC). NVLSP is one of 
the four veterans service organizations that comprise the Veterans 
Consortium Pro Bono Program, which recruits and trains volunteer 
lawyers to represent veterans who have appealed a Board of Veterans' 
Appeals decision to the CAVC without a representative.
    We believe that the effectiveness of VBA training should be 
measured by the quality of the work product produced by VA 
adjudicators. Therefore, the quality and timeliness of VA adjudications 
should reflect the effectiveness or lack thereof, of VA training. 
Because the quality of VA adjudications is inadequate NVLSP must 
conclude that VBA training is not effective or adequate.
    In the experience of NVLSP (over 10 years of quality reviews, in 
conjunction with The American Legion of approximately 40 different 
VAROs combined with extensive NVLSP representation before the CAVC), 
most of the most egregious VA errors are a result of premature 
adjudications. Many VA managers emphasize quantity over quality. VA 
managers and VA adjudicators have let us know that because production 
is paramount, training is deemphasized because the time spent training 
reduces the time available to produce decisions, and the training of VA 
adjudicators regarding the procedures designed to protect the right of 
claimants seeking VA benefits also reduces production.
    In September 2008, courageous VA regional office employees filed a 
grievance exposing this overemphasis on production. This grievance is 
attached to my testimony. The grievance asserts that:

    <bullet>  the regional office created and encouraged a culture in 
which quantity is emphasized to the detriment of quality;
    <bullet>  the VARO failed to properly implement training 
initiatives to assure that those reviewing claims are sufficiently 
trained in the relevant disciplines so as to reduce errors, improve the 
quality of claims processing, and successfully complete newly 
implemented certification requirements; and
    <bullet>  the VARO failed to properly implement a fair and 
impartial performance appraisal system that assures that quantitative 
measures of performance are not emphasized to the detriment of measures 
of the quality of that performance.

    NVLSP believes that the quality of VARO adjudications is much worse 
than what is reported by the VA. The remand and reversal statistics 
produced by decisions issued by the Board of Veterans' Appeals (BVA or 
Board) can be considered an independent review of the quality of 
adjudications performed by the VAROs. BVA statistics provided by the 
Veterans Appeals Control and Locator System (VACOLS) for FY 07 reveal 
that Board decided over 40,000 appeals. The Board allowed 21.12 percent 
(that is, granted the claim that the VA regional office had denied) and 
remanded 35.36 percent of these appeals back to the VARO because the 
VARO had wrongly failed to obtain all of the evidence it should have 
attempted to obtain. Therefore, in 56.48 percent of the appeals decided 
by the BVA, the BVA either reversed or remanded the VARO decision. This 
56.48 percent statistic could be considered an error rate. Even if we 
take into account the fact that new evidence can be added at the Board 
and deduct 20 percent from the 56.48 percent, an error rate as high as 
36 percent is not acceptable and does not verify the low error rate 
claimed by VA in its VA Star Reports (close to a 90 percent ``accuracy 
rate''). The reversal/remand rate thus far for FY 2008 is 59.4 percent.
    The news gets worse. The BVA, in its rush to make final decisions 
and to avoid remands also quite often prematurely denies claims that 
should have been remanded. Of course, the error was originally 
committed by the VARO, not the BVA. In September 2007, my fellow Joint 
Executive Director, Bart Stichman, testified that ``[f]or more than a 
decade, the Court's [Court of Appeals for Veterans Claims (Court or 
CAVC)] annual report card of the BVA's performance has been remarkably 
consistent. The 12 annual report cards issued over the last 12 years 
yields the following startling fact: of the 16,550 Board decisions that 
the Court individually assessed over that period (that is, from FY 1995 
to FY 2006), the Court set aside a whopping 77.7 percent of them (that 
is, 12,866 individual Board decisions). In each of these 12,866 cases, 
the Court set aside the Board decision and either remanded the claim to 
the Board for further proceedings or ordered the Board to award the 
benefits it had previously denied. In the overwhelming majority of 
these 12,866 cases, the Court took this action because it concluded 
that the Board decision contained one or more specific legal errors 
that prejudiced the rights of the VA claimant to a proper decision.''
    How should a veteran seeking VA disability benefits feel? The Board 
of Veterans' Appeals reverses and remands over 50 percent of all VARO 
adjudications and the CAVC sets aside over 77 percent of the BVA 
decisions that it reviews. These numbers do not inspire confidence in 
the quality of VA adjudications.
    It is clear that the adjudication culture at the VAROs needs to be 
changed. Many VA managers act like they are producing widgets rather 
than adjudicating claims filed by real people. Their goal should not be 
just prompt adjudication; the goal should be a timely, accurate and 
fair adjudication.
    Even VA employees are frustrated and upset by their lack of 
training and the overemphasis on production. The following is a quote 
from the grievance attached to my testimony.

        ``As set forth in the Grievance, management has: (1) 
        established an environment in which ``there is an extreme 
        pressure to produce minimally acceptable work at any cost''; 
        (2) ``developed an employee culture where striving to achieve 
        unreasonable production criteria is paramount and . . . 
        actually doing difficult necessary work on cases is strongly 
        discouraged on penalty of removal''; and (3) [management] 
        commonly expresses sentiments such as, ``just decide the case 
        and let the veteran appeal.''

    If the assertions in this grievance are true then we call upon VA 
Central Office management to hold regional office management 
accountable.
    Thank you for permitting NVLSP to testify on such an important 
issue.

                               __________

                                             Kirkland and Ellis LLP
                                                        Chicago, IL
                                                    August 29, 2008
Via OVERNIGHT MAIL

Joyce A. Cange
Director, Cleveland Regional Office
Department of Veterans Affairs,
Veterans Benefits Administration
A.J. Celebrezze Federal Building
1240 East 9th Street
Cleveland, Ohio 44199

Re: April 2008 Grievance Of Local 2823

Dear Ms. Cange:

    I write to advise that Kirkland & Ellis LLP represents Local 2823 
of the American Federation of Government Employees (``Local 2823'') in 
connection with the grievance that Local 2823 filed and amended in 
April 2008 (the ``Grievance'' or ``GRV''), and I further write to 
respond to an April 25, 2008 memorandum (the ``Memorandum'' or ``MEM'') 
from your office that denied the Grievance for various reasons.\1\
---------------------------------------------------------------------------
    \1\ Local 2823 does not address herein all the matters raised by 
its Grievance or assertions made by your office's Memorandum in 
response, as Local 2823 does not believe that such unaddressed matters 
need to be resolved at this juncture to have a productive discussion of 
the principal disputes between the parties. However, Local 2823 does 
not waive and expressly reserves all rights and claims it has, 
including those that are not expressly addressed herein but are 
otherwise fairly encompassed by the Grievance.
---------------------------------------------------------------------------
1. The Grievance
    Local 2823's Grievance demands resolution of several disputes that 
Local 2823 believes are negatively affecting the processing of 
veterans' benefits claims at the Cleveland VA Regional Office (the 
``Cleveland VARO''). Specifically, the Grievance states that management 
of the Cleveland VARO has, among other things:

    1.  created and encouraged a culture in which the quantity of 
benefits claims rated is emphasized to the detriment of the quality of 
the rating of those claims (see GRV at 3-4 para.para. (6)(b)-(d); 
hereafter, the ``Culture Claim''); \2\
---------------------------------------------------------------------------
    \2\ This may be one of the reasons why Ohio ranks second to last 
nationally in the average compensation awarded to its disabled veterans 
according to the VBA's Annual Benefits Report for FY2006. See, e.g., 
The Plain Dealer at A7 (Apr. 12, 2008) (summarizing disparate 
disability compensation averages across states, with only Indiana 
having a lower average than Ohio, but having fewer than half of the 
number of disability recipients as Ohio); accord VBA Annual Benefits 
Report--Fiscal Year 2006 at 103Sec. 1A0953 (state-by-state figures).
---------------------------------------------------------------------------
    2.  failed to properly, equitably and promptly implement training 
initiatives to assure that those reviewing claims are sufficiently 
trained in the relevant disciplines so as to reduce errors, improve the 
quality of claims processing, and successfully complete newly 
implemented certification requirements (see GRV at 2-3 para.para. 5(d)-
(e); hereafter the ``Training Claim''); \3\ and
---------------------------------------------------------------------------
    \3\ See, e.g., 1997 Master Agreement between the Dep't of Veterans 
Affairs and the Am. Fed'n of Gov't Employees [hereafter, ``MA''] at 142 
(Art. 34) Sec. 1(A) (``The Department and the Union agree that the 
training and development of employees is of critical importance in 
carrying out the mission of the Department.''); id. Sec. 9 
(``Procedures which ensure fair and equitable training opportunities 
are appropriate subjects for local bargaining.''). See also 1/20/00 
VBA-AFGE Mem. of Understanding [hereafter ``1/20/00 MOU''] para. 2 
(``VBA commits to a standard of excellence in the quality and quantity 
of training for all employees.''); id. para. 10 (``Local unions will be 
given the opportunity to bargain over appropriate issues not otherwise 
in conflict with this or other national level agreements, prior to 
local implementation.''); 5/19/06 Mem. of Understanding; Interim Cert. 
MOU for FY2006 [hereafter ``5/19/06 MOU''] at preamble (``The terms of 
the original MOU on Certification dated 2000 are still in effect.''); 
id. para. 15 (``The parties may negotiate locally on this subject 
provided it does not conflict, interfere with, or impair the 
implementation of this MOU and the Master Agreement.'').
---------------------------------------------------------------------------
    3.  failed to properly implement a fair and impartial performance 
appraisal system that assures that quantitative measures of performance 
are not emphasized to the detriment of measures of the quality of that 
performance (see GRV at 4 para. 6(a); hereafter the ``Performance 
Appraisal Claim'').\4\
---------------------------------------------------------------------------
    \4\ See, e.g., Am. Art. 26 Sec. 1(D) (``The parties share an 
interest in improving the performance of the Department's workforce''); 
id. Sec. 1(H) (``The performance appraisal process as set forth in this 
Article is intended to be innovative and evolutionary in nature. Its 
effectiveness is critical to the Department achieving its mission.'').

    While recent disputes between management and Local 2823 (and 
certain of its officers) unfortunately have created an adversarial 
atmosphere and tone, it is important to underscore and reaffirm that 
Local 2823's fundamental reason for instituting this Grievance is to 
improve the quality of the processing of benefits claims by assuring 
that those responsible for reviewing such claims are (i) encouraged and 
expected to perform high quality reviews (even where doing so may 
reduce the quantity of claims that can be reviewed), (ii) sufficiently 
trained to perform these high quality reviews, and (iii) appraised 
based both on the quality as well as the quantity of their ratings--all 
of which, Local 2823 believes, is consistent with and required by VA 
policy, applicable agreements of the parties, and applicable law.
    Local 2823 believes that the best way to achieve these objectives 
is by working collaboratively and cooperatively with management to 
achieve them.\5\ Accordingly, Local 2823 and the undersigned request 
that within the next 2 weeks you provide them with a date and time when 
we can sit down with you and your management team in the next 60 days 
to see if there is a way that the parties can work together to 
accomplish the aforementioned objectives and resolve their differences 
by means of such ADR.\6\
---------------------------------------------------------------------------
    \5\ See, e.g., MA at 4 (Preamble) Sec. 2 (``The Department and the 
Union agree that a constructive and cooperative working relationship 
between labor and management is essential to achieving the Department's 
mission and to ensuring a quality work environment for all employees. 
The parties recognize that this relationship must be built on a solid 
foundation of trust, mutual respect, and a shared responsibility for 
organizational success. [para.] Therefore, the parties agree to work 
together in partnership and through this Master Agreement to identify 
problems and craft solutions, enhance productivity, and deliver the 
best quality of service to the Nation's veterans.'') (emphasis added). 
See also id. at 8 (Art. 3) Sec. 2 (noting important ``Partnership'' 
principles that are to characterize parties' relationships, including 
``Shared responsibility,'' ``Sharing of information,'' ``Reaching joint 
agreements and making joint recommendations,'' ``Use of alternative 
dispute resolution, interest-based, problem-solving techniques, and 
facilitation,'' and ``Integration of interests''--all addressed to the 
common goal of establishing and improving ``effective Partnerships 
which are designed to ensure a quality work environment for employees, 
more efficient administration of VA programs, and improved service to 
veterans'') (emphasis added); id. Sec. 3 (``The scope of partnership 
will include issues raised by either party regarding: A. Matters 
involving personnel policies, practices, and working conditions.''); 
id. at 15 (Art. 7) Sec. 1 (``Service to the veteran is the cornerstone 
of the relationship between the Department and employees.''); id. at 
177 (Art. 146) Sec. 1 (``The parties recognize that a new relationship 
between the Union and the Department as full partners is essential for 
reforming the Department into an organization that works more 
efficiently and effectively and better serves customer needs, 
employees, Union representatives and managers.'').
    \6\ See, e.g., Master Agreement at 13 (Art. 6) Sec. 1 (``Union and 
Management at all levels should be committed to use of ADR problem-
solving methods as a priority to resolve disputed matters.''); id. 
Sec. 4(A) (``ADR is an appropriate subject matter for local 
negotiations.''); id. at 14 (Art. 6) Sec. 4(D) (``ADR methods may be 
used prior to or during a grievance/arbitration or statutory 
appeal.''); id. at 165 (Art. 42) Sec. 6 (``The use of ADR is 
encouraged. The parties agree that every effort will be made to settle 
grievances at the lowest possible level.''); VA Dir. 5023 Sec. 2(a) 
(``It is the policy of VA to recognize and deal with lawful labor 
organizations on matters of concern to the employees they represent, 
and to place primary reliance on informal settlement of any differences 
or disputes at the earliest stage possible by discussion between VA 
management and representatives of labor organizations.'').
---------------------------------------------------------------------------
    If, however, management is unwilling to work collaboratively to 
achieve these objectives, then Local 2823 has a responsibility to its 
members (and to veterans) to prosecute the Grievance vigorously by 
commencing arbitration proceedings, which Local 2823 will not hesitate 
to do. Moreover, should the matter proceed to arbitration, for the 
reasons set forth below, we are confident that the arbitrator will find 
in Local 2823's favor and that your legal and other objections to the 
Grievance that are recited in the Memorandum will not be sustained.
2. The Culture Claim
    As set forth in the Grievance, management has: (1) established an 
environment in which ``there is an extreme pressure to produce 
minimally acceptable work at any cost''; (2) ``developed an employee 
culture where striving to achieve unreasonable production criteria is 
paramount and . . . actually doing difficult necessary work on cases is 
strongly discouraged on penalty of removal''; and (3) commonly 
expresses sentiments such as, ``just decide the case and let the 
veteran appeal.'' (See GRV at 4 para. 6(a); id. para.para. 6(a), (b) & 
(d).)
A. The Culture Claim I Sufficiently Particular
    The Memorandum your office issued takes exception to the Grievance, 
inter alia, on the grounds that it is insufficiently particular in that 
it does not identify: (1) ``any specific acts that are being grieved''; 
(2) ``any specific times, dates and places for any acts being 
grieved''; and (3) ``any rationale supporting or even explaining how 
VBA's alleged conduct violated any negotiated agreements or law.'' 
(Mem. at 1 para. 3.) The Memorandum, however, notably fails to identify 
any agreement or law requiring that Local 2823's step-three grievance 
(see GRV at 1 para. 1) be stated with greater particularity--because 
there is none.
    While the Master Agreement recites that a step-two grievance ``must 
state, in detail, the basis for the grievance and the corrective action 
desired'' (MA at 166 (Art. 42) Sec. 7 (emphasis added)), no such 
requirement is prescribed for a step-three grievance like the one at 
issue here. Regardless, even were the Grievance deemed a step-two 
grievance (or deemed bound by a similar ``detailed basis'' 
requirement), the Grievance does ``state, in detail, the basis for the 
grievance''--e.g., the Culture Claim, the Training Claim, and the 
Performance Appraisal Claim. Moreover, the Master Agreement does not 
state that ``all facts'' supporting a grievance must be recited in the 
grievance in order to satisfy the ``detailed basis'' requirement of 
Article 42 Sec. 7; it does not require that all ``acts'' encompassed by 
the grievance be separately listed; it does not require specification 
of times, dates, and places for all acts encompassed by a grievance; 
and it does not require an explanation of each of the ways in which the 
conduct at issue violated each applicable agreement and/or law. Nor 
would it be reasonable to impose such a particularized pleading 
requirement on Local 2823--before any documents have been turned over 
by management relating to the claims pled as the basis for the 
Grievance.
B. The Culture Claim Is Based on Violations of Applicable VA Policies, 
        Agreements, and/or Law
    Actions of management giving rise to the Culture Claim violate VA 
policy as well as applicable agreements and law.

    First, VA Directive 5023 properly states and acknowledges that 
``[t]he public interest demands the highest standards of employee 
performance and the continued development and implementation of modern 
and progressive work practices to facilitate and improve employee 
performance and the efficient accomplishment of the operation of the 
Government.'' See VA Dir. 5023 Sec. 2(b). Further, VA Directive 5023 
provides that ``VA management shall carry out its duties in a manner 
consistent with the terms and spirit of human resources policies, 
principles and procedures that encourage the highest standard of 
employee performance and the most efficient accomplishment of VA 
operations.'' Id. Sec. 2(c) (emphasis added). Thus, the VBA violates 
its own policy by promoting a working culture that discourages the 
highest standard of employee performance so as to more expeditiously 
process claims. Moreover, the VBA further violates its policy 
respecting the efficient accomplishment of VA tasks by promoting a 
culture that likely results in more claims decisions that are 
vulnerable to reversal on appeal and re-processing on remand--a less 
efficient manner of proceeding.

    Second, as set forth in Article 7 Sec. 1 of the Master Agreement, 
``[s]ervice to the veteran is the cornerstone of the relationship 
between the Department and employees,'' and the ``parties recognize the 
importance of a strong commitment to a comprehensive Total Quality 
Improvement Program (TQI) in the Department.'' (Emphasis added). Thus, 
discouraging quality reviews of benefits claims in the name of 
processing a greater quantity of benefits claims violates the service-
to-the-veteran imperative that is to inform the work of both the 
Department and its employees and ignores the importance of quality 
considerations to the reviews undertaken--both of which violate the 
letter and spirit of Article 7 Sec. 1 of the Master Agreement. (See 
also Am. Art. 26 Sec. 1(A) (``The Department will strive for continuous 
improvement in performance to fulfill the Department's commitment to 
providing quality customer service.'') (emphasis added); Agreement 
Between Dep't of Veterans' Affairs Cleveland Regional Office and AFGE 
Local 2823 [hereafter ``Local Agreement'' or ``LA''] Sec. 1(A) (``The 
mission of the Department of Veterans Affairs and this Regional Office 
is to service the veteran and beneficiaries with timely and quality 
service.'') (emphasis added).) Further, pursuant to Article 43 
Sec. 3(B) of the Master Agreement, management has an obligation to 
bargain locally with Local 2823 as to, inter alia, the ``methods and 
means of performing work.'' Thus, by refusing to bargain over the 
Culture Claim, which is squarely addressed to the Cleveland VARO's 
methods and means of performing work, the Cleveland VARO is abrogating 
this provision of the Master Agreement as well.

    Third, an atmosphere that promotes quantity at the expense of 
quality is fundamentally contrary to the Department's statutory 
obligations to improve the quality of the claims rating process as well 
as increase the quantity of claims processed. See, e.g., 38 U.S.C. 
Sec. 7734(1)(E) (requiring an annual report to Congress that includes, 
inter alia, ``actions taken to improve the quality of services provided 
and the results obtained'') (emphasis added); id. Sec. 7734(2) 
(requiring an annual report to Congress that includes, inter alia, 
``information with respect to the accuracy of decisions, including 
trends in that information.'').
C. Local 2823's Culture Claim Has Evidentiary Support
    There is ample evidentiary support for Local 2823's Culture Claim, 
both nationally and locally.

    First, recently completed national studies and surveys have 
confirmed the perception among many claims ratings personnel nationwide 
that the Department has fostered an atmosphere in which quantitative 
objectives are pursued to the detriment of qualitative objectives. For 
example, in a recent report issued by the Veterans' Disability 
Commission in October 2007, they noted the following:

        In respect of the criticism concerning balancing quality and 
        quantity in employee performance, CNAC \7\ discovered there 
        exists a perception that VA emphasized quantity over quality. 
        In a national survey, 80 percent of raters said having enough 
        time to process a claim was one of their top three challenges. 
        They were also asked to rate the availability of time to decide 
        a claim, 54 percent of raters said availability of time was 
        fair or poor. It can be argued that this creates incentives for 
        RVSRs to make decisions that are not always fully backed by 
        evidence, which leads to more appeals, and remands, and 
        increases backlogs in the system. . . .
---------------------------------------------------------------------------
    \7\ ``CNAC'' is a shorthand reference to the CNA Corporation, which 
conducted scientifically valid and reliable surveys. See 10/07 VDBC 
Report at 19 (``The Commission also examined the results of studies 
undertaken on its behalf by the CNA Corporation (CNAC). . . . 
Additionally, CNAC surveyed VA raters, service officers from veterans 
service organizations, and disabled veterans and survivors. These 
surveys were scientifically valid and reliable.'').
---------------------------------------------------------------------------

                                 * * *

        CNAC believes that the VA's training difficulties are made 
        exponentially worse because staff feel a need for more training 
        and that training seems to be sacrificed to meet work quotas. 
        This emphasis has encouraged a high staff turnover at VA. The 
        quality of claims is lessened since inexperienced individuals 
        are taking over for experienced raters.

Veterans Disability Benefits Comm'n, Honoring The Call To Duty: 
Veterans' Disability Benefits In The 21st Century [hereafter, ``10/07 
VDBC Report''] 342 (Oct. 2007) (emphasis added).\8\
---------------------------------------------------------------------------
    \8\ Local 2823 further notes that it believes the failure of the 
Cleveland VARO to share the results of the aforementioned study with 
Local 2823 was a violation of Master Agreement Article 46 Sec. 8(C), 
which on relevant part provides that ``[i]f a third party conducts a 
survey and the results are distributed to the Department, the results 
will be shared with the Union.'' See also Dep't of Veterans Affairs 
(VA) FY2007 Performance and Accountability Report [hereafter, ``11/07 
VA Report''] 78 (Nov. 15, 2007) (``The Veterans' Disability Benefits 
Commission began work in May 2005 and issued its report in October 
2007. VA will study the Commission's recommendations and begin taking 
appropriate actions in 2008.'').

    Moreover, in recent testimony to Congress, the Deputy Under 
Secretary for Benefits, Michael Walcoff, acknowledged that current 
quantitative measures of productivity, which do not take into account 
the complexity of benefits claims and numbers of issues raised by a 
---------------------------------------------------------------------------
claimant, are in need of revision:

        To further enhance our ability to monitor performance, the 
        study team recommends the creation of a performance measurement 
        system focused on tracking the number of medical disabilities 
        or issues claimed. IBM believes that this issue-based 
        performance measurement system, in conjunction with the 
        existing claim-based performance measurement system, will 
        result in a more accurate and detailed measure of productivity 
        and workload. Under the current claim-based performance 
        measurement system, a regional office is given the same credit 
        for completing a claim with one issue as a claim with forty 
        issues. The study team believes that measuring work output by 
        both number of claims and number of issues at an organizational 
        level is a more accurate assessment of a regional office's 
        productivity. In addition, an issued-based performance 
        measurement at an individual level will provide more 
        specificity in the activities of staff and result in increased 
        accountability overall. [para.] VBA agrees with the idea of 
        adding an issue-based performance measurement system to our 
        current reporting structure.

February 18, 2008 Statement of Michael Walcoff Before The House 
Committee On Veterans' Affairs Subcommittee On Disability Assistance 
And Memorial Affairs, Examining The VA Claims Processing System 
(emphasis added).

    Second, in addition to such national evidence supporting Local 
2823's Culture Claim, Local 2823 will be prepared at the arbitration 
hearing to present evidence of specific instances of actions taken by 
Cleveland VARO management contributing to the establishment and 
promotion of a culture in which the quantity of ratings decisions is 
valued to the detriment of quality. For example, VSR production 
standards at the Cleveland VARO are set at 10 points per day, 25 
percent higher than the national standard of 8 points per day. Also, 
rating specialists at the Cleveland VARO only receive production credit 
for cases they have decided, and not for reviewing cases that are sent 
back to VSRs for further development. This means that RVSRs are 
incentivized to decide cases without correcting errors in the file 
instead of ``losing time'' while they rework cases that are 
procedurally or developmentally flawed.
D. Local 2823's Clarified and Revised Information Requests Addressed to 
        the Culture Claim are Proper
    In addition, as noted in the Grievance, Local 2823 requests 
information from the Cleveland VARO that is normally maintained, 
reasonably available, and necessary for Local 2823 to fulfill its 
representational functions and responsibilities with respect to the 
prosecution of the Culture Claim, and, to that end clarifies and 
revises its requests for information, hereby requesting production of 
the following information created on or after January 20, 2000:

    <bullet>  Any communications between and among Cleveland VARO 
management and supervisors respecting efforts to achieve quantitative 
production requirements;
    <bullet>  Any communications between and among Cleveland VARO 
supervisors and employees respecting efforts to achieve quantitative 
production requirements;
    <bullet>  Documents sufficient to identify the numbers of employees 
who have received awards, bonuses, and/or promotions for achieving or 
exceeding quantitative production requirements;
    <bullet>  Documents sufficient to identify the numbers of 
supervisors who have received awards, bonuses, and/or promotions for 
achieving or exceeding quantitative production requirements;
    <bullet>  Documents sufficient to identify the numbers of employees 
(if any) who have received awards, bonuses, and/or promotions for 
achieving or exceeding qualitative performance standards;
    <bullet>  Documents sufficient to identify the numbers of 
supervisors (if any) who have received awards, bonuses, and/or 
promotions for achieving or exceeding qualitative performance 
standards;
    <bullet>  Documents sufficient to identify the number of employees 
who have received demotions, non-satisfactory ratings, or other 
disciplinary actions or negative performance ratings for their failure 
to achieve or exceed quantitative production requirements;
    <bullet>  Documents sufficient to identify the number of 
supervisors who have received demotions, non-satisfactory ratings, or 
other disciplinary actions or negative performance ratings for their 
failure to achieve or exceed quantitative production requirements;
    <bullet>  Documents sufficient to identify the number of employees 
(if any) who have received demotions, non-satisfactory ratings, or 
other disciplinary actions or negative performance ratings for their 
failure to achieve or exceed qualitative performance standards;
    <bullet>  Documents sufficient to identify the number of 
supervisors (if any) who have received demotions, non-satisfactory 
ratings, or other disciplinary actions or negative performance ratings 
for their failure to achieve or exceed qualitative performance 
standards;
    <bullet>  Any communications from employees in the Cleveland VARO 
to supervisors or other Cleveland VARO management complaining about 
quantitative production requirements and their effect on the quality of 
the claims processing;
    <bullet>  Any communications from supervisors in the Cleveland VARO 
complaining about quantitative production requirements and their effect 
on the quality of the claims processing;
    <bullet>  Any statistical information tracking the quantitative 
performance of the Cleveland VARO in terms of processing clams;
    <bullet>  Any statistical information tracking the quality of the 
Cleveland VARO in terms of processing claims; and
    <bullet>  Any statistical information respecting the number and 
rate of Cleveland VARO claims determinations that are reversed or 
remanded on appeal.

    Moreover, it is plain that such information respecting the 
treatment of employees and supervisors with respect to the achievement 
of quantitative production requirements as compared to the treatment of 
employees and supervisors with respect to the achievement of 
qualitative performance standards is both relevant and necessary to 
understand and assess the working culture created by management 
favoring quantitative attainments over qualitative achievements. (See 
MA at 177 (Art. 46) Sec. 5 (``The Department agrees to provide the 
Union, upon request, with information that is normally maintained, 
reasonably available, and necessary for the Union to effectively 
fulfill its representational functions and responsibilities. This 
information will be provided to the Union within a reasonable time and 
at no cost to the Union.'').). See also AFGE Local 1345 v. Fed'l Labor 
Relations Auth., 793 F.2d 1360 (DC Cir. 1986) (Union entitled under 5 
U.S.C. Sec. 7114 to obtain information regarding two employees who had 
been dismissed from jobs within union's bargaining unit upon request 
for information from employer, as union's status as bargaining 
representative required it to have access to information to assess its 
responsibility, including information regarding dismissal of unit 
employees).\9\ Thus, Local 2823 expects to use the aforementioned 
information to evidence a consistent and longstanding emphasis on and 
encouragement of the attainment of quantitative production, with little 
or no concomitant emphasis or regard for the attainment of qualitative 
performance standards.
---------------------------------------------------------------------------
    \9\ While the Memorandum asserts that such information requests 
need be answered only insofar as the requirements of 5 U.S.C. Sec. 7114 
are met, contending that Article 46 Sec. 5 of the Master Agreement 
merely restates 5 U.S.C. Sec. 7114, section 5 does not so state, nor is 
its text as limited as the provisions of 5 U.S.C. Sec. 7114 that are 
addressed solely to data ``which is reasonably available and necessary 
for full and proper discussion, understanding, and negotiation of 
subjects within the scope of collective bargaining.'' Cf. NAGE Local 
R14-143, 55 FLRA 317 (1999) (Chair Segal, Concurring & Dissenting In 
Part) (dissenting from majority finding that Union conceded statutory 
and contractual rights were the same, noting that ``such concession 
appears particularly unlikely in view of the fact that Article 11 makes 
no reference to, and does not otherwise restate, the Statute'') (noting 
that where provision merely reiterates statute, then authority need 
only take care to assure that contractual interpretation is not 
inconsistent with statute). We further note that even if the Cleveland 
VARO had legitimate grounds to withhold some of the information 
requested, that does not mean it can withhold all information 
requested. See generally AFGE Local 2263 v. Fed'l Labor Relations 
Auth., 454 F.3d 1101 (10th Cir. 2006).
---------------------------------------------------------------------------
3. The Training Claim
    As set forth in the Grievance, management has: (1) failed to honor 
its commitment ``to a standard of excellence in the quality and 
quantity of training for all employees'' (1/20/00 MOU para. 2), ``as 
evidenced by the low pass rates of employees on previous tests and 
great disparities between . . . veterans served by different regional 
offices''; (2) failed ``to provide training that significantly furthers 
the employee's knowledge, skills and abilities to serve veterans''; (3) 
provided ``ongoing training that . . . bears little resemblance to the 
training described in the January 20, 2000 MOU''; (3) failed to rotate 
employees in a manner that would enable them ``to gain and maintain 
proficiency in all aspects of their job''; (4) disadvantaged employees 
seeking promotion by failing to adequately train them to process 
claims, thereby preventing them from successfully competing for and 
obtaining promotions, bonuses, awards, advances, and other merit-based 
compensation and/or benefits. (GRV at 2-3 para.para. 5(d), (1), (2), 
(3), 5(e).)
A. The Training Claim is Sufficiently Particular
    For the same reasons that Local 2823's Culture Claim has been 
stated with sufficient particularity in the Grievance, its Training 
Claim has been stated in a sufficiently particular manner. Again, your 
office's Memorandum does not identify any authority requiring a more 
particularized statement of the facts underlying the Training Claim at 
this juncture, and we are aware of none.
B. The Training Claim is Based on Violations of Applicable VA Policies 
        and/or Agreements
    Like the Culture Claim, Local 2823's Training Claim is based on 
violations of VA policies, applicable agreements, and applicable law.

    First, as noted by Deputy Under Secretary for Benefits, Ronald R. 
Aument, in a statement to Congress last October, training is important, 
because ``[c]ritical to improving claims accuracy and consistency is 
ensuring that our employees receive the essential guidance, materials, 
and tools to meet the ever-changing and increasingly complex demands of 
their decision-making responsibilities.'' October 16, 2007 Statement of 
Ronald R. Aument, Deputy Under Secretary For Benefits, Before The House 
Veterans' Affairs Subcommittee On Oversight And Investigations 
[hereafter, 10/16/07 Aument Testimony]. As summarized by Under 
Secretary Aument, the training regimen that the VA is supposed to 
follow is intended to be centralized, standardized, and comprehensive:

        [1] New hires receive comprehensive training and a consistent 
        foundation in claims processing principles through a national 
        centralized training program called ``Challenge.'' [2] After 
        the initial centralized training, employees follow a national 
        standardized training curriculum (full lesson plans, handouts, 
        student guides, instructor guides, and slides for classroom 
        instruction) available to all regional offices. Standardized 
        computer-based tools have been developed for training decision-
        makers (71 courses completed and an additional 5 in 
        development). Training letters and satellite broadcasts on the 
        proper approach to rating complex issues are provided to the 
        field stations. [3] In addition, a mandatory cycle of training 
        for all Veterans Service Center employees has been developed 
        consisting of an 80-hour annual curriculum.

10/16/07 Aument Testimony. And the VA's most recent annual report again 
reiterates that ``[t]raining remains a priority. . . . '' 11/07 VA 
Report at 199. But notwithstanding these published policies and 
statements, and as set forth below, Local 2823 has reason to believe 
that the training provided by the Cleveland VARO: (1) does not provide 
new hires with ``comprehensive training and a consistent foundation in 
claims processing principles''; (2) does not assure that incumbent 
employees follow a ``national standardized training curriculum'' that 
is made equally and fully available to all within the Cleveland VARO; 
and (3) does not assure that all employees receive the full cycle of 
training and complete an 80-hour curriculum each year.

    Second, the applicable agreements similarly make clear that 
training is critical and the Department is responsible for providing it 
on a fair and equitable basis. Specifically, Master Agreement Article 
34 Sec. 1(A) provides as follows:

        The Department and the Union agree that the training and 
        development of employees is of critical importance in carrying 
        out the mission of the Department. In recognition of this, the 
        Department will provide training and career development 
        opportunities to employees of the bargaining unit. The 
        Department is responsible for ensuring that all employees 
        receive the training necessary for the performance of the 
        employees' assigned duties.

(MA at 142 (Art. 34) Sec. 1(A) (emphasis added).) Moreover, the Master 
Agreement requires fair and equitable administration of training among 
employees. (See, e.g., MA at 143 (Art. 34) Sec. 3(C) (``When resources 
for training are limited, approval for training funds will be based on 
fair criteria that are equitably applied.'') (emphasis added).) 
Further, the Master Agreement requires the Department to inform 
employees, at least annually, about training opportunities, policies, 
and nomination procedures. (See id. at 143 (Art. 34) Sec. 6(A) (``The 
Department shall inform employees, at least annually, about Department 
training opportunities, policies, and nomination procedures. Upon 
request, the Department will advise individual employees of training 
opportunities that meet identified educational or career 
objectives.''). Finally, and perhaps most importantly, the Master 
Agreement makes clear that such training matters are appropriate 
subjects for local bargaining, stating: ``[p]rocedures which ensure 
fair and equitable training opportunities are appropriate subjects for 
local bargaining.'' (MA at 144 (Art. 34) Sec. 9 (emphasis added).\10\)
---------------------------------------------------------------------------
    \10\ See also MA at 172 (Art. 44) Sec. 4(A) (``On all policies and 
directives or other changes for which the Department meets its 
bargaining obligation at the national level, appropriate local 
bargaining shall take place at individual facilities and may include 
substantive bargaining that does not conflict with negotiated national 
policy and agreements.''); id. at 172-73 (Art. 44) Sec. 4(B) 
(``Proposed changes in personnel policies, practices, or working 
conditions affecting the interests of one local Union shall require 
notice to the President of that local. Proposed changes in personnel 
policies, practices, or working conditions affecting the interests of 
two or more local Unions within a facility shall require notice to a 
party designated by the NVAC President with a copy to the affected 
local Unions. Proposed changes in personnel policies, practices, or 
working conditions affecting the interests of more than one facility 
shall require notice to a party designated by the national VA Council 
President.''); id. at 169 (Art. 43) Sec. 1 (``Recognizing that the 
Master Agreement cannot cover all aspects or provide definitive 
language for local adaptability on each subject addressed, it is 
understood that Local Supplements may include substantive bargaining on 
all subjects covered in the Master Agreement so long as they do not 
conflict, interfere with, or impair implementation of the Master 
Agreement. However, matters that are excluded from Local Supplemental 
bargaining will be identified within each Article.'') (emphasis added); 
id. Sec. 2(A) (``The Local Supplemental Agreement may cover all 
negotiable matters regarding conditions of employment insofar as they 
do not conflict with the Master Agreement as defined in Section 1. . . 
. Note: This is not intended to preclude local bargaining of items that 
are not covered by the Master Agreement, i.e., policies, procedures and 
directives initiated at the facility level or national level.'') 
(emphasis added); id. Sec. 2(B) (``In the event either of the national 
parties determines there exists a conflict with the Master Agreement, 
they shall forward a written document to the respective local and the 
other national party identifying the conflict for resolution at the 
local level.''). These provisions of the Master Agreement and similar 
provisions in the 1/20/00 MOU make clear that contrary to the 
assertions in the Memorandum (see Mem. at 2-3 para.para. 5(a)-(c)), the 
VA's belief that it has met its bargaining obligations at the national 
level do not relieve it of the obligation to bargain locally as to the 
matters put at issue by Local 2823's Grievance.

    Yet once again, as set forth below, Local 2823 has reason to 
believe that the Cleveland VARO is not honoring its training and 
bargaining obligations under the Master Agreement, inasmuch as the 
Cleveland VARO: (1) has not provided training and career development 
opportunities to all employees; (2) has not ensured that all employees 
have received the training necessary for the performance of their 
assigned duties; (3) has not used fair criteria, equitably applied, to 
assure that training is appropriately distributed among and between 
employees; (4) has not advised individual employees who request such 
information of training opportunities that meet identified educational 
or career objectives, including, but not limited to, VSR and/or RVSR 
certification; and (5) has refused to bargain with Local 2823 to ensure 
that fair and equitable training opportunities are made available to 
all employees.
    Moreover, as regards training related to certification of VSR and 
RVSR personnel, the parties 1/20/00 MOU provides that the Department 
has a number of obligations, relating to training, reciting in relevant 
part the following:

    <bullet>  ``VBA commits to a standard of excellence in the quality 
and quantity of training for all employees. We will ensure training 
programs, which are the core and prerequisite to certification, are 
complete and sufficient to provide employees the necessary tools to 
become certified. There will be a direct relationship between the 
training program and certification.'' (1/20/00 MOU para. 2 (emphasis 
added)).
    <bullet>  ``Employees will proceed through standardized training 
such as the TPSS program, which may include pre and post tests for the 
purpose of determining the efficacy of training. Training will include 
mentoring, on-the-job-training and ongoing feedback.'' (1/20/00 MOU 
para. 3 (emphasis added).)
    <bullet>  ``Where incumbent employees have not been performing the 
full range of duties due to specialization or for other reasons, at the 
employees request, we will ensure that they are provided training 
sufficient for them to participate in the certification program.'' (1/
20/00 MOU para. 6 (emphasis added).)
    <bullet>  ``A copy of this MOU will be furnished to the Local 
President of all VBA facilities represented by AFGE. Local unions will 
be given the opportunity to bargain over appropriate issues not 
otherwise in conflict with this or other national level agreements, 
prior to local implementation.'' (1/20/00 MOU para. 10 (emphasis 
added).)

    However, once again, as set forth below the Cleveland VARO has 
violated its obligations under the 1/20/00 MOU, because: (1) the 
quality and quantity of training made available to employees does not 
rise to the promised standard of excellence; (2) training programs are 
not complete and sufficient to provide employees the necessary tools to 
become certified; (3) employees have not proceeded through standardized 
TPSS training, and the training generally has not included mentoring, 
on-the-job training or ongoing feedback; (4) incumbent employees who 
have not been performing the full range of duties due to specialization 
or other reasons have not been provided training sufficient for them to 
participate in the certification program; and (5) management has failed 
and refused to bargain over these issues.
    Finally, it is important to note that while your office's 
Memorandum asserts that it is not obligated to bargain with Local 2823 
regarding these training matters relating to VSR and RVSR certification 
in light of certain alleged positions taken by the national Union in 
negotiations with the Department, those assertions ignore the facts 
that: (1) the matters for which Local 2823 has sought to bargain are 
not the same as those put at issue by the dispute at the national level 
(and the Memorandum makes no attempt to explain why they are); (2) 
regardless of the resolution of VA's dispute with the national Union, 
that will not resolve the training issues for which Local 2823 has 
sought to bargain locally; (3) the Memorandum's assertions regarding 
the exclusive recognition of the national Union ignore that the 
Department agreed with the national Union that local bargaining would 
still occur and the appropriate VARO would still be obligated to engage 
in such local bargaining pursuant to the applicable provisions of the 
Master Agreement.\11\
---------------------------------------------------------------------------
    \11\ We further note in this regard that the Memorandum's citation 
to U.S. Food & Drug Adm., Northeast & Mid-Atl. Regions v. AFGE Council 
No. 242, 53 F.L.R.A. 1269 (1998) is misplaced and in fact supports 
Local 2823's position here. Notably, in relevant part U.S. Food & Drug 
states, ``[a] representative with a collective bargaining relationship 
in a consolidated bargaining unit is not required to bargain locally 
with individual components that make up the consolidated unit unless 
such bargaining has been agreed to at the consolidated level.'' Id. at 
1274 (emphasis added); id. (``Parties to a national, consolidated 
bargaining unit may, and often do, authorize local components to 
bargain supplemental and other agreements over particular subjects or 
in particular circumstances.''). And here, it is plain that in the 
Master Agreement and 1/20/00 MOU, the Department and national Union 
agreed that local bargaining would continue to be available unless 
expressly proscribed by the Master Agreement. See supra n.9.
---------------------------------------------------------------------------
C. The Training Claim Has Evidentiary Support
    Once again, there is ample evidentiary support for Local 2823's 
Training Claim, both nationally and locally.

    First, both the Office of the Inspector General and third-party 
studies have found that disparities in training across offices account 
for at least some of the differences across offices with respect to the 
average amount of compensation awarded to a claimant. For example, the 
Deputy Inspector General, in a statement to Congress, represented that 
``the degree of rater subjectivity can be influenced by . . . the 
amount of training and rater experience.'' October 16, 2007 Statement 
Of Jon A. Wooditch, Deputy Inspector General, Before The Subcommittee 
On Oversight And Investigations Committee On Veterans' Affairs--U.S. 
House Of Reps. Hrng On Disability Claims Ratings & Benefits Disparities 
Within The VBA [hereafter, ``10/16/07 Wooditch Testimony'']. Moreover, 
variations in training across offices also were identified by the 
Institute for Defense Analyses (``IDA'') in its study, Analysis of 
Differences in VA Disability Compensation (hereafter, the ``IDA 
Study''), as a significant factor responsible for differences in 
compensation awarded across offices. See, e.g., Hope Yen, AP, 
Washington Post (July 19, 2007) (``But the study released to AP found 
that roughly one-third of the problems could be blamed on poor VA 
standards and inadequate training.'').\12\ Indeed, one of the 
recommendations of the IDA Study was to ``[s]tandardize initial and on-
going training for rating specialists'' 10/16/07 Aument Testimony. 
Thus, this national evidence suggests that the Cleveland VARO is not 
receiving training commensurate with that made available to raters in 
other offices.
---------------------------------------------------------------------------
    \12\ The IDA study does not appear to be publicly available at this 
juncture.
---------------------------------------------------------------------------
    Moreover, the current insufficiency of training programs and 
policies has been confirmed by the recent report of the Veterans' 
Disability Benefits Commission, which states:

        VBA regional office staff must receive adequate education and 
        training. Quality reviews should be performed to ensure these 
        frontline workers are well versed to rate claims. Adequate 
        resources must be appropriated to hire and train these workers 
        to achieve a manageable claims backlog.

(10/07 VDBC Report 338 (Recommendation 9.5).)

    Second, as set forth in the Grievance, there are numerous instances 
of the Cleveland VARO failing to implement equitably, promptly, and 
appropriately training. For example, as a result of the Claims Process 
Improvement teams that have been formed to focus on specific problem 
areas, employees are not cycled through all areas and do not receive 
on-the-job training in many areas before they are required to sit for 
certification exams covering all areas. (See GRV at 2 Sec. 5(3).) 
Moreover, training that has been provided has not been comprehensive, 
but instead has largely been addressed to the specific tasks assigned 
an employee at the time of hire. (See id.) The initial training for 
VSRs in the Cleveland VARO is focused on the tasks performed by the 
team to which the VSRs have been assigned, either pre-development or 
post-determination. Then, 85 percent-90 percent of the training that 
the VSRs receive on the job consists of overview courses that also 
cover tasks they perform in their current jobs. This training regimen 
leaves VSRs unprepared for their new duties when they switch teams and 
the quality of their work (and their production) suffers. In addition 
to these problems with VSR training, the Cleveland VARO also fails to 
train RVSRs appropriately. At the time the grievance was filed, few 
RVSRs in the office had completed the TPSS training modules that are 
required for first-year rating specialists. Instead of addressing this 
deficiency, the Cleveland VARO ignores it: three rating specialists 
were promoted in October 2007, even though they had failed to complete 
the basic compensation training module.
D. Local 2823's Clarified and Revised Information Requests Addressed to 
        the Training Claim are Proper
    In addition, as noted in the Grievance, Local 2823 requests 
information from the Cleveland VARO that is normally maintained, 
reasonably available, and necessary for Local 2823 to fulfill its 
representational functions and responsibilities with respect to the 
prosecution of the Training Claim, and, to that end clarifies and 
revises its requests for information, hereby requesting production of 
the following information created on or after January 20, 2000 (except 
as otherwise indicated):

    <bullet>  Documents sufficient to show the number of employees 
(including VSRs and RVSRs) who have received training in the Cleveland 
VARO, the amount of training that they have received, and the types of 
training that they have received in each of the fiscal years 2002, 
2003, 2004, 2005, 2006, 2007, and 2008 (to date);
    <bullet>  Documents sufficient to show all plans and programs for 
training employees (including VSRs and RVSRs) at the Cleveland VARO or 
elsewhere for the fiscal years 2002, 2003, 2004, 2005, 2006, 2007, and 
2008 (to date);
    <bullet>  All communications from employees complaining, praising 
or otherwise evaluating the amount, content, type, availability, or 
other aspects of training provided or made available to employees;
    <bullet>  All studies, audits, and/or investigations by the VA and/
or third parties (including, but not limited to, the IDA Study) 
addressing the adequacy of training made available to and/or required 
of employees at the Cleveland VARO and nationally (including, but not 
limited to, VSRs and RVSRs);
    <bullet>  Documents sufficient to show all training that is 
required and/or suggested for VSR and/or RVSR certification, including, 
but not limited to, copies of instructions for RVSR and/or VSR national 
training requirements;
    <bullet>  Documents sufficient to show all on-the-job training 
accomplished and its relationship to certification of VSRs and/or 
RVSRs;
    <bullet>  A copy of the curriculum formally identified as VSR 
``Readiness Training'';
    <bullet>  A copy of any training materials respecting ``the 
Candidate Guide'';
    <bullet>  A copy of any ``Boot Camp'' test or similar Cleveland 
VARO practice test;
    <bullet>  A copy of all materials found at the following website 
address: http://cptraining.vba.va.gov/C&PTraining/VSR/VSRCerTng/
VSRCertCurriculum.htm;
    <bullet>  A copy of the link to the VSR Certification Training 
Guide that has been provided to each employee in the Cleveland VARO who 
is eligible for certification; and
    <bullet>  A copy of all materials found at the following website 
address: http://cptraining.vba.va.gov/C&PTraining/VSR/VSRCertTng/
Documents/VSRCertTrainingGuide.pdf.

    Further, it is plain that production of the requested training 
information is relevant and necessary to Local 2823's prosecution of 
its Training Claim, as the information will be used to establish the 
specific departures of the Cleveland VARO from applicable training 
requirements, agreements, and policies.
4. The Performance Appraisal Claim
    In light of the foregoing, and as set forth in the Grievance, 
``management has abrogated its duty to maintain a fair and impartial 
performance appraisal system under multiple sections of Master 
Agreement 26,'' and has otherwise abrogated VA policy and guidance in 
its application of the existing performance appraisal system. (GRV at 4 
para. 6(a).)
A. The Performance Appraisal Claim is Sufficiently Particular
    For the same reasons that Local 2823's Culture and Training Claims 
have been stated with sufficient particularity in the Grievance, Local 
2823's Performance Appraisal Claim has been stated in a sufficiently 
particular manner. Again, your office's Memorandum does not identify 
any authority requiring a more particularized statement of the facts 
underlying the Performance Appraisal Claim at this juncture, and we are 
aware of none.
B. The Performance Appraisal Claim is Based on Violations of Applicable 
        VA Policies and/or Agreements
    Local 2823's Performance Appraisal Claim is based on violations of 
applicable VA policies and/or agreements.

    First, as set forth in VA Directive 5023, ``[t]he public interest 
demands the highest standards of employee performance and the continued 
development and implementation of modern and progressive work practices 
to facilitate and improve employee performance and the efficient 
accomplishment of the operation of the Government.'' See VA Dir. 5023 
Sec. 2(b). Further, as VA Directive 5023 also states, ``VA management 
shall carry out its duties in a manner consistent with the terms and 
spirit of human resources policies, principles and procedures that 
encourage the highest standard of employee performance and the most 
efficient accomplishment of VA operations.'' See id. Sec. 2(c) 
(emphasis added).
    Management has abrogated both of these VA imperatives, however, by 
implementing a performance appraisal system that, for the reasons set 
forth above and below: (1) does not promote the ``highest standards of 
employee performance and the continued development and implementation 
of modern and progressive work practices to facilitate and improve 
employee performance and the efficient accomplishment of'' VA 
operations; and (2) is fundamentally inconsistent ``with the terms and 
spirit of human resources policies, principles and procedures that 
encourage the highest standard of employee performance and the most 
efficient accomplishment of VA operations.''

    Second, as noted in the Grievance, management's implementation of 
the existing performance appraisal system also contravenes applicable 
provisions of Article 26 of the Master Agreement. Specifically, the 
relevant provisions of Article 26 (as amended) that are abrogated by 
management's implementation and application of the existing performance 
appraisal system include the following:

    <bullet>  ``In its entirety and application, the performance 
appraisal process will to the maximum extent feasible, be fair, 
equitable, and strictly related to job performance as described by the 
employee's job description.'' [Am. Art. 26 Sec. 3(A) (emphasis added).]
    <bullet>  ``Performance appraisals shall be fair and objective.'' 
[Id. Sec. 3(C) (emphasis added)]
    <bullet>  ``The union may provide input into any changes to 
performance standards and/or establishment of new performance 
standards.'' [Id. Sec. 5(A).]
    <bullet>  ``Performance standards and elements to the maximum 
extent feasible shall be reasonable, realistic, attainable, and 
sufficient under the circumstances to permit accurate measurement of an 
employee's performance, and adequate to inform the employee of what is 
necessary to achieve a `Fully Successful' level of achievement.'' [Id. 
Sec. 5(C) (emphasis added).]
    <bullet>  ``The Union shall be given reasonable written advance 
notice . . . when Management changes, adds to, or establishes new 
elements and performance standards. Prior to implementation of the 
above changes to performance standards, management shall meet all 
bargaining obligations.'' [Id. Sec. 5(E).]
    <bullet>  ``Normally, elements are not weighted or assigned 
different priorities. However, the Department will inform the employee, 
at the time the elements and standards are communicated, whether 
aspects of any job elements are to be accorded different priority. If 
the elements, standards, or priority changes, that change(s) will be 
communicated to the employee when it becomes effective.'' [Id. 
Sec. 5(H).]

Notwithstanding these obligations, however, management has breached the 
foregoing provisions of Article 26 of the Master Agreement by, inter 
alia: (1) applying the existing performance appraisal system in a 
manner that is unfair, inequitable, and almost exclusively related to 
the achievement of quantitative production targets; (2) establishing 
certification and related requirements that are now part of the 
performance appraisal while refusing any input from Local 2823 
respecting the content and implementation of the same; (3) failing to 
give reasonable written advance notice to Local 2823 respecting the 
implementation of newly established certification and related training 
requirements; (4) weighting quantitative production measures more 
highly than accuracy measures without formally apprising employees of 
the same; (5) utilizing statistical production data to evaluate 
individual performance in a manner that is unreliable, invalid, unfair 
and inequitable because it fails to take into account the number of 
issues raised by claims and the complexity of the claims process.
C. The Performance Appraisal Claim has Evidentiary Support
    Like its other claims, Local 2823's Performance Appraisal Claim 
also is amply supported both nationally and locally.

    First, as adverted to in Deputy Under Secretary Wolcoff's recent 
testimony to Congress this past February, even independent third-party 
consultants have found problematic the existing performance appraisal 
system's use of quantitative production criteria that fail to account 
for the numbers of issues raised and complexity of claims. (See 2/14/08 
Walcoff Testimony.) And, perhaps more importantly, in testifying before 
Congress, the Veterans' Benefits Administration (``VBA'') has stated 
that it ``agrees with the idea of adding an issue-based performance 
measurement system to our current reporting structure.'' (Id.) Further, 
as noted above, the Veterans' Disability Benefits Commission similarly 
found that greater attention to quality should be paid in assessing the 
performance of employees. (See 10/07 VDBC Report 338.)

    Second, in terms of the Cleveland VARO, the existing performance 
appraisal system applied by management again penalizes raters who take 
the time to assure accurate ratings of multi-issue and complex claims 
and favors those who are less accurate but meet or exceed applicable 
production quotas. For example, a case with a minimal amount of 
evidence, such as a well-documented knee injury, is given the same 
production credit as a multi-volume multi-issue case for PTSD. Raters 
are therefore tacitly (and sometimes overtly) encouraged to avoid 
processing difficult claims. A different problem is the older case 
whose record has been developed in several stages and requires follow-
up with several treating physicians. If an RVSR spends 1 hour with the 
case and discovers that a private treatment record identified by the 
veteran is missing, the RVSR should defer a decision on that case. The 
RSVR, however, does not receive any production credit under the 
performance plan for deferring this decision. Instead, the performance 
plan gives the RVSR the stark choice of ignoring the missing evidence 
and deciding the case or (correctly) deferring the case and absorbing 
the entire time spent with that case as lost.
D. Local 2823's Information Requests Addressed to the Performance 
        Appraisal Claim are Proper
    In addition, as noted in the Grievance, Local 2823 requests 
information from the Cleveland VARO that is normally maintained, 
reasonably available, and necessary for Local 2823 to fulfill its 
representational functions and responsibilities with respect to the 
prosecution of the Performance Appraisal Claim, which requests are 
encompassed by the requests set forth above with respect to the Culture 
and Training Claims. Again, the requested information is both relevant 
and necessary, as it will be used by Local 2823 to assess the manner in 
which the existing performance appraisal system has been applied by the 
Cleveland VARO and to demonstrate the ways in which the current system 
violates VA policy and provisions in Article 26 of the Master 
Agreement.
5. The Veterans' Disability Benefits Claims Modernization Act of 2008, 
        H.R. 5892
    Lastly, before closing, we wish to note that one of the reasons 
that Local 2823 believes a meeting to discuss the parties' differences 
is advisable at this juncture is that pending legislation may--at least 
in Local 2823's view--moot many of these disputes.
    In particular, the Veterans' Disability Benefits Claims 
Modernization Act Of 2008, H.R. 5892, 110th Cong. (2d Sess. 2008) (the 
``Proposed Legislation'') was referred to the House Committee on 
Veterans' Affairs in April 2008, on July 29, 2008, an amended bill was 
favorably reported out of Committee to the House floor, and on July 30, 
2008, the amended bill was passed by the House on a roll-call vote of 
429-0. See 154 Cong. Rec. H7256-H7263 (daily ed. July 29, 2008); 154 
Cong. Rec. H7518 (daily ed. July 30, 2008). If enacted in its current 
form, the Proposed Legislation would: (1) require the Department to 
engage a third-party to annually assess the quality of claims 
processing across the VAROs (see Proposed Legislation Sec. 106), 
thereby potentially addressing concerns giving rise to Local 2823's 
Culture Claim; (2) require the Department to study and develop new 
certification standards and programs after obtaining appropriate input 
from employees and their representatives (see id. Sec. 105), thereby 
potentially addressing concerns giving rise to a portion of Local 
2823's Training Claim; (3) require the Department to study and evaluate 
training made available to employees (see id. Sec. 106(a)(3)), thereby 
potentially addressing concerns giving rise to another portion of Local 
2823's Training Claim; and (4) study and implement new performance 
standards that would place greater emphasis on the quality of ratings 
decisions and less emphasis on the quantity of them (see id. Sec. 103), 
thereby potentially addressing the concerns giving rise to Local 2823's 
Performance Appraisal Claim.\13\
---------------------------------------------------------------------------
    \13\ Of course, the introduction of the Proposed Legislation merely 
confirms that Local 2823's Culture, Training and Performance Appraisal 
Claims are well-founded and raise issues of concern that are shared by 
employees in other regional offices and Members of Congress. See, e.g., 
Statement of Congressman Hare In Support Of H.R. 5892, 154 Cong. Rec. 
H7262 (daily ed. July 29, 2008) (``The largest factors contributing to 
the claims backlog are the broken culture and processes at the VA. 
There is a lack of accountability on raters, poor quality assurance 
measures, a broken work credit system, virtually no training for the 
VBA personnel, and an outdated information technology system. [para.] 
H.R. 5892 squarely addresses these problems by creating a more 
accountable and accurate system that rewards raters for the quality of 
their work, and it holds them accountable for their mistakes, ensuring 
that claims are processed correctly the very first time.'') (emphasis 
added).
---------------------------------------------------------------------------
    Accordingly, any information that management of the Cleveland VARO 
could provide to Local 2823 respecting the Department's position with 
respect to the Proposed Legislation--including whether the Department 
opposes, supports, or partially opposes and partially supports the 
Proposed Legislation--would be beneficial.

                                 * * *

    Thank you for your prompt attention to the foregoing matters, and I 
look forward to a response from your office on or before September 15, 
2008, so that the parties may quickly reach agreement on a date when 
representatives of management and Local 2823 may sit down together in 
Cleveland to further discuss (and hopefully resolve) the matters put at 
issue by Local 2823's Grievance. Should I be able to answer any 
questions in the interim, please do not hesitate to contact me.

            Sincerely,
                                 Jeffrey K. Lamb for Drew G.A. Peel
    cc: John A. Limposte, Assistant Director

                                 <F-dash>
Prepared Statement of Patricia A. Keenan, Ph.D., Program Manager, Human 
                    Resources Research Organization
    Good afternoon. I am Patricia Keenan, a Program Manager at the 
Human Resources Research Organization, known less formally as HumRRO. 
HumRRO is a non-profit, 501(c)3 research and development organization, 
established in 1951, that works with Government agencies and other 
organizations to improve their effectiveness through improved human 
capital development and management.
    I will comment today about the Compensation and Pension (C&P) 
Service's training program, as well as on methods to increase 
accountability and reduce rating variance. I am the project leader for 
HumRRO's work with VBA's Skills Certification program.
Skills Certification Testing Program
    HumRRO's has worked closely with C&P Service on Skills 
Certification program for Veterans Service Representatives (VSRs) and 
Rating VSRs (RVSRs). We began assisting VBA with the program in 2001, 
by developing the multiple-choice VSR test that is administered to GS-
10s seeking promotion to GS-11. In 2006 our work expanded to include 
VSRs at Pension Maintenance Centers (PMC) and RVSRs who have just 
completed training. Last year we began developing the Skills 
Certification test for journey-level RVSRs.
    The VSR test is completely operational with two administrations 
planned per year. Development of the RVSR end-of-training test is 
complete and the test is expected to become operational in December of 
this year. Development of the PMC VSR test is also complete and is 
expected to become operational next spring. In the future, all Skills 
Certification tests will be administered via the Internet. This has the 
advantage of allowing us to expand the types of items on the test to 
include completion and short essay items.
    The tests were developed using a content-validation strategy, which 
requires that the tests reflect important job-related content. The 
first step in creating that link was to conduct job analyses for each 
of the four target positions. Subject matter experts linked important 
tasks to the knowledges, skills and abilities required to perform them. 
The number of tasks linked to a knowledge area is reflected in the 
weight given to that knowledge area of the test blueprint and to the 
number of items in that area that are on the test. To maintain the 
content validity of a test, it is necessary that job analyses be 
repeated periodically to ensure that the test still captures the 
important job requirements. Because the original VSR job analysis was 
conducted in 2001 and many characteristics of the job have changed 
since then, we conducted a new job analysis this year. We are in the 
final stages of revising the test blueprint for the VSR test.
C&P Training Programs
    Since the Skills Certification program began in 2001, C&P Service 
has initiated several training programs. Newly hired or promoted VSRs 
and RVSRs are required to take centralized Challenge training. There is 
an RVSR Challenge course and separate VSR Challenge courses for Pre-
Determination and Post-Determination. All three Challenge courses 
include several Training Performance Support System (TPSS) modules. 
These are web-based training modules and electronic job aids with 
accompanying case-based performance practice and performance testing. 
The content of the modules are content tailored to the specific 
position. Experienced decision-makers also use the modules for 
refresher training.
    VSRs and RVSRs are also required to take 80 hours of refresher 
training per year. Central Office decides the appropriate content for 
60 percent of this training (48 hours); the other 40 percent (32 hours) 
is determined by each Regional Office on an ``ad hoc'' basis. This mix 
ensures that training addresses areas recognized as requiring 
additional training both nationally and locally. Additional training 
may be required for several reasons--to disseminate information about 
new regulations or court decisions, to address areas that are commonly 
appealed, or to correct problems identified during Systematic Technical 
Accuracy Review (STAR) review. This refresher training is provided in 
several ways--via classroom training, satellite broadcasts, net 
meetings, or online courses. VSRs who are preparing to take the Skills 
Certification Test also receive additional training time to prepare for 
the test. Please note that HumRRO has no role in preparing or 
delivering these training courses; our job is to help VBA by developing 
an independent assessment of knowledge necessary for the job itself.
Training and Test Results
    As of August, 2008, 1,227 participants have passed the VSR Skill 
Certification test. The passing rates have risen steadily from 25 
percent in the 2003 test to 49.58 percent in August of this year. These 
rising passing rates for the VSR test indicates to us that training is 
having a positive effect on test performance.
    We asked participants in the May test which TPSS modules they had 
completed or used as reference. The three modules with the highest 
percentage of completion were Original Claim for Compensation, which 
157 VSRs reported completing (33.12 percent), Original Claim for 
Pension, which 127 respondents (26.7 percent), reported completing, and 
Dependency Benefits, which 118 VSRs (24.9 percent) reported completing. 
The other modules were completed by 21 percent of test takers or less. 
The average number of modules completed was three. The general trend in 
the data shows that those who completed the TPSS modules had the 
highest scores, followed by those who did not use them at all (i.e., 
neither completed them nor used them as a reference), followed by those 
who used them only as a reference. Newer employees were more likely to 
have completed the TPSS modules whereas employees with longer tenure 
were more likely to have used the TPSS modules as references. There was 
no correlation between the number of TPSS modules completed and total 
test score.
    Similarly, we asked participants in this summer's RVSR end-of-
training test which TPSS modules they completed. Candidates reported 
completing an average of 6.7 out of 10 modules. Eighty-seven percent of 
respondents (n=334) said they had completed Rate an Original Claim for 
Disability Compensation; 72.4 percent (n=278) reported completing Rate 
an Original Claim for Disability Pension. Other modules were completed 
by 71 percent of respondents or fewer. There correlation between the 
number of TPSS modules completed and test score was significant 
(r(384)=.17, p=.001). Slightly more than 92 percent of respondents 
(n=354) reported completing Challenge training.
    The field test for the PMC VSRs was conducted last week. The two 
TPSS modules completed by the largest percentage of the 60 participants 
were: Original Claim for Pension (n=24; 40 percent) and Income 
Adjustments (n=19; 31.7 percent). We will not be able to further 
analyze the data until scoring is completed in early October.
Impediments to Rating
    As part of the job analyses required for test development, HumRRO 
staff conducted a series of visits to regional offices to learn more 
about the VSR and RVSR jobs. The main purpose of these site visits was 
to identify the critical job elements for incumbents. However, 
participants in focus groups and interviews also provided information 
about other aspects of their jobs. We talked with incumbent RVSRs, 
Decision Review Officers, coaches and Service Center Managers.
    The rating process is cognitively complex, requiring the RVSR to 
compare the facts and medical evidence presented in the claim folder to 
the descriptions of level of disability found in 38 CFR, encompassing 
two widely differing bodies of knowledge. When the RVSR has completely 
reviewed the file, established that the veteran has a service-connected 
condition and all pertinent evidence has been included, the rater 
begins evaluation process. This is done by comparing the relevant facts 
presented in the claims folder to the rating schedule, which is 
organized around 15 body systems (e.g., endocrine, musculoskeletal, 
respiratory, mental disorders). Participants in the job analysis site 
visits cited being able to do this with relative ease is the major 
difference between trainee RVSRs and their journey-level counterparts. 
They indicated that trainee RVSRs often struggle with anatomy and 
understanding medical terms at first, then realize that applying the 
regulations, via the rating schedule, is actually the more challenging 
part of the job.
    The RVSR reviews the medical evidence for each separate condition 
being claimed and matches the condition to a diagnostic code in the 
rating schedule. These diagnostic codes, in turn, are associated with 
descriptions for varying levels of severity of impairment. These levels 
are either assigned percentages in increments of 10 on a scale from 0 
to 100 or, for some disabilities such as a muscle injury, they are 
evaluated on more general descriptions such as severe, moderately 
severe, moderate, and slight. Thus the RVSR is first required to 
understand the medical condition(s) (e.g., body system affected, 
symptoms, severity, limitations thereof) and then to match that 
information to the correct section(s) of the rating schedule to 
determine the level of disability for each condition. In addition, 
there are several factors that make the task even more demanding. These 
fall broadly into two categories: workload and ambiguity.
Workload Factors
    One of the recurring problems discussed by incumbents was that of 
incomplete cases and files. When the RVSR begins the adjudication 
process, the file should be ready for rating. However, they report that 
often they find the case requires additional development, which the 
RVSR can do or defer back to the VSR. The problems are varied and range 
from an incomplete exam, missing justification for diagnosis, unclear 
information from the veteran that must be clarified, to service records 
that do not show sufficient information on which to establish service-
connection. While these problems can all be resolved, doing the 
required additional development adds significantly to the time it takes 
to process a case. The RVSR has spent time reviewing a case that was 
not ready for a rating decision and the decision must wait until the 
information can be collected.
    A second problem is the sheer volume of cases awaiting 
adjudication. The backlog of work has been growing for years and is 
increasing more rapidly than ever with the influx of veterans from OEF/
OIF. Veterans today file claims at the time of separation and a large 
proportion of cases contain multiple issues. A related factor is that 
often a veteran files additional claims before the first has been 
decided, with the result of holding up all of the veteran's claims 
until they can be rated at once.
    VBA has addressed the workload problem by hiring several thousand 
VSRs and RVSRs in the past year. One result of this has been that newly 
hired RVSRs (and VSRs) do not understand the development process well, 
and often spend much of their time learning what makes a case ``ready 
to rate.'' While they will eventually become proficient rating 
specialists, they are less efficient than they might be due to lack of 
understanding of this vital component of claims processing.
    RVSRs also face conflicting demands for prioritizing their work. 
OIF/OEF cases are given priority, as are old cases, and those in which 
the veteran is facing financial hardship or a terminal illness. 
Journey-level RVSRs often mentor less experienced RVSRs, reviewing 
their work and providing feedback, an additional duty in addition to 
their regular workload.
Ambiguity
    Another common theme heard during the focus groups was that it is 
critical for RVSRs to understand that what they are rating is most 
often not black-and-white. There are gray areas in both the medical and 
legal aspects of the job. A good deal of research is often required to 
establish service-connection, verify stressors, and understand the 
nature and severity of a medical condition. RVSRs have a large number 
and variety of resources available to them to help gather this 
information, which they then compare to the regulations. However, even 
their best efforts often result in having to make evaluations based on 
incomplete medical and legal information.
    Inexperienced RVSRs usually take longer to rate a case than 
experienced raters. They are less comfortable making decisions without 
complete information, and comparing the medical information to the 
regulations is not an exact science. RVSRs become more comfortable with 
this ambiguity over time. They also become more familiar with the 
rating schedule, so they are able to use it with more ease and become 
more savvy in how to use the schedule. Comments from the focus group 
respondents indicate that over time, RVSRs develop individual ``rules'' 
for how to match the medical evidence to the rating schedule, many 
areas of which leave room for interpretation. This is likely one of the 
factors that allows them to process cases more quickly; they do not 
have to spend as much time deciding between evaluation levels. This is 
also a source of rating variance.
    VBA raters select the diagnostic code so the correctness of the 
rating decision depends on the level of knowledge and understanding 
each RVSR has about the medical descriptions in the rating schedule. 
The rating schedule contains over 700 diagnostic codes representing 
distinct physical and mental impairments that are grouped by body 
systems or like symptoms. Although 700 diagnostic codes sounds like a 
large number, compared to the several thousands of codes contained in 
the International Classification of Diseases, Ninth Revision, Clinical 
Modification (ICD-9-CM), used by the medical profession, it can be 
assumed that the rating schedule is less detailed, and thus provides 
less information to guide evaluations. Increased detail in the rating 
schedule would likely reduce the amount of individual interpretation 
that currently results in inconsistencies in rating decisions. It would 
also require extensive training to learn the revised schedule and 
additional job aids would need to be developed to improve use of the 
revised schedule.
    These factors make matching the medical evidence to the criteria 
provided in the rating schedule a challenge. But an additional 
challenge is that the rating schedule does not have diagnostic codes 
for certain specific conditions, such as carpal tunnel syndrome, 
Parkinson's disease, pacemakers, or pulmonary embolus. When a claim 
includes an unlisted condition, the RVSR rates it by analogy to a 
closely related disease or injury. By their nature, these ``analogous 
codes'' lack criteria for rating, so raters have to research different 
body systems to make the evaluation and exercise a wide range of 
judgments to assign analogous codes.
    A final opinion raised during the site visits was that many appeals 
were the result of rating decisions that did not include sufficient 
detail or explanation of why a claim was denied. As just described, 
much individual judgment is required in the rating process. This makes 
it even more important that all evidence be addressed in the rating 
decision. The reasons and bases section should include all subjective 
and objective evidence. It is important that veterans feel that their 
case has been clearly understood and evaluated. The letter should tell 
them what evidence was in their service records, what the VA medical 
examination provided (or why a VA examination was not ordered), and all 
medical evidence that was submitted (e.g., private medical records). 
The letter has to establish the nexus between the medical evidence and 
the regulations that determined the outcome, describing how service 
connection was established, the regulations that applied to each issue, 
and what evidence is needed to establish service-connection or to 
receive a higher level of evaluation.
Reducing Impediments
    The workload of RVSRs is not going to become lighter in the near 
future, so easing the workload and reducing ambiguity could go a long 
way toward improving ratings. We propose some suggestions to help 
reduce existing impediments.
    First, newly hired RVSRs should work Pre-Development for several 
weeks to learn the system, why different types of evidence are needed, 
and how to determine that a case is ready to be rated. This would have 
at least two benefits. The trainee RVSR would not spend time working a 
case that has insufficient evidence and the mentoring RVSR would not 
have to do as much explanation about the types and need for different 
types of evidence. The obvious drawback to this is that it would take 
longer for new RVSRs to begin rating cases, but we believe having this 
additional knowledge would pay off in the longer term.
    Second, the rating schedule is being updated, so it is probably not 
feasible to develop formal training for each new or revised diagnostic 
code. But it is important to address the problem caused by individual 
interpretation of diagnostic codes that are not detailed or specific 
results. A job aid that includes more specific information about the 
medical evidence would reduce the level of individual interpretation in 
ratings. In particular, a job aid that included specific codes and 
descriptions for disabilities that are relatively frequent and that 
currently fall under analogous codes, would do a great deal for 
improving accuracy in these ratings. It is much easier to identify the 
appropriate evaluation level when the criteria describe specific levels 
of disability (e.g., range of motion) rather than a more general 
description such as mild, moderate, and severe. This would allow the 
rater to match the code to the diagnosis provided in the medical 
evidence, again reducing errors and variance in the award level.
    One of the commonly cited reasons for appeals is that the reasons 
and bases section of the decision does not provide sufficient 
information or an easily understandable explanation that tells veterans 
why a claim was denied and what they must do to have the decision 
reconsidered. RVSRs use templates or scripts to outline the letter and 
ensure that required information for each section is included. Merely 
including all required information is not the same in terms of customer 
service or meeting the spirit of VCAA as is a well-written letter, and 
these templates cannot help with the complicated problem of presenting 
technical information in a manner that is well organized and that is 
easy for the veteran to understand. In this section of the letter, the 
RVSR describes the material evidence received and the level of evidence 
required to meet the legal standard as prescribed in the regulations. 
The ability to understand, organize and clearly present all this 
information is difficult to train. One remedy is to provide multiple 
examples of well-written letters that RVSRs can use to guide their own 
efforts. A more structured approach would be to take the ability to 
synthesize information and present it in a well-structured, easily 
comprehensible document into consideration when hiring or promoting 
RVSRs.
    A final overall recommendation to reduce variance in ratings is to 
ensure that all RVSRs receive standardized training, both in content 
and delivery. Some refresher training is delivered via online tools, 
broadcasts, or in net meetings, which do provide standardization. A 
good proportion of refresher training is determined by the local office 
and is most often provided by Decision Review Officers. It is important 
that they receive comprehensive training in the technical area being 
addressed, but also understand how to deliver training; a train-the-
trainer workshop that teaches basic training principles as well as how 
to work with adult learners should be required.
Summary
    It has been HumRRO's pleasure to work with C&P Service for the past 
7 years. We are honored to be even a small part of the valuable work 
the Veterans Benefits Administration does for America's veterans. We 
have watched both the Skills Certification program and C&P Services 
Training grow over this time. The resources and effort devoted to 
training have been reflected in steadily improving pass rates for the 
VSR Skills Certification test and in the very good pass rate for the 
RVSR end-of-training test.
    The greatest impediments to rating accuracy are the pressure to 
produce, the need for large amounts of medical knowledge and 
understanding, and ambiguity in interpreting the legal requirements. 
Being able to spend time in Pre-Development would increase a newly 
hired RVSR's understanding of the overall claims process as well as the 
variety and depth of development that is required to rate a case. Job 
aids can neither reduce the ever increasing number of claims nor reduce 
their complexity, but by providing increased detail they can make the 
rating schedule easier to interpret and provide standardization that is 
currently lacking. Writing and analytical ability were identified as 
key attributes of good RVSRs, but there is at present no systematic 
evaluation of these abilities when an individual is hired or promoted 
to the RVSR position. Finally, we provide a reminder of the importance 
of standardized training and delivery in ensuring that all rating 
specialists have a common understanding and method of working.

                                 <F-dash>
   Prepared Statement of Nicholas T. Bartzis, Cleveland, OH (Veteran)
    Good morning, my name is Nicholas T. Bartzis. I'm here today as a 
private citizen, concerned veteran, and employee of the Veterans 
Benefits Administration. I have served in the position of Rating 
Veterans Service Representative (RVSR) for approximately 8 years in the 
Cleveland VARO. My relevant past experience included being a training 
officer in the naval reserves. I possess a joint Law Degree and 
Master's Degree in Public Administration. As an employee, I am 
frustrated that I am forced to choose between (1) doing the right thing 
for the veteran's claim before me by ordering all of the needed 
intermediate work, or (2) meeting arbitrary production quotas imposed 
by my supervisors.
    First, I would like to thank each and every Member who voted for 
H.R. 5892. I believe that enactment of this bill into law could go far 
to correct many of the problems we now face. Thank you!
    Rapid and accurate VA compensation is critical to the quick and 
efficient transition of former servicemembers and spouses to civilian 
life. In my opinion, VA managers and adjudicators can do a better job 
adjudicating claims for VA disability benefits. In 2007, claims 
processing time increased to an average 183 days. It is my experience 
that most VA adjudicators endure a constant and mounting pressure to 
increase their processing of claims in spite of the fact that initial 
training and follow up training has not kept pace with the needs of VA 
adjudicators. In general, I and my coworkers do not feel that more 
decisions equal better individual decisions.
    The problems with the VA adjudication process identified by 
Congress, stakeholders and claimants seeking VA benefits are multi-
factored and not exclusively the fault of the Veterans Benefits 
Administration (VBA) management. However, the problems created by the 
adjudication climate fostered by the VBA are the primary problem. These 
VBA issues are correctable, and they should be addressed immediately.
    In my testimony I will focus on the following four topics:

    <bullet>  VBA training, both qualitative and quantitative issues.
    <bullet>  Performance management, and a culture that emphasizes 
quantity of claims processed at the expense of the quality of the 
decisions made.
    <bullet>  Accountability, who should be held accountable and why.
    <bullet>  Potential solutions, from the perspective of one 
responsible for ratings claims.
Training is Insufficient in Quantity and Quality
    I have been employed as an RVSR for 8 years. I was initially 
promised formal, centralized training. I have never completed this 
training because VA management stressed production and did not give 
raters, such as myself, the time to complete this training. At each 
juncture, case production requirements for the station trumped my 
individual training needs. I want to stress that one reason cases are 
not consistently decided by the over 50 VA regional offices (ROs) is 
that, as I understand it (based on discussions with employees from 
other ROs and published studies), training varies widely from RO to RO. 
Therefore, benefits may be awarded to some veterans but are denied to 
other veterans who are similarly situated.
    Nationwide, for the period of January 1, 2007 through September 5, 
2008, the Training and Performance Support System (``TPSS'') Basic 
Rating Completion Report lists 2115 RVSR employees. Only 124 have 
completed the TPSS portion of the training. This is a completion rate 
of 17 percent. TPSS training is geared toward newly hired employees and 
is seldom completed as assigned. Instead, what I see is that, depending 
on the production demands of the station, those employees are quickly 
placed in a production capacity. Meaning they are assigned to quickly 
complete work for the station instead of undertaking further training 
under penalty of removal should they insist on spending time training 
instead of processing claims. These new employees are charged with 
making a correct and timely decision on the claim before them without 
first completing the proper training.
    For example, VARO Cleveland has approximately 70 RVSRs. However, in 
the period January 1, 2007 through September 5, 2008, the TPSS Basic 
Ratings Completion Report listed 31 RVSRs scheduled to complete 
training. Of those 31 identified, none have completed the assigned 
training. This fact clearly shows a lack of commitment to training by 
local management.
    Poor initial training is only half of the problem. The job itself 
requires frequent and detailed updates and discussion about various 
changes in the law or court decisions. For example, the Veterans Claims 
Assistance Act of 2000 (VCAA) spawned numerous lawsuits and 
significantly changed the way VA operates. Also, upon issuance of a 
court decision or law change, VA must provide rapid instructions to its 
regional offices. Unfortunately, this is not the case. The U.S. Court 
of Appeals for Veterans Claims (CAVC) decision in Vazquez v. Peake, 05-
0355, was decided in January 2008, but the VA did not provide 
instructions to its regional offices respecting this decision until 
June 2008.
Performance Management is Primarily Geared Toward Quantity of Claims 
        Processed and not Quality of Benefits Decisions
    Performance management may be defined as: ``a system for relating 
the individual performance on the part of the employee, to the 
organizational objectives and performance of the agency.'' For VA 
employees, their performance is controlled by two primary documents. 
First, is the employee appraisal system, and second, is the employee's 
performance plan.
    The Performance Appraisal Program lists the general criteria for 
how all Title 5 employees will be evaluated. A subset of the 
Performance Appraisal Program is the individual's performance plan. The 
individual's performance plan describes the work expected from 
employees and measures that are expected of them. Presently for RVSRs, 
there are five stated performance measures: productivity, timeliness, 
customer service, quality of work, and organizational support. A 
supervisor assigns values to each of these five stated performance 
measures.
    With the exception of productivity, I have seldom seen numerical 
values assigned to any of the other measures for RVSRs. As such, 
neither the employee nor any person who reviews their accomplishments 
after the fact has an accurate description of how much work the 
employee really did. In general, RVSRs do not obtain work credit for 
work such as: deferring the rating for additional development by other 
VA employees, instructional time for the VSR, or sufficient time for 
reviewing a claims file and ordering a VA exam or reordering the VA 
exam if it is insufficient. This fact is noted in recommendation number 
two of the Institute for Defense Analysis study entitled Analysis of 
Differences in Disability Compensation in the Department of Veterans 
Affairs.
    Good, knowledgeable RVSRs are, in a sense, punished when they do 
work that is not credited by VA management. For example, an RVSR does 
not get meaningful work credit for analyzing all the evidence in a case 
and ordering a VA examination, or for reviewing the file and 
determining that the present VA exam is inadequate, or for reviewing 
the file and correctly asking a medical question. Careful review of a 
VA claims file takes time. If, however, employees are not rewarded for 
careful work and are instead rewarded for processing large volumes of 
claims poorly, then inevitably claims will be improperly adjudicated 
and veterans will suffer. For example, if some VA employees are behind 
in their production, they may go through the file quickly (called top 
sheeting) and hope that somehow the claim is rated correctly or any 
error isn't caught. Supervisors, who focus on production, have, in my 
experience, punished RVSRs who attempt to obtain additional needed 
development. This is one way in which quantity is emphasized to the 
detriment of quality.
    Recently our post determination team had a 68.4 percent FYTD 
production quantity failure rate for all journey level employees. This 
means that 68.4 percent of all the journey level--the most experienced 
employees in that team--have been unable to meet their cumulative 
production quotas for that year. When brought to their attention, local 
VA management was highly critical and dismissive of those who 
identified this issue. Of course, while an individual employee may be 
unfairly punished by management, the real loser is the veteran whose 
claim is not adjudicated properly.
    It is my understanding that VBA has not shared with representatives 
or employees their method for determining how long each discrete step 
for evaluating a claim should take.
    More importantly, they have failed to quantify and provide fair 
work credit for accomplishing critical intermediate work prior to a 
claim being decided. Therefore what is needed is an accurate work 
credit system, within the performance plan, that addresses each 
discrete type of work and allows the employee sufficient time to 
accomplish the work. Under the current system only one small portion of 
the work is measured, the final product, and that has not worked.
    Performance measures are intended to gauge the employee's 
contribution to the agency's mission. Instead, what I see is that the 
metrics as applied to the relevant VA employees do not adequately 
address the time it takes to really do the work properly.
Accountability
    I believe that Congress wants to know why and who is accountable 
for our present dilemma of disparate decisions between states and 
untimely decisions on claims nationwide. As I indicated above, the 
problem has several causes. Many parties shoulder the burden of our 
current dilemma. However, the primary burden for accountability for the 
disparate decisions and long waiting times lies squarely with VBA.
    Should VBA undertake and scientifically measure the discrete steps 
it really takes to decide a claim correctly and seriously address the 
problem with concerned stakeholders, much would be done to alleviate 
the current problem. Instead, what I see is that the science not being 
applied and the results shared. Without the science, the number of 
employees needed to do the work is only an approximate guess based on 
historical precedent. Without the science, how long it takes to 
actually complete a typical claim and all its discrete steps is an 
approximate guess.
    I believe that most of the problems stem from one issue and one 
issue only: Station performance goals that are not established based on 
the time it takes to do the work. Instead what I see is that station 
performance goals are set by the VA Central office using historical and 
suspect data. A station's Director and service center manager will 
sacrifice every activity that interferes with the employee deciding 
cases, including training, in order to make stations' monthly 
performance goals.
Potential Solutions
    I believe that Congress is well on the way to correcting many of 
the problems faced by veterans and the VBA employees who decide their 
claims. While the process takes time, unnecessary delays pose real 
hardships for veterans who are losing their houses or unable to feed 
themselves and their families while solutions are devised and adopted. 
With that in mind:

    1.  I strongly encourage the passage of H.R. 5892. This wide-
ranging bill is critical to addressing the root cause of the disparity 
in disability compensation. Specifically, the study on employee work 
credit and the agency work management system.
    2.  Increased oversight on VBA programs by Congress to insure 
compliance with the letter and spirit of programs by the VA managers 
assigned to accomplish the task.
    3.  Immediate implementation of a mandatory interim training 
program for all employees. Within the next 12 months, each employee 
must complete all identified but unaccomplished formal training per job 
category.
    4.  Voluntary increased training by VBA to interested stakeholders 
like County Veteran Service Officers and service organizations.

    Thank you for your invitation to testify. I am available to answer 
any questions of the Committee.

                                 <F-dash>
                 Prepared Statement of Michael Walcoff,
Deputy Under Secretary for Benefits, Veterans Benefits Administration, 
                  U.S. Department of Veterans Affairs
    Mr. Chairman and Members of the Committee:

    Thank you for the opportunity today to speak on the important topic 
of employee training within the Department of Veterans Affairs (VA), 
Veterans Benefits Administration (VBA). I am pleased to be accompanied 
by Ms. Dorothy Mackay, VBA's Director of Employee Development and 
Training, and Mr. Brad Mayes, VBA's Director of Compensation and 
Pension Service.
    Today, my testimony will focus on initial and on-going training for 
Compensation and Pension (C&P) employees. I also will describe employee 
performance standards, certification requirements, training oversight, 
and methods used to monitor and enhance the quality and consistency of 
claims decisions.
    It is critical that our employees receive the essential guidance, 
materials, and tools to enable them to learn and develop the knowledge, 
skills, and abilities required to be successful in their positions. To 
that end, VBA has deployed training tools and centralized training 
programs to provide a consistent approach to training.
New Employee Training
    VBA has developed and implemented a standardized training 
curriculum for new claims processing employees, referred to as the 
Challenge Training Program. In fiscal year 2006, VBA provided Challenge 
Training to 678 Veterans Service Representatives (VSRs) and Rating 
Veterans Service Representatives (RVSRs). That number more than doubled 
in fiscal year 2007 (VBA trained 1,447) and by the end of fiscal year 
2008, VBA will have trained more than 2,150 new C&P employees.
    In the Challenge Training Program, new hires receive consistent 
instruction over the course of 2 years. Employees spend 3 weeks in 
centralized training, generally at the Veterans Benefits Academy in 
Baltimore, Maryland. The Academy can accommodate up to 240 students at 
any one time. The centralized training brings together new hires from 
different regional offices and provides consistent training and 
networking opportunities. The shared learning experience enables 
employees with diverse backgrounds who work in different regional 
offices across the country to develop a shared sense of mission.
    Instruction at the Academy is provided by experienced VBA staff who 
are subject matter experts and, who have completed an instructor 
development course. At the end of each daily session, trainees are 
invited to complete an anonymous questionnaire to describe what value 
they gained from the lessons and to evaluate the instructional methods. 
This information is used to continually adjust and improve the quality 
of training sessions.
    When employees return to their home stations, they continue to 
learn through additional on-the-job training. When classroom 
instruction is used to develop knowledge on a particular topic, it is 
generally followed by work on cases involving that topic. As the new 
hires begin working on actual cases, they spend part of their day 
developing skills through interactive use of the computer-based 
Training and Performance Support System (TPSS). This system provides 
topic modules with a mixed media approach to learning that includes 
case studies and performance-based testing. It can be utilized by an 
individual or accessed by a group of individuals to promote discussion 
of a topic. Currently there are 11 TPSS modules for VSRs, and 13 TPSS 
modules for RVSRs.
    VBA is continually striving to enhance the quality of the Challenge 
Training Program. An independent contractor, hired to evaluate the 
program, surveyed 1,405 employees and 183 key personnel. We are 
assessing the results from that evaluation and will use the information 
to improve the Challenge Training Program.
Annual 80-Hour Training Requirement
    All VSRs and RVSRs are required to complete 80 hours of training 
each year, although new employees will complete more than this during 
their first year. Admiral Cooper, the former Under Secretary for 
Benefits, introduced this requirement. Its continuation is supported by 
Admiral Dunne, the current Acting Under Secretary for Benefits, and the 
rest of VBA leadership. The training has been mandated to ensure that 
claims processing personnel are provided with the most current C&P 
policies and procedures, as well as the latest decisions from the Court 
of Appeals for Veterans Claims and precedent-setting opinions from the 
VA General Counsel. This training also provides for refresher courses 
in complex claims issues that are not seen on a regular basis, such as 
special monthly compensation rating codes and benefits available for 
permanently and totally disabled veterans.
    Each regional office develops a general training plan for its 
employees at the beginning of the fiscal year. At least 60 of the 
required 80 training hours need to come from a list of core technical 
training topics identified by the C&P Service. For the remaining 20 
hours, regional offices are given flexibility to establish training 
topics based on local needs. This allows regional offices to focus on 
emerging issues or claims processing areas where errors have been 
noted. Regional offices are also given flexibility in choosing the 
instructional method used to deliver the total 80 hours of required 
training. These methods may include classroom training using approved 
lesson plans or use of the computer-based TPSS training modules. In 
addition, regional offices can take advantage of nationwide training 
programs offered on important and timely topics. Over the past year, 
this training included topics such as researching stressors in claims 
for PTSD, C&P medical examinations in claims for PTSD and traumatic 
brain injury, and attorney representation of veterans in appealed 
claims.
Employee Performance Standards and Accountability
    Another VBA organizational cornerstone initiative to improve the 
delivery of benefits and enhance accountability is our system of 
individual performance assessment. All VSRs and RVSRs are subject to 
national performance standards measuring the critical elements of 
quality, productivity, customer service, and workload management, as 
well as a non-critical element related to organizational support/
teamwork. Performance standards are commensurate with an employee's 
experience level in the position. These standards are reviewed 
periodically and amended as necessary in response to changes in 
workload and claims processing procedures. Managers use an automated 
tool, called ASPEN (Access Standardized Performance Elements 
nationwide), to track work items completed and to measure VSR and RVSR 
performance. Local accuracy reviews are conducted for all decision-
makers using the national quality criteria for the Systematic Technical 
Accuracy Review (STAR) program.
    Under VBA's performance appraisal program, employee performance is 
evaluated annually and linked to the employee's performance standards. 
An employee's level of achievement in each of the four critical 
elements and one non-critical element is evaluated by a supervisor as 
exceptional, fully successful, or less than fully successful. Based on 
evaluations in each of the five areas, a combined overall performance 
rating is given. The overall ratings include outstanding, excellent, 
fully successful, minimally successful, and unsatisfactory.
    In the event an employee's performance is not meeting the fully 
successful level of achievement for a critical element, an employee 
will be placed on a performance improvement plan (PIP). The PIP 
identifies the employee's specific performance deficiencies, the 
successful level of performance, the action(s) that must be taken by 
the employee to improve to the successful level of performance, the 
methods that will be employed to measure the improvement, and 
provisions for counseling, additional and focused individualized 
training, or other appropriate assistance. If the employee's 
performance does not rise to at least the fully successful level for 
his/her critical element(s), the employee will be removed from the 
position.
    In conjunction with the national performance standards, VBA has 
developed a certification process to assess job proficiency. After 
successfully demonstrating job proficiency through the certification 
process, an employee is promoted to the journey level, thereby linking 
job proficiency to pay grade.
    Since 2002, the full performance level for a VSR has been the GS-11 
level. Promotion to the GS-11 level is contingent upon successful 
completion of certification testing. Through successfully passing the 
certification test, VSRs demonstrate that they have the skills 
necessary to perform the full range of VSR duties, including the 
ability to work independently on the most complex cases and to review 
and approve the work of others. Through the national certification 
program, VBA is raising the skill levels of our core decision-makers 
and producing greater consistency in claims decisions.
Training Oversight
    Along with an expanded training agenda to accommodate the hiring 
initiative, VBA has enhanced its training oversight methods to improve 
accountability. Managers at all levels are held responsible for 
ensuring that training goals are set and training requirements are met. 
Each regional office is accountable for submitting a training plan at 
the beginning of the fiscal year and following through on the plan. The 
plan is based on an assessment of local needs and anticipates the 
content and timing of training to fulfill the annual training 
requirements for regional office employees. In addition, VBA recently 
created the staff position of Training Manager for each regional 
office. The Training Manager is responsible for local training reviews, 
as well as analyzing performance indicators to determine local training 
needs and implementing the training necessary to meet those needs.
    The Training Manager is also the lead administrator for the 
Learning Management System (LMS). LMS is a computerized learning system 
that was implemented in 2008 that is designed to present training 
sessions to individual employees and maintain a record of each 
completed session. Hyperlinks are available through LMS to access 
training course materials and curricula from the C&P Intranet training 
Web site, as well as from TPSS training modules. LMS tracks learning 
hours planned and completed, and is easily accessible by employees and 
management.
    On the national level, VBA has established an Employee Training and 
Learning Board to establish training priorities, promote 
accountability, and help ensure that training decisions are coordinated 
and consistent with long range policy plans. The Board is chaired by 
one of VBA's area Directors, and members include regional and central 
office Directors.
Quality and Consistency
    As part of the continued commitment to quality improvement, VBA is 
expanding its quality assurance program. As part of the expansion, the 
National Systematic Technical Accuracy Review (STAR) staff was 
consolidated to Nashville, TN, and ten additional staff members were 
hired.
    The quality assurance program expansion supports an increase in the 
annual case sample size for national accuracy reviews from 120 cases 
per regional office to 246 cases per regional office. This represents a 
more statistically sound sample size to measure regional office 
accuracy levels.
    In addition, the Quality Assurance Staff conducted several focused 
case reviews this year. These included a special quality review of 
radiation cases, an ongoing review of extraordinarily large benefit 
awards, and a special review of cases completed by the Appeals 
Management Center.
    The Quality Assurance Staff is also responsible for conducting on-
going quarterly data analysis to identify the most frequently rated 
disabilities or diagnostic codes; assessing the frequency of the 
assignment or denial of service-connection for each code by regional 
office; and assessing the most frequently assigned evaluation mode for 
each code by regional office. Focused audit-style case reviews are 
conducted at regional offices where rating results are found to be 
significantly outside the established national averages in order to 
identify causes of inconsistency. Through these regular reviews, VBA 
expects to gain more consistent decision-making across regional 
offices, as well as a better understanding of underlying causes for 
variation across geographic boundaries.
    These quality assurance programs are used to identify where 
additional guidance and training are needed to improve accuracy and 
consistency nationwide, as well as to drive VBA procedural and 
regulatory changes.
    Mr. Chairman, this concludes my testimony. I will be happy to 
respond to any questions that you or other Members of the Committee may 
have.
                   MATERIAL SUBMITTED FOR THE RECORD

                 U.S. Government Accountability Office
        Report to the Chairman, Committee on Veterans' Affairs,
                        House of Representatives
         VETERANS' BENEFITS: Increased Focus on Evaluation and
               Accountability Would Enhance Training and
              Performance Management for Claims Processors
                                May 2008
                         Report No. GAO-08-561
                             GAO Highlights

Why GAO Did This Study
    Faced with an increase in disability claims, the Veterans Benefits 
Administration (VBA) is hiring a large number of new claims processing 
staff. We were asked to determine: (1) What training is provided to new 
and experienced claims processors and how uniform is this training? (2) 
To what extent has VBA planned this training strategically, and how 
well is the training designed, implemented, and evaluated? and (3) To 
what extent is the performance management system for claims processors 
consistent with generally accepted practices? To answer the questions, 
GAO reviewed documents including VBA policies and training curricula; 
interviewed VBA central office officials; visited 4 of VBA's 57 
regional offices, which were selected to achieve diversity in 
geographic location, number of staff, and officewide accuracy in claims 
processing; and compared VBA's training and performance management to 
generally accepted practices identified by GAO.
What GAO Recommends
    GAO is recommending that VBA collect feedback on training provided 
by regional offices and use this feedback to further improve training, 
and hold staff accountable for meeting their training requirement. GAO 
also recommends that the VA assess and, if necessary, adjust its 
process for placing staff in overall performance categories. In its 
comments, VA agreed with GAO's conclusions and concurred with the 
recommendations.
What GAO Found
    VBA has a standardized training curriculum for new staff and a 
training requirement for all staff, but does not hold staff accountable 
for meeting this requirement. The curriculum for new staff includes 
what is referred to as centralized training and training at their home 
offices. All claims processors must complete 80 hours of training 
annually, which may cover a mix of topics identified centrally and by 
regional offices. Individual staff members face no consequences for 
failing to meet the training requirement, however, and VBA has not 
tracked training completion by individuals. It is implementing a new 
system that should provide this capacity.
    Although VBA has taken steps to plan its training strategically, 
the agency does not adequately evaluate training and may be falling 
short in training design and implementation. VBA has a training board 
that assesses its overall training needs. However, the agency does not 
consistently collect feedback on regional office training, and both new 
and experienced staff GAO interviewed raised issues with their 
training. Some new staff raised concerns about the consistency of 
training provided by different instructors and about the usefulness of 
an online learning tool. Some experienced staff believe that 80 hours 
of training annually is not necessary, some training was not relevant 
for them, and workload pressures impede training.
    The performance management system for claims processors generally 
conforms to GAO-identified key practices, but the formula for assigning 
overall ratings may prevent managers from fully acknowledging and 
rewarding staff for higher levels of performance. The system aligns 
individual and organizational performance measures and requires that 
staff be given feedback throughout the year. However, VBA officials 
raised concerns about the formula used to assign overall ratings. 
Almost all staff in the offices GAO visited were placed in only two of 
five overall rating categories, although managers said greater 
differentiation would more accurately reflect actual performance 
differences. The Department of Veterans Affairs (VA) has not examined 
the ratings distribution, but acknowledges a potential issue with its 
formula and is considering changes.
             Fiscal Year 2007 Appraisals for Four Offices 
                  Were Concentrated in Two Categories

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]


    Source: VBA regional offices.

                               __________

                              U.S. Government Accountability Office
                                                     Washington, DC
                                                       May 27, 2008
Hon. Bob Filner
Chairman
Committee on Veterans' Affairs
House of Representatives

Dear Mr. Chairman:

    The Veterans Benefits Administration (VBA) is facing an increased 
volume of claims for disability benefits related to the current 
conflicts in Afghanistan and Iraq as well as the aging of veterans from 
past conflicts. Between fiscal years 2000 and 2006, the number of 
disability-related claims filed annually with VBA increased by almost 
40 percent. As a result, VBA continues to experience challenges in 
processing veterans' disability claims. As of fiscal year 2007, VBA had 
approximately 392,000 disability claims pending benefit decisions, and 
the average time these claims were pending was 132 days. According to 
VBA, the current conflicts have also produced more claims related to 
post-traumatic stress disorder and traumatic brain injury, conditions 
few VBA staff have had much experience evaluating. To process the 
increased volume of claims, in fiscal year 2007 the agency began hiring 
a large number of new Veterans Service Representatives (VSR), who 
collect evidence related to veterans' claims, and Rating Veterans 
Service Representatives (RVSR), who evaluate claims and determine 
benefit eligibility. It plans to add 3,100 new claims-processing staff 
by the end of fiscal year 2008.
    Given the increased volume of claims, the increased focus on 
certain types of disabilities, and the large number of new hires, 
training and performance management systems for VSRs and RVSRs now play 
an especially critical role in enabling VBA to meet its organizational 
claims processing goals for accuracy and productivity. Training that is 
properly designed and implemented is vital both to help new staff learn 
their jobs and experienced staff to update their knowledge and learn 
about emerging issues. An effective performance management system would 
also help VBA manage its staff on a day-to-day basis to achieve its 
organizational goals. To provide Congress with information on the 
training and performance management of claims processors, we were asked 
to determine: (1) What training is provided to new and experienced 
claims processors and how uniform is this training? (2) To what extent 
has VBA developed a strategic approach to planning training for claims 
processors and how well is their training designed, implemented, and 
evaluated? And (3) To what extent is the performance management system 
for claims processors consistent with generally accepted performance 
management practices in the public sector?
    To address these objectives, we collected documents and data from 
VBA central office and interviewed central office staff. In addition, 
GAO experts on training reviewed VBA documents related to training 
curriculum, lesson plans, and course evaluations. We conducted site 
visits to 4 of VBA's 57 regional offices--Atlanta, Baltimore, 
Milwaukee, and Portland, Oregon. These offices were selected to achieve 
diversity in geographical location, number of staff, and officewide 
accuracy in claims processing. While we examined VBA-wide policies and 
requirements, we primarily assessed how the training and performance 
management systems are implemented at four sites. Therefore, our 
results may not be representative of how these systems are implemented 
across all regional offices. We assessed VBA's training and performance 
management practices by comparing them to certain generally accepted 
practices for Federal agencies in these areas that have been identified 
by GAO.\1\ We conducted this performance audit from September 2007 
through May 2008 in accordance with generally accepted Government 
auditing standards. Those standards require that we plan and perform 
the audit to obtain sufficient, appropriate evidence to provide a 
reasonable basis for our findings and conclusions based on our audit 
objectives. We believe that the evidence obtained provides a reasonable 
basis for our findings and conclusions based on our audit objectives. 
(See app. I for more detailed information on our objectives, scope, and 
methodology.)
---------------------------------------------------------------------------
    \1\ These practices are laid out primarily in two GAO reports: 
Human Capital: A Guide for Assessing Strategic Training and Development 
Efforts in the Federal Government, GAO-04-546G (Washington, DC: March 
2004) and Results Oriented Cultures: Creating a Clear Linkage between 
Individual Performance and Organizational Success, GAO-03-488 
(Washington, DC: Mar. 14, 2003).
---------------------------------------------------------------------------
Results in Brief
    VBA has a standard training curriculum for new claims processors 
and an 80-hour annual training requirement for all claims processors, 
but staff are not held accountable for meeting this requirement. VBA's 
three-stage training program for new staff is intended to deliver 
training in a consistent manner. First, VBA policy states that new 
staff are required to complete some orientation training, which is 
provided in their home offices. Second, they are required to attend a 
3-week standardized training session, referred to as centralized 
training, that provides a basic introduction to their job 
responsibilities. Third, new staff are required to spend several more 
months in training at their home offices, which is supposed to include 
on-the-job training, instructor-led training classes that follow a 
required curriculum, and use of an online learning tool called the 
Training and Performance Support System. VBA policy states that all 
claims processors are required to complete a minimum of 80 hours of 
training annually, and regional offices have some discretion over what 
training they provide to meet this requirement. At least 60 hours must 
be selected from a list of core topics identified by VBA central 
office. Regional offices may choose the topics for the remaining 20 
hours based on local needs, such as to prevent errors identified in 
processing claims. Each regional office develops an annual training 
plan listing the courses needed, and VBA central office periodically 
reviews these plans and provides feedback to regional offices. Although 
VBA has a training requirement for VSRs and RVSRs, it does not have a 
policy outlining consequences for individual staff who do not complete 
their required training. Further, VBA does not maintain data on the 
training completed by individuals, but agency officials said they are 
currently implementing a new, online learning management system that 
should enable them to do so in the future.
    VBA is taking steps to strategically plan its training, but does 
not adequately evaluate its training and may be falling short in some 
areas of training design and implementation. VBA appears to have 
followed several accepted practices in planning its training, including 
the establishment of a training board that assesses VBA's overall 
training needs and makes recommendations to the Undersecretary for 
Benefits. Also, VBA makes some effort to evaluate its centralized 
training for new staff, soliciting feedback from students with forms 
that are well-constructed and well-balanced. However, VBA does not 
require regional offices to collect feedback on any of the training 
they provide to new and experienced staff. In fact, claims processors 
we interviewed raised some issues with the training they received. For 
example, some new staff reported that different instructors in 
centralized training sessions sometimes taught different ways of 
performing the same procedure, and that one of VBA's online learning 
tools--the Training and Performance Support System--is too theoretical 
and often out-of-date. More experienced staff had mixed opinions as to 
whether 80 hours of training annually is appropriate for all staff. 
Also, many experienced staff indicated that training topics are 
redundant from year to year, and some told us that courses available to 
them are not always relevant for their position or experience level 
because they are often adapted from courses for new staff. Some staff 
said they struggle to meet the annual 80-hour training requirement 
because of workload pressures.
    The Department of Veterans Affairs' performance management system 
for VSRs and RVSRs generally conforms to accepted practices, including 
aligning individual and organizational performance measures, but the 
system may not clearly differentiate among staff's overall performance 
levels. Several elements of VSRs' and RVSRs' performance are evaluated, 
and these elements are generally aligned with VBA's organizational 
performance measures. For example, VSRs and RVSRs are evaluated on 
their accuracy in claims processing, and one of VBA's organizational 
performance measures is accuracy in claims processing. VBA's 
performance management system is also consistent with other accepted 
practices, such as providing performance feedback throughout the year 
and emphasizing collaboration. However, the system may not clearly and 
accurately differentiate among the overall performance levels of VSRs 
and RVSRs. A VA-wide formula is used to translate an employee's ratings 
on all individual elements into one of five overall rating categories. 
Several VBA central and regional office managers raised concerns with 
this formula, saying that it is difficult for staff to be placed in 
certain overall performance categories, even if staff's performance 
truly does fall within one of those categories. In fact, when we 
reviewed the results of VSR and RVSR appraisals at the regional offices 
we visited, almost all staff were placed in either the outstanding 
(highest) or fully successful (middle) categories. To the extent that 
the performance appraisals do not make meaningful distinctions in 
performance, staff may lack the constructive feedback they need to 
improve, and managers may lack the information they need to reward top 
performers and address performance issues. Although VA acknowledged 
this issue and indicated that it is considering changes to the system, 
no formal actions have been taken to date.
    We are recommending that VBA central office collect feedback on 
training provided by the regional offices, to determine whether (1) 80 
hours is the appropriate amount of annual training for all staff, (2) 
regional offices are providing training that is relevant for all staff, 
and (3) whether any changes are needed to improve the Training and 
Performance Support System. We are also recommending that VBA central 
office hold individual staff accountable for meeting their training 
requirement and that VA assess and, if necessary, adjust its 
performance rating system for staff to make it a more meaningful 
management tool. In its comments, VA agreed with our conclusions and 
concurred with our recommendations.
Background
    In fiscal year 2007, the Department of Veterans Affairs (VA) paid 
about $37\1/2\ billion in disability compensation and pension benefits 
to more than 3.6 million veterans and their families. Through its 
disability compensation program, the VBA pays monthly benefits to 
veterans with service-connected disabilities (injuries or diseases 
incurred or aggravated while on active military duty). Monthly benefit 
amounts vary according to the severity of the disability. Through its 
pension benefit program, VBA pays monthly benefits to wartime veterans 
with low incomes who are either elderly or permanently and totally 
disabled for reasons not service-connected. In addition, VBA pays 
dependency and indemnity compensation to some deceased veterans' 
spouses, children, and parents and to survivors of servicemembers who 
died while on active duty.
    When a veteran submits a benefits claim to any of VBA's 57 regional 
offices, a Veterans Service Representative (VSR) is responsible for 
obtaining the relevant evidence to evaluate the claim. For disability 
compensation benefits, such evidence includes veterans' military 
service records, medical examinations, and treatment records from VA 
medical facilities and private providers. Once a claim is developed 
(i.e., has all the necessary evidence), a Rating Veterans Service 
Representative (RVSR) evaluates the claim, determines whether the 
claimant is eligible for benefits, and assigns a disability rating 
based on degree of impairment. The rating determines the amount of 
benefits the veteran will receive. For the pension program, claims 
processing staff review the veteran's military, financial, and other 
records to determine eligibility. Eligible veterans receive monthly 
pension benefit payments based on the difference between their 
countable income, as determined by VA, and the maximum pension amounts 
as updated annually by statute.\2\ In fiscal year 2007, VBA employed 
over 4,100 VSRs and about 1,800 RVSRs to administer the disability 
compensation and pension programs' caseload of almost 3.8 million 
claims.
---------------------------------------------------------------------------
    \2\ 38 U.S.C. Sec. 5312(a).
---------------------------------------------------------------------------
    In 2001 the VA Claims Processing Task Force noted that VSRs were 
responsible for understanding almost 11,000 separate benefit delivery 
tasks, such as tasks in claims establishment, claims development, 
public contacts, and appeals. To improve VBA's workload controls, 
accuracy rates, and timeliness, the Task Force recommended that VA 
divide these tasks among a number of claims processing teams with 
defined functions. To that end, in fiscal year 2002, VBA developed the 
Claims Processing Improvement model that created six claims processing 
teams, based on phases of the claims process. (See table 1.)

              Table 1--VBA's Disability Compensation and Pension Service's Claims Processing Teams
----------------------------------------------------------------------------------------------------------------
                 Team                                      Summary of claims processing duties
----------------------------------------------------------------------------------------------------------------
Triage Team                             Establishes the regional office's tracking procedures for all mail as
                                         well as processes claims that only require a brief review to determine
                                         eligibility.
----------------------------------------------------------------------------------------------------------------
Pre-Determination Team                  Develops evidence for disability ratings and prepares administrative
                                         decisions.
----------------------------------------------------------------------------------------------------------------
Rating Team                             Makes decisions on claims that require consideration of medical
                                         evidence.
----------------------------------------------------------------------------------------------------------------
Post-Determination Team                 Develops evidence for non-rating issues, processes benefit awards, and
                                         notifies veterans of rating decisions.
----------------------------------------------------------------------------------------------------------------
Public Contact Team                     Conducts personal interviews and handles telephone inquiries, including
                                         calls from veterans.
----------------------------------------------------------------------------------------------------------------
Appeals Team                            Handles requests for reconsideration of claims where veterans have
                                         formally disagreed with claim decisions.
----------------------------------------------------------------------------------------------------------------
Source: VBA.

Note: The Rating Team is made up of RVSRs, the Post-Determination and Public Contact teams are made up of VSRs,
  and the Pre-Determination, Triage, and Appeals teams are made up of both RVSRs and VSRs.


    According to one VA official, new claims processing staff generally 
begin as VSRs and typically have a probationary period of about 1 
year.\3\ After their probationary period ends, staff can either 
continue to qualify to become senior VSRs or apply for RVSR 
positions.\4\ VSRs are also given the option to rotate to other VSR 
claim teams to gain a broader understanding of the claims process.
---------------------------------------------------------------------------
    \3\ While new claims processors are on probation, 100 percent of 
the claims work they perform is quality reviewed by a supervisor. After 
their probationary period, only a small sample of their claims are 
quality reviewed.
    \4\ Typically, RVSRs are promoted VSRs, although in some instances, 
VA hires RVSRs from outside of VA who have medical or legal experience.
---------------------------------------------------------------------------
VBA Has a Uniform Training Curriculum for New Claims Processors and an 
        Annual Training Requirement for All Claims Processors, but 
        Staff Are Not Held Accountable for Meeting This Requirement
    VBA has established a standardized curriculum for training new VSRs 
and RVSRs on how to process claims, and it has an 80-hour annual 
training requirement for both new and experienced staff; however, it 
does not hold individual staff accountable for meeting this 
requirement. VBA has designed a uniform curriculum for training new 
VSRs and RVSRs that is implemented in three phases--initial orientation 
training, a 3-week training session referred to as centralized 
training, and comprehensive on-the-job and classroom training after 
centralizing training. It also requires all staff to meet an annual 80-
hour training requirement. To ensure that staff meet this requirement, 
each regional office must develop an annual training plan, which can 
contain a mix of training topics identified by VBA central office and 
by the regional office. However, individual staff members are not held 
accountable for meeting their training requirement.
Training for New Staff Is Conducted in Three Stages Using a Uniform 
        Curriculum
    VBA has a highly structured, three-phased program for all new 
claims processors designed to deliver standardized training, regardless 
of training location or individual instructors. (See fig. 1.) For 
example, each topic included in this training program contains a 
detailed lesson plan with review exercises, student handouts, and 
copies of slides used during the instructor's presentation. Each phase 
in this program is designed to both introduce new material and 
reinforce material from the previous phase, according to a VBA 
official.
          Figure 1--Phases of Training for New VSRs and RVSRs

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]


    Source: GAO analysis.

    According to VBA policy, the first phase of training for new VSRs 
and RVSRs is prerequisite training. New VSRs and RVSRs begin 
prerequisite training at their home regional office as soon as they 
begin working. Prerequisite training lays the foundation for future 
training by introducing new VSRs to topics such as the software 
applications used to process and track claims, medical terminology, the 
system for maintaining and filing a case folder, and the process for 
requesting medical records. Although VBA specifies the topics that must 
be covered during prerequisite training, regional offices can choose 
the format for the training and the timeframe. New VSRs and RVSRs 
typically spend 2 to 3 weeks completing prerequisite training in their 
home office before they begin the second program phase, centralized 
training.
    During what is referred to as centralized training, new VSRs and 
RVSRs spend 3 weeks in intensive classroom training. Participants from 
multiple regional offices are typically brought together in centralized 
training sessions, which may occur at their home regional office, 
another regional office, or the Veterans Benefits Academy in Baltimore, 
Maryland. According to VBA officials in three of the four offices we 
visited, bringing together VSRs and RVSRs from different regional 
offices helps to promote networking opportunities, while VBA officials 
from two of these offices also stated that it provides a nationwide 
perspective on VBA. Centralized training provides an overview of the 
technical aspects of the VSR and RVSR positions. Training instructors 
should follow the prescribed schedule and curriculum dictating when and 
how material is taught. For example, for a particular topic, the 
instructor's guide explains the length of the lesson, the instructional 
method, and the materials required; lays out the information that must 
be covered; and provides exercises to review the material. (See fig. 2 
for a sample of an instructor's guide from the centralized training 
curriculum.) Centralized training classes have at least three 
instructors, but the actual number can vary depending on the size of 
the group. VBA's goal is to maintain a minimum ratio of instructors to 
students.
          Figure 2--Phases of Training for New VSRs and RVSRs

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]


    Source: VBA.

    The first week of centralized training for VSRs focuses on key 
concepts, such as security, privacy and records management; 
terminology; and job tools, such as the policy manual and software 
applications. The final 2 weeks of training focus on the different 
roles and responsibilities of VSRs on the Pre-determination and Post-
determination teams in processing claims. To practice processing 
different types of claims and processing claims from start to finish, 
VSRs work on either real claims or hypothetical claims specifically 
designed for training. Centralized training for new RVSRs--many of whom 
have been promoted from the VSR position--focuses on topics such as 
systems of the human body, how to review medical records, and how to 
interpret a medical exam. According to staff in one site we visited, 
RVSRs new to VBA also take VSR centralized training or its equivalent 
to learn the overall procedures for processing claims.
    To accommodate the influx of new staff it must train, in fiscal 
year 2007 VBA substantially increased the frequency of centralized 
training and is increasing student capacity at the Veterans Benefits 
Academy. During fiscal year 2007, VBA held 67 centralized training 
sessions for 1,458 new VSRs and RVSRs. Centralized training sessions 
were conducted at 26 different regional offices during fiscal year 
2007, in addition to the Veterans Benefits Academy. By comparison, 
during fiscal year 2006, VBA held 27 centralized training sessions for 
678 new claims processors.
    To implement centralized training, VBA relies on qualified regional 
office staff who have received training on how to be an instructor. 
According to VBA officials, centralized training instructors may be 
Senior VSRs, RVSRs, supervisors, or other staff identified by regional 
office managers as having the capability and the right personality to 
be effective instructors. Potential instructors have certain training 
requirements. First, they must complete the week-long Instructor 
Development Course, which covers the ways different adults learn, the 
process for developing lesson plans, and the use of different training 
methods and media. During this course, participants are videotaped and 
given feedback on their presentation style. In addition, each time 
instructors teach a centralized training session, they are supposed to 
take the 2\1/2\ day Challenge Curriculum Course, designed to update 
instructors on changes to the curriculum and general training issues. 
Between October 2006 and February 2008, about 250 VSRs and RVSRs from 
regional offices completed the Instructor Development Course, and VBA 
officials reported that, given the influx of new VSRs and RVSRs, they 
are increasing the number of times this course is offered in order to 
train more instructors. Instructors can teach centralized training 
sessions in their home office, another regional office, or the Veterans 
Benefits Academy.\5\
---------------------------------------------------------------------------
    \5\ Staff who teach classes other than centralized training are not 
required to take the week-long Instructor Development Course, although 
they may do so if openings exist. They can also take an 8-hour 
condensed course for regional instructors.
---------------------------------------------------------------------------
    When new VSRs and RVSRs return to their home office after 
centralized training, they are required to begin their third phase of 
training, which is supposed to include on-the-job, classroom, and 
computer-based training, all conducted by and at their regional office. 
In the regional offices we visited, managers indicated that new VSRs 
and RVSRs typically take about 6 to 12 months after they return from 
centralized training to complete all the training requirements for new 
staff. During this final phase, new claims processing staff cover more 
advanced topics, building on what they learned in centralized training. 
Under the supervision of experienced claims processors, they work on 
increasingly complex types of real claims. On-the-job training is 
supplemented in the offices we visited by regular classroom training 
that follows a required curriculum of courses developed by VBA's 
Compensation and Pension Service, specifically for new VSRs and RVSRs. 
For example, new VSRs might complete a class in processing burial 
claims and then spend time actually processing such claims. The amount 
of time spent working on each type of claim varies from a couple of 
days to a few weeks, depending on the complexity of the claim. On-the-
job training is also supposed to be supplemented with modules from the 
Training and Performance Support System (TPSS), an interactive online 
system that can be used by staff individually or in a group.\6\ TPSS 
modules provide detailed lessons, practice cases, and tests for VSRs 
and RVSRs. Modules for new VSRs cover topics such as burial benefits 
and medical terminology; RVSR modules cover topics such as the 
musculoskeletal system, general medical terminology, and introduction 
to post-traumatic stress disorder.
---------------------------------------------------------------------------
    \6\ In 2001, we reported that VBA had spent or obligated about 
$18.6 million of the estimated total TPSS program cost of $32 million. 
See GAO, Veterans' Benefits: Training for Claims Processors Needs 
Evaluation, GAO-01-601 (Washington, DC: May 31, 2001).
---------------------------------------------------------------------------
New and Experienced Staff Have an Annual Training Requirement, and 
        Regional Offices Develop Training Plans That Cover a Mix of 
        Topics Identified Centrally and Locally
    A policy established by VBA's Compensation and Pension Service 
requires both new and experienced VSRs and RVSRs to complete a minimum 
of 80 hours of technical training annually, double the number VBA 
requires of its employees in other technical positions.\7\ VBA 
officials said this higher training requirement for VSRs and RVSRs is 
justified because their jobs are particularly complex and they must 
work with constantly changing policies and procedures.
---------------------------------------------------------------------------
    \7\ VBA defines an experienced VSR or RVSR as one who has been in 
that position for 1 year or more.
---------------------------------------------------------------------------
    The 80-hour training requirement has two parts. At least 60 hours 
must come from a list of core technical training topics identified by 
the central office of the Compensation and Pension Service. For 
example, core topics for VSRs in fiscal year 2007 included establishing 
veteran status and asbestos claims development; topics for RVSRs 
included due process provisions and eye-vision issues. VBA specifies 
more core topics than are necessary to meet the 60-hour requirement, so 
regional offices can choose those topics most relevant to their needs. 
They can also choose the training method used to address each topic, 
such as classroom or TPSS training. (See app. II for the list of core 
technical training topics for fiscal year 2007.) Regional offices 
determine the training topics that are used to meet the remaining 20 
hours, based on local needs and input. Regional offices may select 
topics from the list of core technical training topics or identify 
other topics on their own.
    The four regional offices we visited varied in the extent to which 
they utilized their discretion to choose topics outside the core 
technical training topics in fiscal year 2007. Two sites selected the 
required 60 hours of training from the core requirements and identified 
their own topics for the remaining 20 hours. In the other two sites, 
almost all the training provided to staff in fiscal year 2007 was based 
on topics from the list of core requirements. An official in one 
regional office, for example, said that his office used its full 20 
hours to provide training on new and emerging issues that are not 
covered by the core technical training topics, as well as training to 
address error prone areas. An official in another regional office said 
the core requirements satisfied staff training needs in fiscal year 
2007, possibly because this regional office had a large proportion of 
new staff and the core topics are focused on the needs of new staff.
    Regional offices must develop training plans each year that 
indicate which courses will actually be provided to staff to enable 
them to meet the 80-hour training requirement. The training plan is a 
list of courses that the regional office plans to offer throughout the 
year, as well as the expected length and number and types of 
participants in each course. In the regional offices we visited, when 
managers develop their training plans, they solicit input from 
supervisors of VSRs and RVSRs and typically also consider national or 
local error trend data. Regional offices must submit their plans to the 
VBA central office at the beginning of each fiscal year for review and 
feedback. Central office officials review the plans to determine 
whether (1) the regional office will deliver at least 60 hours of 
training on the required core topics, (2) the additional topics 
identified by the regional office are appropriate, and (3) staff in 
similar positions within an office receive the same level and type of 
training. According to central office officials, they provide feedback 
to the regional offices on their current plans as well as guidance on 
what topics to include in the next year's training plans. Regional 
offices can adjust their training plans throughout the year to address 
shifting priorities and unexpected training needs. For example, a 
regional office may add or remove courses from the plan in response to 
changing trends in errors or policy changes resulting from legal 
decisions. (See app. III for excerpts from the fiscal year 2007 
training plans from the regional offices we visited.)
    While regional offices have discretion over the methods they use to 
provide training, the four offices we visited relied primarily on 
classroom training in fiscal year 2007. In each of these offices, at 
least 80 percent of the total fiscal year 2007 training hours completed 
by all claims processors was in the form of classroom instruction (see 
fig. 3). Officials in two of the regional offices we visited said they 
used lesson plans provided by the Compensation and Pension Service and 
adapted these plans to the needs of their staff; one regional office 
developed its own courses. An official in one office said they 
sometimes invite guest speakers, and an official in another regional 
office said that classroom training is sometimes delivered as part of 
team meetings. The offices we visited generally made little use of 
other training methods. Only one office used TPSS for its training more 
than 1 percent of the time. Two offices used self-instruction--such as 
reading memos from VBA central office--for about 10 percent of their 
training, and no office used videos for more than 1 percent of their 
training. The central office usually communicates immediate policy and 
regulatory changes through memos called Fast Letters, which may be 
discussed in team meetings or may just be read by staff individually.
      Figure 3--Most Fiscal Year 2007 Training Hours Completed by 
        Claims Processors in the Offices We Visited Were in the
                     Form of Classroom Instruction

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

Staff Are Not Held Accountable for Meeting Their Training Requirement
    Because the agency has no policy outlining consequences for 
individual staff who do not complete their 80 hours of training per 
year, individual staff are not held accountable for meeting their 
annual training requirement, and at present, VBA central office lacks 
the ability to track training completed by individual staff members. 
According to VBA officials, however, the agency is in the process of 
implementing an automated system that should allow it to track the 
training each staff member completes. Officials reported that this 
system is expected to be implemented during fiscal year 2008. VBA 
officials reported that this system will be able to record the number 
of training hours and the courses completed for each individual, staff 
position, and regional office. One official said the central office and 
regional office supervisors will have the ability to monitor training 
completed by individual staff members, but that central office will 
likely not monitor the training completed by each individual staff 
member, even though it may monitor the training records for a sample of 
staff members. Furthermore, despite the absence of a VBA-wide tracking 
system, managers in two of the regional offices we visited reported 
using locally developed tracking methods to determine the number of 
training hours their staff had completed.
    While individuals are not held accountable, VBA reported taking 
some steps to ensure that staff complete the required number of 
training hours. VBA central office periodically reviews the aggregated 
number of training hours completed at each regional office to determine 
whether the office is on track to meet the training requirement.\8\ 
According to a VBA official, managers in offices where the staff is not 
on track to complete 80 hours of training during the year can be 
reprimanded by a higher-level manager, and if their staff do not meet 
the aggregate training hours at the end of the fiscal year, managers 
could face negative consequences in their performance assessments.
---------------------------------------------------------------------------
    \8\ To determine if VSRs and RVSRs in a regional office are 
generally meeting their annual training requirement, the aggregate 
number of training hours completed in a given year by all staff in that 
office is divided by the number of staff in that office.
---------------------------------------------------------------------------
VBA Is Taking Steps To Strategically Plan Its Training for Staff, But 
        Does Not Adequately Evaluate Training and May Be Falling Short 
        in Design and Implementation
    VBA is taking steps to strategically plan its training for VSRs and 
RVSRs including the establishment of a training board to assess VBA's 
training needs. VBA has also made some effort to evaluate its training 
for new staff, but does not require regional offices to collect 
feedback from staff on any of the training they provide. Although some 
regional offices collect some training feedback, it is not shared with 
VBA central office. Both new and experienced staff we interviewed did, 
in fact, report some problems with their training. A number of new 
staff raised issues with how consistently their training curriculum was 
implemented. Experienced staff differed in their assessments of the 
VBA's annual training requirement, with some indicating they struggle 
to meet this requirement because of workload pressures or that training 
topics are sometimes redundant or not relevant to their position.
VBA Is Taking Steps To Strategically Plan Its Training
    VBA is taking steps to strategically plan its training for claims 
processors, in accordance with generally accepted practices identified 
by GAO. (See app. I for a detailed description of these generally 
accepted practices.)
Aligning Training with the Agency's Mission and Goals
    VBA has made an effort to align training with the agency's mission 
and goals. According to VBA documents, in fiscal year 2004 an Employee 
Training and Learning Board (board) was established to ensure that 
training decisions within the VBA are coordinated; support the agency's 
strategic and business plans, goals and objectives; and are in 
accordance with the policy and vision of VBA.\9\ Some of the board's 
responsibilities include establishing training priorities and reviewing 
regional office and annual training plans.
---------------------------------------------------------------------------
    \9\ According to VBA officials, the board is made up of a mix of 
regional office and central office staff from different VBA business 
lines including Employee Development and Training, Human Resources, the 
Compensation and Pension Service, and the Insurance Service.
---------------------------------------------------------------------------
Identifying the Skills and Competencies Needed by the Workforce
    VBA has identified the skills and competencies needed by VBA's 
claims processing workforce. VBA developed a decision tree and task 
analysis of the claims process, which GAO experts in the field of 
training told us made it possible to understand and map both the claims 
process and the decisions associated with it that supported the 
development of VBA's training curriculum.
Determining the Appropriate Level of Investment in Training and 
        Prioritizing Funding
    VBA is taking steps to determine the appropriate level of 
investment in training and prioritize funding. According to VBA 
documents, some of the board's responsibilities include developing 
annual training budget recommendations and identifying and recommending 
training initiatives to the Under Secretary of Benefits. VBA officials 
also reported developing several documents that made a business case 
for different aspects of VBA's training, such as VA's annual budget and 
the task analysis of the VSR and RVSR job positions.
Considering Government Reforms and Initiatives
    According to one VBA official, the agency identifies regulatory, 
statutory, and administrative changes as well as any legal or judicial 
decisions that affect how VBA does business and issues guidance 
letters, or Fast Letters, which can be sent out several times a year, 
to notify regional offices of these changes. Also, as a result of 
Congress authorizing an increase in its number of full-time employees 
and VBA's succession planning efforts, VBA has increased the number of 
centralized training sessions for new staff and has also increased the 
number of Instructor Development Courses offered to potential 
centralized training instructors. As a result, VBA is taking steps to 
consider Government reforms and initiatives to improve its management 
and performance when planning its training.
VBA Collects Feedback on Centralized Training, but Regional Offices Do 
        Not Always Collect Feedback on the Training They Provide
    According to accepted practices, Federal agencies should also 
evaluate their training programs and demonstrate how these efforts help 
employees, rather than just focusing on activities or processes (such 
as number of training participants or hours of training). VBA has made 
some efforts to evaluate its training for claims processors. During the 
3-week centralized training session for new staff, VBA solicits daily 
feedback from participants using forms that experts in the training 
field consider well-constructed and well-balanced. According to one GAO 
expert, the forms generally employ the correct principles to determine 
the effectiveness of the training and ascertain whether the instructor 
effectively presented the material (see fig. 4). VBA officials told us 
that they have used this feedback to improve centralized training for 
new staff. Management at one regional office cited the decision to 
separate training curricula for VSRs on Pre-determination teams and 
VSRs on Post-determination teams as an example of a change based on 
this feedback.
     Figure 4--Sample of VBA's Centralized Training Evaluation Form

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]


    Although VBA evaluates centralized training, it does not require 
regional offices to obtain feedback from participants on any of the 
training they provide to new and experienced staff. In a previous GAO 
report, VA staff told us that new training materials they develop are 
evaluated before being implemented.\10\ However, none of the regional 
offices we visited consistently collect feedback on the training they 
conduct. Supervisors from three of the regional offices we visited told 
us that they collect feedback on some of the training their office 
conducts, but this feedback largely concerns the performance of the 
instructor. Participants are generally not asked for feedback on course 
content. Moreover, regional offices we visited that do, to some degree, 
collect feedback do not share this information with VBA.
---------------------------------------------------------------------------
    \10\ GAO, Veterans' Benefits: Improved Management Would Enhance 
VA's Pension Program, GAO-08-112 (Washington, DC: Feb. 14, 2008).
---------------------------------------------------------------------------
VBA's Training Curriculum for New Staff Appears Generally Well 
        Designed, but Some Staff Raised Issues Concerning Its 
        Implementation
    According to GAO experts in the training field, VBA's training 
curriculum for new staff appears well designed. VBA's curriculum for 
new staff conforms to adult learning principles, carefully defining all 
pertinent terms and concepts, and providing abundant and realistic 
examples of claims work. GAO experts also determined that VBA's 
training for those who teach the curriculum for new staff was well 
designed and would enable experienced claims processors to become 
competent trainers because they are coached on teaching theory and have 
multiple opportunities to practice their teaching skills and receive 
feedback.
    Many of the new staff at all four sites we visited reported that 
centralized training provided them with a good foundation of knowledge 
and prepared them for additional training conducted by their regional 
office. Also, regional office managers from three offices we visited 
told us that centralized training affords new staff the opportunity to 
network with other new staff at different regional offices, which 
imbues a sense of how their positions fit in the organization. However, 
some staff reported that VBA's implementation of their centralized 
training was not always consistent. A number of staff at three regional 
offices reported that during their centralized training the instructors 
sometimes taught different ways of performing the same procedures or 
disagreed on claim procedures. Regional office officials told us that 
while centralized training instructors attempt to teach consistently 
through the use of standardized training materials, certain procedures 
can be done differently in different regional offices while adhering to 
VBA policy. For example, regional offices may differ on what to include 
in veteran notification letters. VBA officials also told us that 
centralized training conducted at the regional offices may not be as 
consistent as centralized training conducted at the Veterans Benefits 
Academy. According to these officials, unlike the regional offices, the 
Veterans Benefits Academy has on-site training experts to guide and 
ensure that instructors are teaching the curriculum consistently.
    New staff also gave mixed assessments about how training was 
conducted at their home office after they returned from centralized 
training. While some staff at all of the regional offices we visited 
told us that the additional training better prepared them to perform 
their jobs, with on-the-job training identified as a useful learning 
tool, others told us that the training could not always be completed in 
a timely manner due to regional office priorities. Some management and 
staff at two of the regional offices we visited reported that, because 
of workload pressures, some of their RVSRs had to interrupt their 
training to perform VSR duties. Also, a few new staff indicated that 
VBA's TPSS was somewhat difficult to use.\11\ Although TPSS was 
developed to provide consistent technical training designed to improve 
the accuracy of claims ratings, a number of staff at all of the 
regional offices we visited reported that TPSS was too theoretical. For 
example, some staff said it provided too much information and no 
practical exercises in applying the knowledge. Some staff also noted 
that certain material in TPSS was out-of-date with policy changes such 
as how to order medical examinations. Some staff at three of the 
regional offices also reported that TPSS was not always useful in 
training staff, in part, because TPSS does not use real cases. Three of 
the regional offices reported using TPSS for less than 1 percent of 
their training and VSRs at one regional office were unaware of what 
TPSS was.
---------------------------------------------------------------------------
    \11\ In 2001, GAO reported that VBA's TPSS may not fully achieve 
its objectives of providing standardized training to new employees, 
reducing the training period required for new employees, or improving 
claims-processing accuracy and consistency. In the report, we 
recommended actions the agency should consider in providing timely 
standardized training and providing indicators of the impact of TPSS on 
accuracy and consistency. In its technical comments on this report, VA 
indicated it accomplished the first recommendation. See GAO-01-601.
---------------------------------------------------------------------------
Experienced Staff Expressed Mixed Views of the Design and 
        Implementation of Their Training
    At all of the regional offices we visited, staff we spoke with 
generally noted that training enables them to keep up-to-date on 
changes in laws and regulations as well as provides opportunities for 
obtaining refresher training on claims procedures they perform 
infrequently. However, regional office staff we spoke with differed in 
their assessment of the 80-hour requirement. Some regional office staff 
said the number of training hours required was appropriate, while 
others suggested that VBA adopt a graduated approach, with the most 
experienced staff being required to complete fewer hours than new 
staff. VBA officials told us that, in 2007, the Compensation and 
Pension Service reviewed their annual training requirements and 
determined the 80-hour annual training requirement was appropriate. 
However, the officials we spoke with could not identify the criteria 
that were used to make these determinations. Furthermore, VBA 
management does not systematically collect feedback from staff 
evaluating the usefulness of the training they must receive to meet 
this requirement. Consequently, when determining the appropriateness of 
the 80-hour requirement, VBA has not taken into account the views of 
staff to gauge the effect the requirement has on them.
    Experienced staff had mixed views on training provided by the 
regional office. Staff at three regional offices said the core 
technical training topics set by the Compensation and Pension Service 
are really designed for newer staff and do not change much from year to 
year, and therefore experienced staff end up repeating courses. Also, a 
number of staff at all of the regional offices we visited told us some 
regional office training was not relevant for those with more 
experience. Conversely, other regional office staff note that although 
training topics may be the same from year to year, a person can learn 
something new each time the course is covered. Some VBA officials and 
regional office managers also noted that some repetition of courses is 
good for several reasons. Staff may not see a particular issue very 
often in their day-to-day work and can benefit from refreshers. Also, 
regional office managers at one office told us that the core technical 
training topics could be modified to reflect changes in policy so that 
courses are less repetitive for experienced staff.
    Many experienced staff also reported having difficulty meeting the 
80-hour annual training requirement due to workload pressures. Many of 
the experienced staff we spoke with, at each of the regional offices we 
visited, told us that there is a constant struggle between office 
production goals and training goals. For example, office production 
goals can affect the availability of the regional office's instructors. 
A number of staff from one regional office noted that instructors were 
unable to spend time teaching because of their heavy workloads and 
because instructors' training preparation hours do not count toward the 
80-hour training requirement. Staff at another regional office told us 
that, due to workload pressures, staff may rush through training and 
may not get as much out of it as they should.
Performance Management System for Claims Processors Generally Conforms 
        to Accepted Practices, but May Not Clearly Differentiate 
        Between Performance Levels
    VA's performance management system for claims processors is 
consistent with several accepted practices for effective performance 
management systems in the public sector, but may not clearly 
differentiate between staff's overall performance levels. VA's 
performance management system aligns individual performance elements 
with broader organizational performance measures, provides performance 
feedback to staff throughout the year, and emphasizes collaboration. 
However, the system may not clearly differentiate VSRs' and RVSRs' 
varying levels of performance. While the system has five summary rating 
categories for VSRs and RVSRs, several VBA managers told us that, 
because of a problem with the formula used to convert ratings on 
individual performance elements into an overall performance category, 
it is more difficult for staff to be placed in certain categories than 
others.
Performance Management System for Claims Processors Is Generally 
        Consistent With Accepted Practices
    The elements used to evaluate individual VSRs' and RVSRs' 
performance appear to be generally aligned with VBA's organizational 
performance measures, something prior GAO work has identified as a 
well-recognized practice for effective performance management systems 
(see app. I). Aligning individual and organizational performance 
measures helps staff see the connection between their daily work 
activities and their organization's goals and the importance of their 
roles and responsibilities in helping to achieve these goals. VSRs must 
be evaluated on four critical elements: quality, productivity, workload 
management, and customer service. RVSRs are evaluated on quality, 
productivity, and customer service. In addition, VBA central office 
requires regional offices to evaluate their staff on at least one non-
critical element. The central office has provided a non-critical 
element called cooperation and organizational support, and although 
regional offices are not required to use this particular element, all 
four offices we visited did so (see table 2). For each element, there 
are three defined levels of performance: exceptional, fully successful, 
or less than fully successful.\12\ Table 2 refers only to the fully 
successful level of performance for each element.
---------------------------------------------------------------------------
    \12\ The central office has set a minimum performance level for 
each element that defines the fully successful level of performance. 
Regional offices may set higher fully successful levels for their 
staff, and three of the offices we visited had set a higher level for 
at least one element. Regional offices also have discretion to set the 
level for exceptional performance in each element for their staff.

                           Table 2--Individual Performance Elements for VSRs and RVSRs
----------------------------------------------------------------------------------------------------------------
                                                                  Standard for  minimum    Standard for  minimum
                                                                    fully  successful        fully successful
  Performance  element        How Performance is evaluated       performance  (journey-   performance  (journey-
                                                                       level VSR)               level RVSR)
----------------------------------------------------------------------------------------------------------------
Critical
----------------------------------------------------------------------------------------------------------------
Quality                  A random selection of 5 cases or       85% accuracy              85% accuracy
                          phone calls per month is reviewed
                          for accuracy based on certain
                          criteria, for example whether all
                          necessary evidence was requested,
                          proper notifications were sent to
                          applicants, and accurate information
                          was provided in phone calls. Any
                          case or phone call with one or more
                          errors is counted as one inaccurate
                          case or call.
----------------------------------------------------------------------------------------------------------------
Productivity             Number of weighted actions (VSRs) or   8 weighted actions per    3.5 weighted cases per
                          weighted cases (RVSRs) completed per   day \a\                   day \b\
                          day. VSRs receive different weights
                          for different actions, such as 0.125
                          for conducting a telephone interview
                          or 1.50 for developing the evidence
                          for a claim with a special issue
                          such as radiation. RVSRs receive
                          different levels of credit for
                          processing cases with different
                          numbers of issues to be evaluated.
----------------------------------------------------------------------------------------------------------------
Customer service         Number of valid complaints about         No more than 3 valid complaints or incidents
                          employee's behavior from external
                          customers or internal colleagues.
----------------------------------------------------------------------------------------------------------------
Workload  management     Completion of designated tasks in a    Tasks are completed in    Not applicable
                          timely manner, such as obtaining the   timely manner 85
                          results of a medical exam within a     percent of the time
                          specified period of time.
----------------------------------------------------------------------------------------------------------------
Non-critical \c\
----------------------------------------------------------------------------------------------------------------
Cooperation and          Understanding of agency goals,             Interacts with colleagues professionally.
 organizational support   interaction with colleagues,              Follows directions and adheres to guidance
                          contribution to agency goals.            conscientiously. Adjusts easily to different
                                                                         working styles and perspectives.
----------------------------------------------------------------------------------------------------------------
Source: GAO analysis of VBA information.

Note: This table includes the levels set for journey-level VSRs and RVSRs, who are considered experienced and
  fully trained in their positions. For some elements VBA sets different performance standards for entry-level
  and experienced claims processors. For example, VSRs are typically promoted to the journey-level position
  after about 2 years. VBA has separate, lower performance standards in the accuracy, productivity, and workload
  management elements for VSRs who are not yet at the journey level. Also, regional offices have the option of
  setting fully successful levels for their staff that are higher than the national minimum, but not lower. This
  table indicates instances when the regional offices we visited have set thresholds that are higher than the
  national minimum.

\a\ Milwaukee has set a fully successful level of 10 weighted actions per day.
\b\ Baltimore, Milwaukee, and Portland have set fully successful levels of, respectively, 4, 5, and 3.8 weighted
  cases per day.
\c\ Regional offices are required to use at least one non-critical element. VBA central office provided regional
  offices with the cooperation and organizational support element, but regional offices are not required to use
  this element in particular.


    Three critical elements in particular--quality, workload 
management, and productivity--are aligned with VBA's organizational 
performance measures (see table 3). According to VA's strategic plan, 
one key organizational performance measure for VBA is overall accuracy 
in rating disability claims. This organizational measure is aligned 
with the quality element for VSRs and RVSRs, which is assessed by 
measuring the accuracy of their claims-processing work. An individual 
performance element designed to motivate staff to process claims 
accurately should, in turn, help VBA meet its overall accuracy goal. 
Two other key performance measures for VBA are the average number of 
days that open disability claims have been pending and the average 
number of days it takes to process disability claims. VSRs are 
evaluated on their workload management, a measure of whether they 
complete designated claims-related tasks within specific deadlines. 
Individual staff performance in this element is linked to the agency's 
ability to manage its claims workload and process claims within goal 
timeframes. Finally, a performance measure that VBA uses to evaluate 
the claims-processing divisions within its regional offices--and that, 
according to VBA, relates to the organization's overall mission--is 
production, or the number of compensation and pension claims processed 
by each office in a given time period. Individual VSRs and RVSRs are 
evaluated on their productivity, i.e., the number of claims-related 
tasks they complete per day. Higher productivity by individual staff 
should result in more claims being processed by each regional office 
and by VBA overall.

 Table 3--Performance Elements for VSRs and RVSRs and Corresponding Organizational Performance Measures for VBA
----------------------------------------------------------------------------------------------------------------
Performance element for VSRs and RVSRs                  Corresponding VBA performance measure(s)
----------------------------------------------------------------------------------------------------------------
Quality                                 Accuracy rate for ratings of compensation claims
----------------------------------------------------------------------------------------------------------------
Productivity                            Number of compensation and pension claims completed by the claims-
                                         processing division within a regional office in a given time period
----------------------------------------------------------------------------------------------------------------
Workload management \a\                 Average days pending for compensation and pension claims



----------------------------------------------------------------------------------------------------------------
Source: VBA and GAO analysis.

\a\ Workload management element applies only to VSRs, not RVSRs.


    The performance management system for VSRs and RVSRs also appears 
to be consistent with several other accepted practices for performance 
management systems in the public sector:
Providing and Routinely Using Performance Information to Track 
        Organizational Priorities
    Providing objective performance information to individuals helps 
show progress in achieving organizational goals and allows individuals 
to manage their performance during the year by identifying performance 
gaps and improvement opportunities. Regional offices are supposed to 
use the critical and non-critical performance elements to evaluate and 
provide feedback to their staff. Supervisors are required to provide at 
least one progress review to their VSRs and RVSRs each year, indicating 
how their performance on each element compares to the defined standards 
for fully successful performance. In the offices we visited, 
supervisors typically provide some feedback to staff on a monthly 
basis. For example, VSRs in the Atlanta regional office receive a memo 
on their performance each month showing their production in terms of 
average weighted actions per day, their accuracy percentage based on a 
review of a sample of cases, and how their performance compared to the 
minimum requirements for production and accuracy. If staff members fall 
below the fully successful level in a critical element at any time 
during the year, a performance improvement plan must be implemented to 
help the staff member improve.
Connecting Performance Expectations to Crosscutting Goals
    Performance elements related to collaboration or teamwork can help 
reinforce behaviors and actions that support crosscutting goals and 
provide a consistent message to all employees about how they are 
expected to achieve results. VSR and RVSR performance related to 
customer service is evaluated partly based on whether any valid 
complaints have been received about a staff member's interaction with 
their colleagues. And performance related to the cooperation and 
organizational support element is based on whether staff members' 
interaction with their colleagues is professional and constructive.
Using Competencies to Provide a Fuller Assessment of Performance
    Competencies, which define the skills and supporting behaviors that 
individuals are expected to exhibit to carry out their work 
effectively, can provide a fuller assessment of an individual's 
performance. In addition to elements that are evaluated in purely 
quantitative terms, VBA uses a cooperation and organizational support 
element for VSRs and RVSRs that requires supervisors to assess whether 
their staff are exhibiting a number of behaviors related to performing 
well as a claims processor.
Involving Employees and Stakeholders to Gain Ownership of the 
        Performance Management System
    Actively involving employees and stakeholders in developing the 
performance management system and providing ongoing training on the 
system helps increase their understanding and ownership of the 
organizational goals and objectives. For example, VA worked with the 
union representing claims processors to develop an agreement about its 
basic policies regarding performance management. Also, VBA indicated 
that it planned to pilot revisions to how productivity is measured for 
VSRs in a few regional offices, partly so VSRs would have a chance to 
provide feedback on the changes.
VA's System May Not Clearly Differentiate Between Performance Levels
    Clear differentiation between staff performance levels is also an 
accepted practice for effective performance management systems. Systems 
that do not result in meaningful distinctions between different levels 
of performance fail to give (1) employees the constructive feedback 
they need to improve, and (2) managers the information they need to 
reward top performers and address performance issues. GAO has 
previously reported that, in order to provide meaningful distinctions 
in performance for experienced staff, agencies should use performance 
rating scales with at least three levels, and scales with four or five 
levels are preferable because they allow for even greater 
differentiation between performance levels.\13\ If staff members are 
concentrated in just one or two of multiple performance levels, 
however, the system may not be making meaningful distinctions in 
performance.
---------------------------------------------------------------------------
    \13\ See GAO, Human Capital: Preliminary Observations on the 
Administration's Draft Proposed ``Working for America Act,'' GAO-06-
142T (Washington, DC: Oct. 5, 2005).
---------------------------------------------------------------------------
    VA's performance appraisal system has the potential to clearly 
differentiate between staff performance levels. Each fiscal year, 
regional offices give their staff a rating on each critical and non-
critical performance element using a three-point scale--exceptional, 
fully successful, or less than fully successful. Based on a VA-wide 
formula, the combination of ratings across these elements is converted 
into one of VA's five overall performance levels: outstanding, 
excellent, fully successful, minimally satisfactory, and unsatisfactory 
(see fig. 5). Regional offices may award financial bonuses to staff on 
the basis of their end-of-year performance category.\14\ Prior to 
fiscal year 2006, VA used two performance levels--successful and 
unacceptable--to characterize each staff member's overall performance. 
To better differentiate between the overall performance levels of 
staff, VA abandoned this pass-fail system in that year, choosing 
instead to use a five-level scale.
---------------------------------------------------------------------------
    \14\ In three of the four offices we visited, staff members placed 
in the outstanding and excellent categories receive bonuses, and in one 
of these offices some staff in the fully successful category also 
receive bonuses.
---------------------------------------------------------------------------
           Figure 5--VA Overall Performance Appraisal Formula

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]


    Source: GAO analysis of VBA information.

    However, there is evidence to suggest that the performance 
management system for VSRs and RVSRs may not clearly or accurately 
differentiate among staff's performance. VBA central office officials 
and managers in two of the four regional offices we visited raised 
concerns with VA's formula for translating ratings on individual 
performance elements into an overall performance rating.\15\ These 
officials said that under this formula it is more difficult for staff 
to be placed in certain overall performance categories than others, 
even if staff's performance truly does fall within one of those 
categories. Indeed, at least 90 percent of all claims processors in the 
regional offices we visited were placed in either the outstanding or 
the fully successful category in fiscal year 2007. (Fig. 6 shows the 
distribution of overall performance ratings for claims processors in 
each office.)\16\
---------------------------------------------------------------------------
    \15\ Officials in the other two offices we visited reported no 
problems with the performance appraisal formula. Officials in one of 
these offices told us the current five-level system provides more 
flexibility than the previous pass/fail system.
    \16\ We asked VA for fiscal year 2007 performance appraisal data 
for VSRs and RVSRs nationally to determine whether the distribution of 
staff across overall performance categories is similar at the national 
level. While VA indicated that it collects performance appraisal data 
for regional office staff, the agency was unable to provide us with 
appraisal data specifically for VSRs and RVSRs, as these positions are 
part of a broader job series.
---------------------------------------------------------------------------
   Figure 6--Fiscal Year 2007 Overall Performance Ratings for Claims
         Processors in Four Regional Offices Were Concentrated
           in the Outstanding and Fully Successful Categories

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]


    Note: These data cover VSRs, RVSRs, and some other claims 
processing staff.
    Central and regional office managers noted that, in particular, it 
is difficult for staff to receive an overall rating of excellent. 
Managers in one office said there are staff whose performance is better 
than fully successful but not quite outstanding, but under the formula 
it is difficult for these staff to be placed in the excellent category 
as the managers feel they should be. An excellent rating requires 
exceptional ratings in all the critical elements and a fully successful 
rating in at least one non-critical element. However, according to 
staff we interviewed, virtually all staff who are exceptional in the 
critical elements are also exceptional in all non-critical element(s), 
so they appropriately end up in the outstanding category. On the other 
hand, the overall rating for staff who receive a fully successful 
rating on just one of the critical elements--even if they are rated 
exceptional in all the other elements--drops down to fully successful. 
Managers in one regional office commented that the system would produce 
more accurate overall performance ratings if staff were given an 
overall rating of excellent when they had, for example, exceptional 
ratings on three of five overall elements and fully successful ratings 
on the other two.
    An official in VA's Office of Human Resources Management 
acknowledged that there may be an issue with the agency's formula. 
Although neither VBA nor VA central office officials have examined the 
distribution of VSRs and RVSRs across the five overall performance 
ratings, VA indicated it is considering changes to the system designed 
to allow for greater differentiation in performance ratings. For 
example, one possible change would be to use a five-point scale for 
rating individual elements--probably mirroring the five overall 
performance rating categories of outstanding, excellent, fully 
successful, minimally satisfactory, and unsatisfactory--rather than the 
current three-point scale. Under the proposed change, a staff member 
who was generally performing at the excellent but not outstanding level 
could get excellent ratings in all the elements and receive an overall 
rating of excellent. This change must still be negotiated with several 
stakeholder groups, according to the VA official we interviewed.
Conclusions
    In many ways, VBA has developed a training program for its new 
staff that is consistent with accepted training practices in the 
Federal Government. However, because VBA does not centrally evaluate or 
collect feedback on training provided by its regional offices, it lacks 
the information needed to determine if training provided at regional 
offices is useful and what improvements, if any, may be needed. 
Ultimately, this information would help VBA determine if 80 hours of 
training annually is the right amount, particularly for its experienced 
staff, and whether experienced staff members are receiving training 
that is relevant for their positions. Identifying the right amount of 
training is crucial for the agency as it tries to address its claims 
backlog. An overly burdensome training requirement needlessly may take 
staff away from claims processing, while too little training could 
contribute to processing inaccuracies. Also, without collecting 
feedback on regional office training, VBA may not be aware of issues 
with the implementation of its TPSS, the online training tool designed 
to ensure consistency across offices in technical training. Setting 
aside the issue of how many hours of training should be required, VBA 
does not hold its staff accountable for fulfilling their training 
requirement. As a result, VBA is missing an opportunity to clearly 
convey to staff the importance of managing their time to meet training 
requirements as well as production and accuracy goals. With the 
implementation of its new learning management system, VBA should soon 
have the ability to track training completed by individual staff 
members, making it possible to hold them accountable for meeting the 
training requirement.
    As with its training program for VSRs and RVSRs, the VA is not 
examining the performance management system for claims processors as 
closely as it should. VBA is generally using the right elements to 
evaluate its claims processors' performance, and the performance 
appraisals have the potential to give managers information they can use 
to recognize and reward higher levels of performance. However, evidence 
suggests the formula used to place VSRs and RVSRs into overall 
performance categories may not clearly and accurately differentiate 
among staff's performance levels. Absent additional examination of the 
distribution of claims processors among overall performance categories, 
VA lacks a clear picture of whether its system is working as intended 
and whether any adjustments are needed.
Recommendations for Executive Action
    The Secretary of Veterans Affairs should direct VBA to:

    <bullet>  Collect and review feedback from staff on the training 
conducted at the regional offices to determine

        <bullet>  if the 80-hour annual training requirement is 
        appropriate for all VSRs and RVSRs;
        <bullet>  the extent to which regional offices provide training 
        that is relevant to VSRs' and RVSRs' work, given varying levels 
        of staff experience; and
        <bullet>  whether regional offices find the TPSS a useful 
        learning tool and, if not, what adjustments are needed to make 
        it more useful; and

    <bullet>  Use information from its new learning management system 
to hold individual VSRs and RVSRs accountable for completing whatever 
annual training requirement it determines is appropriate.

    The Secretary of Veterans Affairs should also examine the 
distribution of claims processing staff across overall performance 
categories to determine if its performance appraisal system clearly 
differentiates between overall performance levels, and if necessary 
adjust its system to ensure that it makes clear distinctions.
Agency Comments
    We provided a draft of this report to the Secretary of Veterans 
Affairs for review and comment. In VA's written comments (see app. IV), 
the agency agreed with our conclusions and concurred with our 
recommendations. For example, VBA plans to consult with regional office 
staff to evaluate its annual 80-hour training requirement and will 
examine if staff performance ratings clearly differentiate between 
overall performance levels. VA also provided technical comments that 
were incorporated as appropriate.
    We are sending copies of this report to the Secretary of Veterans 
Affairs, relevant congressional Committees, and others who are 
interested. We will also provide copies to others on request. The 
report is also available at no charge on GAO's Web site at http://
www.gao.gov.
    Please contact me on (202) 512-7215 if you or your staff have any 
questions about this report. Contact points for the Offices of 
Congressional Relations and Public Affairs may be found on the last 
page of this report. Key contributors are listed in appendix V.

            Sincerely,
                                                     Daniel Bertoni
                               Director, Education, Workforce, and 
                                             Income Security Issues

                               __________

            Appendix I:  Objectives, Scope, and Methodology
    We were asked to determine: (1) What training is provided to new 
and experienced claims processors and how uniform is this training? (2) 
To what extent has the Veterans Benefits Administration (VBA) developed 
a strategic approach to planning training for claims processors and how 
well is their training designed, implemented, and evaluated? And (3) To 
what extent is the performance management system for claims processors 
consistent with generally accepted performance management practices in 
the public sector? To answer these questions, we reviewed documents and 
data from the central office of the Department of Veterans Affairs' 
Veterans Benefits Administration (VBA) and interviewed VBA central 
office officials. We conducted site visits to and collected data from 
four VBA regional offices, and visited the Veterans Benefits Academy. 
We also interviewed officials from the American Federation of 
Government Employees, the labor union that represents Veterans Service 
Representatives (VSR) and Rating Veterans Service Representatives 
(RVSR). We compared VBA's training and performance management systems 
to accepted human capital principles and criteria compiled by GAO. We 
conducted this performance audit from September 2007 through May 2008 
in accordance with generally accepted Government auditing standards. 
Those standards require that we plan and perform the audit to obtain 
sufficient, appropriate evidence to provide a reasonable basis for our 
findings and conclusions based on our audit objectives. We believe that 
the evidence obtained provides a reasonable basis for our findings and 
conclusions based on our audit objectives.
Regional Office Site Visits
    We conducted site visits to 4 of VBA's 57 regional offices--
Atlanta; Baltimore; Milwaukee; and Portland, Oregon. We judgmentally 
selected these offices to achieve some diversity in geographic 
location, number of staff, and claims processing accuracy rates, and 
what we report about these sites may not necessarily be representative 
of any other regional offices or all regional offices (see fig. 7).\17\
---------------------------------------------------------------------------
    \17\ To determine each office's accuracy performance in fiscal year 
2007, we used data obtained from VBA's Systematic Technical Accuracy 
Review (STAR) system. In an earlier GAO report, Veterans' Benefits: 
Further Changes in VBA's Field Office Structure Could Help Improve 
Disability Claims Processing, GAO-06-149 (Washington, DC: Dec. 9, 
2005), we identified problems that affected the use of the STAR data to 
make distinctions in accuracy among regional offices. However, for the 
purposes of site selection for our current review, we judged the STAR 
data to be sufficiently reliable. We made this determination based on a 
sensitivity analysis we did on earlier year data that considered 
sampled cases that were not sent in for STAR review. After this 
analysis we found that even with the existing limitations in the STAR 
data, Milwaukee and Baltimore had higher accuracy scores and Atlanta 
and Portland had lower accuracy scores. Even though the sensitivity 
analysis was done on earlier year data, the ranking of the four offices 
was similar in fiscal year 2007, showing that the offices we deemed to 
have higher accuracy scores in an earlier year still had higher 
accuracy scores in fiscal year 2007 and the same remained true for the 
offices with lower accuracy scores.
---------------------------------------------------------------------------
          Figure 7--Regional Offices Selected for Site Visits

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]


    \a\ Full-time equivalents as of September 2007.
    \b\ Rank among all 57 regional offices.
    \c\ Claims-processing accuracy rate for the period of August 1, 
2006 to July 31, 2007.

    During our site visits, we interviewed regional office managers, 
supervisors of VSRs and RVSRs, VSRs, and RVSRs about the training and 
performance management practices in their offices. The VSRs and RVSRs 
we interviewed at the four regional offices had varying levels of 
experience at VBA. Regional office managers selected the staff we 
interviewed. We also observed a demonstration of VBA's online learning 
tool, the Training and Performance Support System (TPSS), and collected 
data from the regional offices on, for example, the training they 
provided during fiscal year 2007.\18\ In conjunction with our visit to 
the Baltimore regional office, we also visited VBA's Veterans Benefits 
Academy, where we observed classes for VSRs and RVSRs and interviewed 
the Director of the Academy.
---------------------------------------------------------------------------
    \18\ One question we asked the regional offices was whether each 
course on their fiscal year 2007 training plan addressed a core 
technical training topic. For three of the offices, the data we 
received did not cover all training hours provided during the fiscal 
year, but each office provided data on at least 99 percent of its 
training hours.
---------------------------------------------------------------------------
Assessment of VBA's Training for Claims Processors
    To determine whether VBA's training program is consistent with 
accepted training practices in the public sector, we relied partly on a 
guide developed by GAO that lays out principles that Federal agencies 
should follow to ensure their training is effective.\19\ This guide was 
developed in collaboration with Government officials and experts in the 
private sector, academia, and nonprofit organizations; and in 
conjunction with a review of laws, regulations and literature on 
training and development issues, including previous GAO reports. The 
guide lays out the four broad components of the training and 
development process (see fig. 8).
---------------------------------------------------------------------------
    \19\ GAO, Human Capital: A Guide for Assessing Strategic Training 
and Development Efforts in the Federal Government, GAO-04-546G 
(Washington, DC: March 2004).
---------------------------------------------------------------------------
   Figure 8--Four Components of the Training and Development Process

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]


    Source: GAO

    Note: The evaluation component may include the use of participant 
feedback to ensure continuous improvement, as well as an assessment of 
the impact of training on organizational performance. We have reported 
that higher-level evaluations that attempt to measure the return on 
investment in a training program may not always be appropriate, given 
the complexity and costs associated with efforts to directly link 
training programs to improved individual and organizational 
performance.

    The guide also provides key questions for Federal agencies to 
consider in assessing their performance in each component. (See table 4 
for a sample of these questions.)

               Table 4--Selected Key Questions to Consider in Assessing Agency's Training Program
----------------------------------------------------------------------------------------------------------------

----------------------------------------------------------------------------------------------------------------
Planning/Front End Analysis                <bullet> Does the agency have training goals and related performance
                                            measures that are consistent with its overall mission, goals, and
                                            culture?
                                           <bullet> How does the agency identify the appropriate investment to
                                            provide for training and development efforts and prioritize funding
                                            so that the most important training needs are addressed first?
----------------------------------------------------------------------------------------------------------------
Design and Development                     <bullet> What criteria does the agency use in determining whether to
                                            design training and development programs in-house or obtain these
                                            services from a contractor or other external source?
                                           <bullet> Does the agency use the most appropriate mix of centralized
                                            and decentralized approaches for its training and development
                                            programs?
----------------------------------------------------------------------------------------------------------------
Implementation                             <bullet> What steps do agency leaders take to communicate the
                                            importance of training and developing employees, and their
                                            expectations for training and development programs to achieve
                                            results?
                                           <bullet> How does the agency select employees to participate in
                                            training and development efforts?
----------------------------------------------------------------------------------------------------------------
Evaluation                                 <bullet> To what extent does the agency systematically plan for and
                                            evaluate the effectiveness of its training and development efforts?
                                           <bullet> How does the agency incorporate evaluation feedback into the
                                            planning, design, and implementation of its training and development
                                            efforts?
----------------------------------------------------------------------------------------------------------------
Source: GAO.


    In addition, GAO training experts reviewed VBA materials, including 
training curricula, lesson plans, and course evaluation forms, to 
determine if these materials are consistent with accepted training 
practices.
Assessment of VBA's Performance Management System for Claims Processors
    In assessing the performance management system for VSRs and RVSRs, 
we relied primarily on a set of accepted practices of effective public 
sector performance management systems that has been compiled by 
GAO.\20\ To identify these accepted practices, GAO reviewed its prior 
reports on performance management that drew on the experiences of 
public sector organizations both in the United States and abroad. For 
the purpose of this review, we focused on the six accepted practices 
most relevant for VBA's claims-processing workforce (see table 5).
---------------------------------------------------------------------------
    \20\ GAO, Results-Oriented Cultures: Creating a Clear Linkage 
between Individual Performance and Organizational Success, GAO-03-488 
(Washington, DC: Mar. 14, 2003).

                Table 5--Selected Accepted Practices for Effective Performance Management Systems
----------------------------------------------------------------------------------------------------------------
                 Practice                                               Description
----------------------------------------------------------------------------------------------------------------
Aligning individual performance            Explicitly aligning individuals' daily activities with broader
 expectations with organizational goals     results helps individuals see the connection between their work and
                                            organizational goals and encourages individuals to focus on their
                                            roles and responsibilities to help achieve those broader goals.
----------------------------------------------------------------------------------------------------------------
Connecting performance expectations to     Fostering collaboration, interaction, and teamwork across
 crosscutting goals                         organizational boundaries to achieve results strengthens
                                            accountability for these results.
----------------------------------------------------------------------------------------------------------------
Providing and routinely using performance  Providing objective performance information to both managers and
 information to track organizational        staff to show progress in achieving organizational results and other
 priorities                                 priorities helps them manage during the year, identify performance
                                            gaps, and pinpoint improvement opportunities.
----------------------------------------------------------------------------------------------------------------
Using competencies to provide a fuller     Using competencies, which define the skills and supporting behaviors
 assessment of performance                  that individuals need to effectively contribute to organizational
                                            results, can provide a fuller picture of an individual's
                                            performance.
----------------------------------------------------------------------------------------------------------------
Making meaningful distinctions in          Providing individuals with candid and constructive feedback helps
 performance                                them maximize their contribution, and providing management with
                                            objective and fact-based information that clearly differentiates
                                            between different levels of performance enables it to reward top
                                            performers and deal with poor performers.
----------------------------------------------------------------------------------------------------------------
Involving employees and stakeholders to    Actively involving employees and stakeholders in developing the
 gain ownership of performance management   performance management system and providing ongoing training on the
 systems                                    system helps increase their understanding and ownership of the
                                            organizational goals and objectives.
----------------------------------------------------------------------------------------------------------------
Source: GAO.

Appendix II:  Fiscal Year 2007 Core Technical Training Requirements for 
                             VSRs and RVSRs


------------------------------------------------------------------------
    Position      Course title or topic          Training source
------------------------------------------------------------------------
Decision Review
 Officers (DRO)
 GS13/Rating
 Veterans
 Service
 Representative
 s (RVSR) GS7-
 12

(Seasoned)

Required: 80
 hours
                 Effective Dates         C&P Training Website http://
Any DRO or RVSR  Diabetes Mellitus        cptraining.vba.va.gov/
 who conducts a  Leishmaniasis            C&P_Training/RVSR/
 training        Original Compensation    RVSR_Tng_Curr.htm
 session will     Ratings
 also be given   Original Pension
 credit for       Ratings
 those training  Original DIC Ratings
 hours as part   Rating re-opened
 of their         claims
 training        Claims for Increase
 requirement.    New and Material
                  Evidence
                 Re-opened DIC ratings
                 Routine Future Exams
                 3.105(e) reductions
                 Paragraph 28/29/30
                  ratings
                 Due Process Provisions
                 Clear and unmistakable
                  errors (3.105(a))
                 Ancillary Benefits
                 Accrued Ratings
                 Musculoskeletal issues
                 Eye-Vision Issues
                 Infectious Diseases
                 Ear-Hearing
                 Respiratory Disorders
                 Cardiovascular Issues
                 Digestive Issues
                 Genitourinary System
                 Gynecology
                 Hemic/Lymphatic
                 Endocrine (other than
                  DM)
                 Neurological
                 Mental Disorder (other
                  than PTSD)
                 PTSD

                 Special Monthly
                  Compensation (SMC)
                 The Appeals Process
                 Responsibilities of a
                  DRO
                 Hearings
                 Informal Conferences
                 Resolution of Claims
                 Certifying a case to
                  BVA
                 Processing Remands
                 Preparing a Statement
                  of the Case (SOC)
                 Preparing a
                  Supplemental
                 Statement of the Case
                  (SSOC)
                 Role of the Rating
                  Specialist
                 Benefit of the Doubt
                 Weighing Evidence

                 60 Hours of the
                  required 80 Hours
                  will be selected from
                  the suggested topics
                  above. The remaining
                  20 hours will be
                  selected at the
                  Stations discretion
                  based upon their own
                  individual quality
                  review.

                 (Training provided
                  from the above topics
                  can be focused on a
                  particular aspect of
                  the topic; i.e. Cold
                  Injuries and Rating
                  Hypertension from
                  Cardiovascular issues
                  could be separate
                  classes)

                 Participation in
                  Agency Advancement
                  Programs (i.e., LEAD,
                  LVA) does not
                  substitute for
                  Required training
                  requirements.
------------------------------------------------------------------------
Veteran Service
 Representative
 (VSR) GS 7-12

(Seasoned)

Required: 80
 hours
                 Reference Materials:
Any Super         Manual
 Senior VSR,     Training & WARMS
 Senior VSR, or  C&P Website
 VSR, who        Claims Folder
 conducts a       Maintenance
 training        Records Management
 session will    POA/Service Orgs.
 also be given   Original Compensation
 credit for       Claims
 those training  Re-opened Compensation
 hours            Claims
 including       VA Form 21-526
 preparation     Establishing Veteran
 time as part     Status
 of their        Claims Recognition
 training        Duty to Assist
 requirement.    Requesting VA Exams
                 Issue Specific Claims
                  Development
                 Asbestos Claims
                  Development
                 Herbicide Claims
                  Development
                 POW Claims Development


                                         C&P Training Website

                 Intro. to Ratings
                 Paragraph 29 & 30
                  Ratings
                 Ratings & BDN
                 BDN 301 Interface
                 PCGL Award Letters
                 Dependents and the BDN
                 Compensation Offsets

                 Drill Pay Waivers
                 Pension Awards
                  Processing & BDN
                 Hospital Reductions
                 Burial Benefits
                 Death Pension
                 Accrued Benefits
                 Accrued Awards & the
                  BDN
                 Apportionments
                 Special Monthly
                  Pension
                 Helpless Child
                 Incompetency/Fiduciary
                  Arrangements
                 Claims Processing
                 Auto Allowance and
                  Adaptive Equipment
                 Special Adapted
                  Housing
                 Special Home
                  Adaptation Grants
                 Incarcerated Veterans
                 Processing Write Outs
                 FOIA/Privacy Act
                 Telephone & Interview
                  Techniques
                 Telephone Development
                 IRIS
                 Introduction to VACOLS
                 Education Benefits
                 Insurance Benefits
                 National Cemetery
                 VR&E Benefits
                 Loan Guaranty Benefits
                 General Benefits--FAQs
                 Suicidal Caller
                  Guidance
                 Non-Receipt of BDN
                  Payments
                 Mail Handling
                 Income & Net Worth
                  Determinations
                 Bootcamp test and
                  review of VSR
                 Readiness Guide (2 HRS
                  Required)
                 Reference Material
                  Training and
                  Navigation (1 HR
                  Required)
                 Appeals and Ancillary
                  Benefits
                 Ready to Rate
                  Development
                 Customer Service
                 FNOD Info and PMC
                  Process
                 Intro. to Appeals
                  Process
                 DRO Selection Letter
                 Income Adjustment
                  Materials
                 Income Adjustments

                 60 Hours of the
                  required 80 Hours
                  will be selected from
                  the suggested topics
                  above. The remaining
                  20 hours will be
                  selected at the
                  Stations discretion
                  based upon their own
                  individual quality
                  review.
------------------------------------------------------------------------
Veterans
 Services
 Representative
 (VSR) GS 7-12

(New)

Required:
 Entire
 Curriculum
                 Curriculum is posted
(Follow C&P       on C&P Training
 Prescribed       Intranet Site
 Curriculum for
 new VSRs, as
 posted on
 intranet.)

                                         http://cptraining.vba.va.gov/
                 SHARE (BDN & CEST)
                 COVERS
                 PIES
                 Return with Honor
                  Video
                 MAPD
                 AMIE/CAPRI
                 Medical TPSS (Medical
                  Terminology)
                 Reader Focused Writing
                  Tools
                --------------------------------------------------------
                 Pre-Determination Team
                  Training:
                                         http://cptraining.vba.va.gov/
                 C&P Website
                 Claims Folder
                  Maintenance
                 Records Management
                 POA/Service
                  Organizations
                 Compensation
                 Original Compensation
                  Claims
                 Non-Original
                  Compensation Claims
                 VA Form 21-526, App.
                  For Compensation or
                  Pension
                 Establishing Veteran
                  Status
                 Claims Recognition
                 Duty to Assist
                 Selecting the Correct
                  Worksheet for VA
                  Exams
                 Issue Specific Claim
                  Development
                 Asbestos Claim
                  Development
                 Herbicide Claim
                  Development
                 POW Claim Development
                 Radiation Claim
                  Development
                 PTSD Claim Development
                 Undiagnosed Illness
                  Claim Development
                 Dependency
                 Contested Claims
                 Deemed Valid and
                  Common-law Marriage
                 Continuous
                  Cohabitation
                 Pension
                 Intro. To Disability
                  Pension
                 Overview of SHARE
                  (SSA)
                 Administrative
                  Decision Process
                 Character of Discharge
                 Line of Duty--Willful
                  Misconduct
                 Claims Development
                 Workload Management
                  Utilizing WIPP

                --------------------------------------------------------
                 Post-Determination
                  Team Training:
                                         http://cptraining.vba.va.gov/
                 Ratings & the BDN
                 BDN 301 Interface
                  Video
                 PCGL Award Letters
                 PCGL
                 Dependents & the BDN
                 Compensation Offsets
                 Drill Pay Waivers
                 Star Reporter
                 Pension Awards
                  Processing & the BDN
                 Hospital Reductions
                 Burial Benefits
                 Disallowance
                  Processing
                 DIC Benefits
                 Death Pension
                 Accrued Benefits
                 Accrued Awards & the
                  BDN
                 Apportionment
                 Special Monthly
                  Pension
                 Helpless Child
                 Incompetency/Fiduciary
                  Arrangements
                 Claims Processing
                 Automobile Allowance
                  and Adaptive
                  Equipment
                 Specially Adapted
                  Housing and Special
                  Home Adaptation
                  Grants
                 Incarceration
                 Processing Computer
                  Write Outs

                 DEA Training (req.
                  added 4/06)
                --------------------------------------------------------
                 Public Contact Team
                  Training:

                                         http://cptraining.vba.va.gov/



------------------------------------------------------------------------
Source: VBA.

 Appendix III:  Excerpts From Fiscal Year 2007 Training Plans for Four 
                            Regional Offices
    Each training plan we reviewed contained the same informational 
categories, some of which were what courses were offered by the 
regional office, whether or not the course was conducted, and how many 
employees completed the training. Although the fiscal year 2007 
training plans we reviewed include data on whether and when the course 
was actually completed, the initial training plans submitted at the 
beginning of the fiscal year of course do not have this information. 
The lists provided below include the first 25 courses listed on each 
plan alphabetically, a small sample of the courses that the regional 
offices reported they completed for the fiscal year.


       Table 6--Excerpt From Atlanta Regional Office Training Plan
------------------------------------------------------------------------
                                                Number of    Total hours
                 Course name                    employees    of training
                                                completed     completed
------------------------------------------------------------------------
Accrued Benefits                                   15           150
------------------------------------------------------------------------
Accrued Ratings (2 sessions conducted)             47            80
------------------------------------------------------------------------
Administrative Decisions                           15            60
------------------------------------------------------------------------
Ancillary Benefits                                 14            14
------------------------------------------------------------------------
Appeals and Ancillary Benefits (2 sessions         26            41
 conducted)
------------------------------------------------------------------------
Apportionments (2 sessions conducted)              29           194
------------------------------------------------------------------------
Asbestos Claims Development                         9             9
------------------------------------------------------------------------
Auto Allowance/Special Adapted Housing/            15            30
 Special Home Adaptation Grant
------------------------------------------------------------------------
Benefits Delivery Network 301 Interface (2         48            48
 sessions conducted)
------------------------------------------------------------------------
Beneficiary Identification Records Locator         17            17
 Subsystem Update
------------------------------------------------------------------------
Blast Injuries (2 sessions conducted)              20            20
------------------------------------------------------------------------
Burial Benefits (2 sessions conducted)             36           100
------------------------------------------------------------------------
Board of Veterans Appeals Examinations             46            69
------------------------------------------------------------------------
Compensation & Pension Website (2 sessions        108           270
 conducted)
------------------------------------------------------------------------
Change of Address/Power of Attorney                17            34
 Processing/No Record Mail
------------------------------------------------------------------------
Cardiovascular Issues                              38            76
------------------------------------------------------------------------
Certifying a Case to Board of Veterans             12            12
 Appeals
------------------------------------------------------------------------
Character of Discharge                             78            78
------------------------------------------------------------------------
Claims Folder Maintenance (2 sessions              17            28
 conducted)
------------------------------------------------------------------------
Claims for Direct Service Connection/              34            34
 Aggravation/Presumptive Service Connection
------------------------------------------------------------------------
Claims for Increase                                29            58
------------------------------------------------------------------------
Claims Processing                                 139            69.5
------------------------------------------------------------------------
Claims Recognition                                 84           336
------------------------------------------------------------------------
Compensation Offsets (3 sessions conducted)       167           352.5
------------------------------------------------------------------------
Computer Security and LAN Procedures                6             6
------------------------------------------------------------------------
Source: VBA.

Note: Atlanta's training plan reported the regional office conducted a
  total of 133 courses for fiscal year 2007.


      Table 7--Excerpt From Baltimore Regional Office Training Plan
------------------------------------------------------------------------
                                                Number of    Total hours
                 Course name                    employees    of training
                                                completed     completed
------------------------------------------------------------------------
Accrued Benefits                                    5            10
------------------------------------------------------------------------
Automated Medical Information Exchange/             6            48
 Compensation and Pension Record Interchange
------------------------------------------------------------------------
Appeals and Ancillary Benefits                      3             3
------------------------------------------------------------------------
Asbestos Claims Development                         3             3
------------------------------------------------------------------------
Access Standardized Performance Elements            2             2
 Nationwide
------------------------------------------------------------------------
Auto Allowance and Adaptive Equipment (2           16             8
 sessions conducted)
------------------------------------------------------------------------
Benefits Delivery at Discharge Development         14            21
------------------------------------------------------------------------
Benefits Delivery Network 301 Interface (2          5             7
 sessions conducted)
------------------------------------------------------------------------
Benefit of the Doubt                                3            12
------------------------------------------------------------------------
Burial Benefits (2 sessions conducted)              7            14
------------------------------------------------------------------------
Compensation & Pension Website (3 sessions         15            36.5
 conducted)
------------------------------------------------------------------------
Certifying a Case to Board of Veterans              3            12
 Appeals
------------------------------------------------------------------------
Character of Discharge                             15             7.5
------------------------------------------------------------------------
Claims Folder Maintenance                           7            14
------------------------------------------------------------------------
Claims Recognition                                  5            20
------------------------------------------------------------------------
Communication--Nonverbal Cues                       3             1.5
------------------------------------------------------------------------
Computer Security and LAN Procedures                6            12
------------------------------------------------------------------------
Conducting a Field Exam                             3             1.5
------------------------------------------------------------------------
Continuous Cohabitation (2 sessions                20            20
 conducted)
------------------------------------------------------------------------
Core Values                                         5             5
------------------------------------------------------------------------
Control of Veterans Records System (3              10            12.5
 sessions conducted)
------------------------------------------------------------------------
Customer Service (5 sessions conducted)            40           416
------------------------------------------------------------------------
Dealing with Difficult Payee Situations             3             3
------------------------------------------------------------------------
Deemed Valid and Common Law Marriages (2           20            12.5
 sessions conducted)
------------------------------------------------------------------------
Dependency Issues (3 sessions conducted)           22            26.5
------------------------------------------------------------------------
Source: VBA.

Note: Baltimore's training plan reported the regional office conducted a
  total 191 courses for fiscal year 2007.


      Table 8--Excerpt From Milwaukee Regional Office Training Plan
------------------------------------------------------------------------
                                                Number of    Total hours
                 Course name                    employees    of training
                                                completed     completed
------------------------------------------------------------------------
8824e                                               1             1
------------------------------------------------------------------------
Administrative Decisions                           14            91
------------------------------------------------------------------------
Advanced Data Manipulation in Excel (VA             1             4
 Learning Online)
------------------------------------------------------------------------
All--Litigation Hold Memo                         130            32.5
------------------------------------------------------------------------
All-Encryption Training                             1             0.5
------------------------------------------------------------------------
Ancillary Benefits                                 21            42
------------------------------------------------------------------------
Auto Allowance and Adaptive Equipment              28            28
------------------------------------------------------------------------
Blast Injuries (Video)                             33            33
------------------------------------------------------------------------
Board of Veterans Appeals review                    7            14
------------------------------------------------------------------------
Compensation & Pension Website                     41           102.5
------------------------------------------------------------------------
Claims Assistant--Burials                           4             4
------------------------------------------------------------------------
Claims Assistant/Program Support Clerk--           24            24
 Power of Attorney
------------------------------------------------------------------------
Claims Assistant/Program Support Clerk--           21           178.5
 Share and Cest
------------------------------------------------------------------------
Claims Assistant/Program Support Clerk--           25            25
 Veterans Appeals Control and Locator System
------------------------------------------------------------------------
Cardiovascular Issues                              30           180
------------------------------------------------------------------------
Challenge 07-02 Centralized Training                6           720
------------------------------------------------------------------------
Challenge 07-02 Post Centralized Training           6         1,440
------------------------------------------------------------------------
Challenge 07-02 Pre-Req.                            6           720
------------------------------------------------------------------------
Claims Folder Maintenance                          41            82
------------------------------------------------------------------------
Claims Recognition                                 26            26
------------------------------------------------------------------------
Character of Discharge Determinations, Line        11            24.75
 of Duty Determinations, and Administrative
 Decisions.
------------------------------------------------------------------------
Compensation Offsets                               27            94.5
------------------------------------------------------------------------
Core Values                                         2             3.5
------------------------------------------------------------------------
Control of Veterans Records System (2               2             3
 sessions conducted)
------------------------------------------------------------------------
Compensation and Pension Examination Project        1            18
------------------------------------------------------------------------
Source: VBA.

Note: Milwaukee's training plan reported the regional office conducted a
  total of 323 courses for fiscal year 2007.


      Table 9--Excerpt From Portland Regional Office Training Plan
------------------------------------------------------------------------
                                                Number of    Total hours
                 Course name                    employees    of training
                                                completed     completed
------------------------------------------------------------------------
020 Development                                     3            16.5
------------------------------------------------------------------------
2007 Veterans Service Center Management             1            26
 Workshop
------------------------------------------------------------------------
3.105(e) Reductions                                15            15
------------------------------------------------------------------------
38 CFR 3.14 & Pyramiding                            2             0.5
------------------------------------------------------------------------
5-Tier Performance Evaluations                      7             5.25
------------------------------------------------------------------------
8824 Preparation                                    1             5
------------------------------------------------------------------------
Absence & Leave Circular Training                  13            13
------------------------------------------------------------------------
Account Analysis                                    3             6
------------------------------------------------------------------------
Account Audits                                      3             6
------------------------------------------------------------------------
Accrued Awards & the Benefits Delivery              2             2
 Network
------------------------------------------------------------------------
Accrued Ratings                                    16             4
------------------------------------------------------------------------
Add Dependents/Verifying Service                   18             9
------------------------------------------------------------------------
Admin Decisions/Rebuilt/Special Monthly             4            18
 Compensation
------------------------------------------------------------------------
Administrative Decisions                            5             2.5
------------------------------------------------------------------------
Agent Orange development                            4             4
------------------------------------------------------------------------
Amputation Rule                                     2             0.5
------------------------------------------------------------------------
Ancillary Benefits                                 28            28
------------------------------------------------------------------------
Appeal Procedures--Refresher                        3             5.25
------------------------------------------------------------------------
Appeals                                            33            33
------------------------------------------------------------------------
Appeals and Ancillary Benefits (3 sessions         34            13
 conducted)
------------------------------------------------------------------------
Appeals--Training and Performance Support           1            16
 System modules
------------------------------------------------------------------------
Application/eligibility                             1             3.5
------------------------------------------------------------------------
Apportionments (2 sessions conducted)               4            14.5
------------------------------------------------------------------------
Asbestos Claims Development                        23            23
------------------------------------------------------------------------
Access Standardized Performance Elements            6             6
 Nationwide
------------------------------------------------------------------------
Source: VBA.

Note: Portland's training plan reported the regional office conducted a
  total of 509 courses for fiscal year 2007.

     Appendix IV:  Comments From the Department of Veterans Affairs

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]


           Appendix V:  GAO Contact and Staff Acknowledgments
GAO Contact
    Daniel Bertoni (202) 512-7215 <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="43212631372c2d2a270324222c6d242c356d">[email&#160;protected]</a>
Staff Acknowledgments
    In addition to the contact named above, Clarita Mrena, Assistant 
Director; Lorin Obler, Analyst-in-Charge; Carolyn S. Blocker; and David 
Forgosh made major contributions to this report; Margaret Braley, Peter 
Del Toro, Chris Dionis, Janice Latimer, and Carol Willett provided 
guidance; Walter Vance assisted with study design; Charles Willson 
helped draft the report; and Roger Thomas provided legal advice.
Related GAO Products
    Veterans' Benefits: Improved Management Would Enhance VA's Pension 
Program. GAO-08-112. Washington, DC: February 14, 2008.
    Veterans' Disability Benefits: Claims Processing Challenges 
Persist, while VA Continues to Take Steps to Address Them. GAO-08-473T. 
Washington, DC: February 14, 2008.
    Disabled Veterans' Employment: Additional Planning, Monitoring, and 
Data Collection Efforts Would Improve Assistance. GAO-07-1020. 
Washington, DC: September 12, 2007.
    Veterans' Benefits: Improvements Needed in the Reporting and Use of 
Data on the Accuracy of Disability Claims Decisions. GAO-03-1045. 
Washington, DC: September 30, 2003.
    Human Capital: A Guide for Assessing Strategic Training and 
Development Efforts in the Federal Government. GAO-03-893G. Washington, 
DC: July 2003.
    Results-Oriented Cultures: Creating a Clear Linkage between 
Individual Performance and Organizational Success. GAO-03-488. 
Washington, DC: March 14, 2003.
    Major Management Challenges and Program Risks: Department of 
Veterans Affairs. GAO-03-110. Washington, DC: January 1, 2003.
    Veterans' Benefits: Claims Processing Timeliness Performance 
Measures Could Be Improved. GAO-03-282. Washington, DC: December 19, 
2002.
    Veterans' Benefits: Quality Assurance for Disability Claims and 
Appeals Processing Can Be Further Improved. GAO-02-806. Washington, DC: 
August 16, 2002.
    Veterans' Benefits: Training for Claims Processors Needs 
Evaluation. GAO-01-601. Washington, DC: May 31, 2001.
    Veterans' Benefits Claims: Further Improvements Needed in Claims-
Processing Accuracy. GAO/HEHS-99-35. Washington, DC: March 1, 1999.

                                 <F-dash>

                                     Committee on Veterans' Affairs
                             Subcommittee on Disability Assistance 
                                               and Memorial Affairs
                                                    Washington, DC.
                                                 September 25, 2008
Michael Ratajczak
Decision Review Officer
Cleveland Veterans Affairs Regional Office
80 F Street, NW
Washington, DC 20001

Dear Mr. Ratajczak:

    In reference to our House Committee on Veterans' Affairs 
Subcommittee on Disability Assistance and Memorial Affairs Hearing on 
``Examining the Effectiveness of Veterans Benefits Administration 
Training and Performance Management and Accountability'' on September 
18, 2008, I would appreciate it if you could answer the enclosed 
hearing questions as soon as possible.
    In an effort to reduce printing costs, the Committee on Veterans' 
Affairs, in cooperation with the Joint Committee on Printing, is 
implementing some formatting changes for material for all full 
committee and subcommittee hearings. Therefore, it would be appreciated 
if you could provide your answers consecutively on letter size paper, 
single-spaced. In addition, please restate the question in its entirety 
before the answer.

            Sincerely,
                                                       John J. Hall
                                                           Chairman
                               __________
                   Response of Michael Ratajczak to:
        Questions From the House Committee on Veteran's Affairs,
       Subcommittee on Disability Assistance and Memorial Affairs

    Question 1: How useful is online training as opposed to classroom 
style? Which do employees prefer?

    Response: The general experience of VBA employees is that online 
training is less useful than classroom training. Online training is 
extremely limited insofar as it is not easily conformed to the constant 
changes permeating VBA's claims process. A computer based curriculum 
developed only weeks prior to an employee participating in computer 
based training might be inaccurate in some aspects due to changes in 
law or policy. In addition, online training is not generally responsive 
to questions not considered by its designer. So, a question may be 
suggested to a VBA employee based upon their unique experiences and 
some aspect of an online curriculum but that curriculum could not 
provide any useful guidance on the issue presented.
    In contrast, properly administered classroom training encourages 
real-time interaction between the instructor and the participants, and 
provides immediate feedback for questions presented. Moreover, 
classroom training can easily incorporate any recent changes in law, 
policy, or regulations into its curriculum, thereby providing more 
relevant and up to date information. A classroom setting provides an 
opportunity for participants to deviate from the prepared curriculum to 
related topics having direct impact on their ability to perform their 
duties, and provides a similar opportunity for instructors to identify 
and correct common misconceptions among participants. Properly 
administered classroom training provides immediate, consistent, useful 
and relevant guidance based upon practical concerns expressed by 
participants. It is the most efficient manner to ensure consistency in 
processing and resolving complex claims, and ultimately provides the 
best service to veterans.
    Of course, the foregoing comments assume that the ``online 
training'' in question is based upon a static format, as characterized 
for example by VBA's TPSS program. As was suggested by some questions 
posed during the September 18, 2008, hearing, some training can be 
effectively presented electronically through the use of 
teleconferencing technology. Such an approach has the advantage of 
providing uniform presentation of the subject matter to a widely 
dispersed audience by an authoritative instructing staff. However, the 
utility of such training is limited by the number of participants and 
the amount of available time. The danger of relying on teleconference 
training to reach a large audience is that it cannot guarantee 
effective feedback for the concerns of every participant.
    The best approach to continuing training at VBA incorporates the 
most useful aspects of computer based, classroom, and teleconference 
instruction. Such an approach would dictate that VBA's Central Office 
training staff create a standard curriculum and an electronic claims 
file relevant to issues identified as requiring additional training. 
Central Office training staff would then distribute the electronic 
materials and curriculum to instructors at each Regional Office who are 
certified by Central Office to conduct centralized training. After 
soliciting comments from Regional Office instructors Central Office 
staff could facilitate a teleconference among the Regional Office 
instructors, addressing their disparate concerns and providing uniform 
guidance as to how they should approach the materials and topics at 
hand. Finally, Regional Office instructors could provide training to 
adjudicators in a classroom setting at each Regional Office in 
accordance with the guidance provided by Central Office staff during 
the teleconference based upon Central Office's approved curriculum and 
electronic claims file. Such an approach would ensure, to the extent 
possible, that training throughout VBA was uniform in approach and 
based upon a common experience and guidance from Central Office. 
Ultimately, institutionalizing uniform training based upon shared 
common experience will foster greater consistency in approach to 
resolving veterans claims across Regional Offices, and eliminate ad hoc 
approaches which result in disparity of entitlement determinations and 
disability evaluations.

    Questions 2: VA reinstituted the certification exam in August. What 
was the response of employees who took the test? Did AFGE have input on 
the new test?

    Response: AFGE does not have any direct input on designing or 
scoring any certification test promulgated by VBA. AFGE is afforded the 
opportunity to designate a representative to witness the design of 
certification tests and scoring workshops in accordance with a 
provision of the Master Agreement between VA and the Union. AFGE 
representatives to certification testing activities can informally 
express concerns to VBA management during design and scoring 
activities. However, in the absence of any concession by VBA management 
of the validity of a concern raised by AFGE at a certification design 
or scoring workshop, AFGE has no effective means of directly 
influencing the certification process prior to its implementation. In 
the absence of an immediate concession by VBA management to a point 
raised by an AFGE representative in a certification design or scoring 
activity, any information gathered by AFGE representatives through 
their participation in the certification test design or scoring 
activities can only be utilized to effect certification testing through 
formal labor-management proceedings. AFGE members do serve as subject 
matter experts who write the questions for certification tests, and 
help determine essential knowledge and skills of positions that need to 
be tested for successful certification. However, AFGE does not attempt 
to influence its membership with regard to their duties as subject 
matter experts, and does not actively encourage subject matter experts 
to report to the Union concerning policies or directions expressed by 
VBA management at any certification testing design or scoring activity.
    Our experience is that employees who pass certification testing 
express a general dissatisfaction regarding the relevance of the 
material tested. Employees who do not pass certification testing 
express similar dissatisfaction, and also express frustration that they 
are not provided with any meaningful feedback regarding where they need 
to improve their understanding in order to be certified. That 
frustration is magnified when our members consider that they can be 
otherwise fully successful in all aspects of their position, but 
subject to adverse action or arrested career development solely because 
if their inability to pass a certification test.
    Regardless of their success in certification testing, frustration 
arises among AFGE members when they contemplate that supervisors who 
evaluate their job performance on a daily basis do not presently have 
any similar certification requirement. The certification process, at 
present, leaves our members with the curious potential to be evaluated 
by supervisors who are not certified to have the same level of 
knowledge and skill level as they do. The impact of that potential has 
an obvious detrimental impact on the morale of our members.

    Question 3: According to DAV testimony, the Union has objected to 
the frequency and other requirements DAV suggests for testing at each 
phase. What are the AFGE objections?

    Response: Some of our concerns are expressed in the last two 
paragraphs of our response to the preceding question.
    While AFGE has no objection in principle to the concept of 
certification testing, AFGE does have concerns about the practical 
application of the certification process and the effects that flawed 
certification testing can have on our members. As currently 
constituted, certification testing is not designed to provide VBA 
employees with any specific feedback concerning what knowledge or 
skills they need to improve. This is a disservice both to employees who 
have been successfully certified and want to improve their job 
performance, and to employees who are attempting to be successfully 
certified and want to improve their job performance. As currently 
constituted, the certification testing program is not a useful learning 
tool. Rather, it more akin to a hazing ritual which somewhat 
arbitrarily determines whether an employee can continue in their 
current position or ascend the career ladder. Some of our older members 
with long histories of fully successful performance evaluations who 
have many years of experience successfully serving veterans have found 
it difficult to successfully complete their certification requirement 
because of the nature and format of the test. In contrast, less 
experienced members with recent experience in environments that 
regularly utilize standardized testing (e.g. recent college graduates) 
may perform adequately on certification testing, but not be as astute 
in serving veterans due to their simple lack of experience. While VBA 
management has recently expressed an interest in replacing older 
employees with younger, more technologically savvy employees, AFGE does 
not believe that interest is legitimate. Nor can AFGE, in service to 
its full membership, accept that the design of certification tests 
should favor an employee with the ability to access reference materials 
quickly over an employee who understands the correct course of action 
due to long experience. AFGE does not believe that any employee who can 
and does successfully perform the duties of their position on a daily 
basis should be subject to any adverse employment action solely because 
he or she cannot successfully complete a single certification test. Nor 
does AFGE believe the measure of an employee's timely, successful, 
respectful and full service to veterans can be made by reference to a 
single test.

    Question 4: In your statement you suggest that the productivity 
requirements are too high. On average, an experienced rater is 
completing 2-3 claims a day. Are you suggesting that's too many? How 
many cases a day should a rater be able to adjudicate?

    Response: Rating Veterans Service Representative may, in fact 
complete only 2-3 claims per day on average. If raters were only 
required to complete 2 to 3 cases per day on average, no one could 
object since that requirement would be based on an empirically verified 
direct relationship between what can be accomplished and what is 
required.
    Unfortunately, VBA's National Performance Standard for Rating 
Veterans Service Representatives requires that Journey-level RVSRs 
(i.e. those with two or more years of experience) complete a minimum of 
3\1/2\ weighted cases per day. This misfortune is amplified when one 
considers that the 3\1/2\ weighted case per day requirement is a floor 
and not a ceiling, and that individual Regional Offices are free to set 
daily performance standards for RVSRs on an ad hoc basis which exceed 
3\1/2\ weighted cases per day. So, for example, Tiger Team RVSRs are 
required to complete 4 weighted cases per day. This misfortune becomes 
a tragedy, both for claims adjudicators and for veterans, when RVSRs 
who are afforded the ``privilege'' of participating in their negotiated 
Flexiplace agreement and work from their homes are required to produce 
even more cases in exchange for that ``privilege.'' This Flexiplace 
tariff is usually an additional completed case per day. Hence, the 
aforementioned Tiger Team employee would have to complete 5 cases per 
day in days they work from home in order to maintain successful 
performance and their eligibility to participate in the Flexiplace 
program.
    The misfortunes and tragedies described in the preceding paragraph 
become absurd when one contemplates how the floor of 3\1/2\ cases per 
day could be justified, let alone any upward deviation from that 
productivity requirement. Regarding increased Flexiplace productivity 
requirements, any such requirement is either tantamount to an admission 
that daily supervision in the workplace is obtrusive and 
counterproductive or, that RVSRs are required to work uncompensated 
hours in addition to their scheduled tour of duty in order to fulfill 
the requirements of their local Flexiplace agreements.
    With regard to the floor requirement of 3\1/2\ cases per day, AFGE 
believes that no valid empirical evidence has ever been collected to 
suggest such a requirement is attainable with any acceptable level of 
accuracy. A time-study analysis was referenced by a representative of 
VBA management at the September 18, 2008, Hearing and a request was 
made to provide a copy of that study to the Subcommittee. If the report 
of any time-study analysis has been provided to the Subcommittee, AFGE 
requests that we be provided with a copy of the document and an 
opportunity to comment on it. With respect to how many cases a day an 
RVSR should be able to adjudicate, two points are salient. First, no 
one can dispute that an RVSR ought, or should be required, to 
accurately resolve as many cases on any given day as he or she can. No 
specific number can be assigned as a productivity requirement on any 
given day given the disparate complexity of the claims inventory. Any 
average daily productivity requirement must be calculated based upon 
empirical evidence concerning what trained RVSRs actually produce with 
an acceptable degree of accuracy over a 1 year period in order to be 
valid.

    Question 5: If training is not being offered and is not available 
online when it can be completed at anytime employees should have a 
mechanism to notify VA Central Office that such opportunity does not 
exist at their RO. How can employees notify managers and senior leaders 
that the training is not being provided or made available?

    Response: Such a mechanism does exist for newly hired or promoted 
employees who have recently completed the centralized portion of their 
Challenge Training. Those employees are provided with access to a 
website where they can provide feedback to Central Office's training 
staff regarding the continuing progress of their Challenge Training 
when they return to their Regional Offices. Such a mechanism could work 
if all VBA training was centralized and tracked through Central Office 
as has been suggested. The problem at present is there is no 
accountability for Regional Office management who fail to ensure that 
even the Challenge Training curriculum is implemented after completion 
of the centralized portion of Challenge instruction. Any such 
requirement would have to be made part of the Regional Office 
Director's performance plan, and enforced on RO Directors as a 
performance requirement by the Office of Field Operations. In the 
absence of any such requirement, the temptation is for Regional Office 
management to divert employee resources from completing their Central 
Office approved training program to helping to achieve goals that are 
measurements of Regional Office management's performance (e.g. 
inventory reduction). The end result of this dysfunction is that newly 
hired or promoted employees never complete a uniform course of 
training, and their approach to claims processing activities is 
determined by the experiences they receive at their particular Regional 
Office as opposed to a common, centrally approved experience. The 
ultimate detrimental consequent is that consistency and equality of 
adjudication and evaluation of veterans' claims is not achieved.
    As the situation now stands, employees can only notify their 
supervisors that their training has been lacking when they are put on 
notice that they are being subjected to a performance improvement plan 
or some adverse employment action. At that point, the employee should 
be given a meaningful opportunity to participate in identifying where 
their weaknesses are and how those weaknesses can be addressed through 
training. Unfortunately, the weakness most often identified by 
management in such circumstances is a lack of productivity, and the 
only means to increase productivity in the absence of a sound basic 
understanding of the laws and regulations governing the administration 
of VA benefits is through personal experience and effective training. 
Employees do not strive to produce erroneous decisions or to produce 
fewer decisions than they can. If an employee is making errors or 
underproducing, it should be incumbent on the party that identifies 
those traits to provide an effective remedial course of instruction, 
tailored to the particular deficiencies identified.

    Question 6: What would you recommend VA do to improve its training 
techniques for newer employees?

    Response: A good first step would be to mandate that all Challenge 
Training requirements are fulfilled within a set period, and to 
prohibit the attention of employees in Challenge Training from being 
diverted to other tasks. In addition, it would be beneficial if newer 
employees were assigned an individual mentor during their training and 
for a period after they have completed their formal training. To the 
extent possible, the mentor-trainee relationship should remain intact 
so that trainees would not have to constantly adjust their approach to 
the their work to conform with the idiosyncrasies of multiple mentors.
    It would also be wise to segregate, to the extent possible, 
centralized Challenge Training participants into classes composed of 
trainees who have promoted internally (and thus have some knowledge and 
experience with the VBA claims process) and those who are hired from 
outside the VBA (and who require some remedial instruction regarding 
the mundane aspects of claims processing--e.g. how a claim is routed 
from the triage activity, to pre-development, to the rating board). 
That action would allow instructors to devote greater attention to the 
relative strengths and weakness of their classes, without running the 
risk of being repetitious or boring some participants.
    Also, after completion of Challenge Training, ongoing or remedial 
training must be presented through a single and authoritative voice. As 
I have suggested elsewhere, that voice should emanate from Central 
Office, through instructors accountable to Central Office who are 
assigned to each Regional Office.

    Question 7: What about experienced raters, would you require them 
to take the same 80 hours of training if their performance ratings were 
``outstanding'' or ``excellent''?

    Response: The protean nature of the legal requirements imposed on 
the VA claims process mandates that training be continuous in nature. 
Regardless of how well any RVSR is performing in any given period, 
without a constant influx of relevant information in the form of 
training performance will eventually suffer. Moreover, given the real 
and perceived needs for increased productivity RVSRs are not 
particularly well-situated to take time out of their day and study an 
area where they have some confusion. More importantly, without relevant 
guidance as to proper procedures and accurate information regarding 
VBA's policies, RVSRs are not capable of identifying any error in their 
approach to their duties. So, it is vital that RVSRs continue to devote 
a discrete portion of their work year toward training. Having said 
that, the 80 hour requirement may be somewhat excessive. Attorneys and 
medical doctors in most states do not have that onerous a continuing 
education requirement, and handle issues which are every bit as complex 
and important as those in VBA's jurisdiction. It may be fruitful, 
therefore, to reduce the time VBA spends on continuing training by 
substituting relevant training developed by reference to common 
adjudicatory errors for ``refresher'' training pertaining to the 
general rating process. Once again, if such specific training is 
centrally developed and administered, it should also foster consistency 
in decision-making across Regional Offices.

                                 <F-dash>

                                     Committee on Veterans' Affairs
                             Subcommittee on Disability Assistance 
                                               and Memorial Affairs
                                                    Washington, DC.
                                                 September 22, 2008
Kerry Baker
Associate National Legislative Director
Disabled American Veteran
807 Maine Avenue, SW
Washington, DC 20024

Dear Mr. Baker:

    In reference to our House Committee on Veterans' Affairs 
Subcommittee on Disability Assistance and Memorial Affairs Hearing on 
``Examining the Effectiveness of Veterans Benefits Administration 
Training and Performance Management and Accountability'' on September 
18, 2008, I would appreciate it if you could answer the enclosed 
hearing questions as soon as possible.
    In an effort to reduce printing costs, the Committee on Veterans' 
Affairs, in cooperation with the Joint Committee on Printing, is 
implementing some formatting changes for material for all full 
committee and subcommittee hearings. Therefore, it would be appreciated 
if you could provide your answers consecutively on letter size paper, 
single-spaced. In addition, please restate the question in its entirety 
before the answer.

            Sincerely,
                                                       John J. Hall
                                                           Chairman

                               __________
                Post-Hearing Questions for Kerry Baker,
   Assistant National Legislative Director of the Disabled American 
                                Veterans
                From the Committee on Veterans' Affairs,
      Subcommittee on Disability Assistance and Memorial Affairs,
                 United State House of Representatives
                           September 18, 2008

    Question 1: At the hearing we discussed the training requirements, 
what do you think of the substance of the training?

    Response: Although the Disabled American Veterans would like to 
offer an opinion as the quality and substance of the VA's training 
program, we are unable to do so as the VA continues not to provide 
either this organization or any other Veterans Service Organization the 
opportunity to review their training program.

    Question 2: What do you think of VBA's STAR program? Is it 
effective?

    Response: The VA's quality assurance tool for compensation and 
pension claims is the Systematic Technical Accuracy Review (STAR) 
program. The DAV recommended in its testimony of September 18, 2008, 
that Congress require the Secretary to report how the Department could 
establish a quality assurance and accountability program that will 
detect, track, and holds responsible those VA employees who commit 
egregious errors. Such a report should be generated in consultation 
with veterans' service organizations most experienced in the VBA claims 
process.
    Under the STAR program, the VA reviews a sampling of decisions from 
regional offices and uses that sampling to base its national accuracy 
measures regarding decisions affecting entitlements, benefit amounts, 
and effective dates.
    Unfortunately, there still exists a gap in quality assurance for 
purposes of individual accountability in quality decision-making due to 
the current small sampling size the VA chooses to use. Specifically, in 
the STAR program, a sample is drawn each month from a regional office 
workload divided between ratings, authorizations, and fiduciary end-
products. A monthly sample of ``rating''-related cases generally 
requires a STAR review of 10 rating-related end products. Reviewing 10 
rating-related cases per month for an average size regional office that 
could easily employee more than three times that number of raters, is 
undeniable evidence of a total void and lack of commitment in 
individual accountability.
    If an average size regional office produced only 1,000 decisions 
per month, which we feel is quite conservative, the STAR program would 
only review 1 percent of the total cases decided by that regional 
office. Those figures leave no room for trend analysis, much less 
personal accountability.
    To put this in better perspective, according to VA's 2007 
performance and accountability report, the STAR program reviewed 11,056 
compensation and pension (C&P) cases in 2006 for improper payments 
whereas, the total number of C&P cases actually available for review 
was 1,540,211. This equals a percentage of cases reviewed of 
approximately seven tenths of 1 percent, or 0.72 percent.
    In closing, we find the STAR program does not fare well as an 
effective management oversight tool for the VA. It offers only minute 
sampling of cases compared to actual through-put and it has no 
accountability mechanism. Effective accountability can be engineered in 
a manner that holds each VBA employee responsible for his/her work as a 
claim moves through the system while at the same time holding all 
employees responsible simultaneously. As errors are discovered, the 
responsible employees must be held accountable by forfeiture of work 
credit percentage. One employee would be far less likely to cover for 
errors or look the other way from errors committed by a fellow employee 
if they knew their performance standards were equally at risk. This 
type of system would ensure personal accountability at every stage in 
the claims process, an essential element if STAR is to ever become an 
effective management oversight system.

                                 <F-dash>

                                     Committee on Veterans' Affairs
                             Subcommittee on Disability Assistance 
                                               and Memorial Affairs
                                                    Washington, DC.
                                                 September 25, 2008
Ronald B. Abrams
Joint Executive Director
National Veterans Legal Services Program
1600 K Street, NW, Suite 500
Washington, DC 20006-2833

Dear Mr. Abrams:

    In reference to our House Committee on Veterans' Affairs 
Subcommittee on Disability Assistance and Memorial Affairs Hearing on 
``Examining the Effectiveness of Veterans Benefits Administration 
Training and Performance Management and Accountability'' on September 
18, 2008, I would appreciate it if you could answer the enclosed 
hearing questions as soon as possible.
    In an effort to reduce printing costs, the Committee on Veterans' 
Affairs, in cooperation with the Joint Committee on Printing, is 
implementing some formatting changes for material for all full 
committee and subcommittee hearings. Therefore, it would be appreciated 
if you could provide your answers consecutively on letter size paper, 
single-spaced. In addition, please restate the question in its entirety 
before the answer.

            Sincerely,
                                                       John J. Hall
                                                           Chairman

                               __________
                    Response From Ronald Abrams for
        Question From the House Committee on Veterans' Affairs,
 Subcommittee on Disability Assistance and Memorial Affairs Hearing on
   ``Examining the Effectiveness of Veterans Benefits Administration 
        Training and Performance Management and Accountability''
                           September 18, 2008

    Question 1: When NVLSP conducts its Quality Reviews along with The 
American Legion, does it consistently look at the quality of training 
as well. If so, what is your feedback on the training and what 
suggestions have you made over the years.

    Response: The answer is yes.
    NVLSP attorneys are part of The American Legion (Legion) team that 
conducts quality reviews at VA regional offices (ROs). Over the past 
few years, NVLSP attorneys working with Legion Quality Review Teams 
visited more than 40 VA regional offices for the purpose of assessing 
overall operation. In general the quality reviews conducted by the 
Legion/NVLSP team reveal that RO training suffers because at too many 
regional offices there are too few experienced supervisors that could 
provide trainee adjudicators and senior adjudicators proper mentoring 
and quality assurance. Also we learned that many ROs postponed or 
suspended training so that maximum effort could be expended on 
production.
    The Legion/NVLSP teams found that there is a general inconsistency 
in how regional office employees are trained and how training is 
implemented. For example, some stations have regular formalized or 
structured training programs, while others have training programs that 
are best described as more informal and sporadic. Some stations have 
well established and structured training for new employees, but ongoing 
training for experienced staff is very limited. These finding are 
similar to a 2005 OIG study.
    The Legion, in past testimony, recommended that VA reduce its 
reliance on locally developed training materials and on-the-job 
training by senior raters. The Legion suggested that the ROs develop 
training packages based on errors noted the national STAR report and 
from patterns of errors found by the Board of Veterans' Appeals. 
Allowing the many regional offices to heavily rely on locally developed 
training initiatives increases the likelihood of balkanization and 
great variance in rating decisions. Unless regional offices (both 
managers and individual adjudicators) learn from their mistakes and 
take corrective action, there will continue to be a high rate of 
improperly adjudicated claims, resulting in a consistently high appeals 
rate and subsequent high BVA remand/reversal rate of regional office 
decisions.
    Below is a sample of our comments about training based on the 
Legion/NVLSP quality reviews.
HOUSTON VA REGIONAL OFFICE
    Interviews with RO employees identified several issues that may 
adversely affect morale, and the quality of RO adjudications. . . . 
Training is conducted on a weekly basis but several RO employees rated 
the training as poor. They felt that the trainers were not qualified to 
give the training, or not enthused about giving the training. A common 
complaint was that most trainers merely read off overhead projectors or 
from a manual. Some staff suggested that a ``Train the Trainer'' 
program would be beneficial.
BUFFALO VA REGIONAL OFFICE
    Training is being completed on a regular basis, approximately two 
to three times per month. The Team found the RO training plan to be 
satisfactory but employees are often encouraged not to spend time on 
training due to workload concerns.
RENO VA REGIONAL OFFICE
    The station is in compliance with the 80 hours of required training 
mandated by VA Central Office. Both formal and informal training 
sessions are also conducted on a regular basis as well as continual 
``on-the job-training.''
MUSKOGEE VA REGIONAL OFFICE
    The station's training program is divided into two main categories: 
initial training and continuous training. The bulk of training is for 
new hires. After completing pre-requisite training, new hires are sent 
to ``Challenge Training'' in nearby training hubs such as Milwaukee or 
Chicago for 3 weeks. After completing ``Challenge Training,'' new hires 
continue their education through web-based training modules and on-the-
job training. Continuous training is made up of both computer-based 
web-based training and formal classroom training, which is often led by 
the training coordinator, the Service Center Manager, Decision Review 
Officers and rating specialists. This training is usually conducted 
once or twice a month to meet the Central Office standard of 80 hours 
of training a year.
PHOENIX VA REGIONAL OFFICE
    In addition to a training program for new employees, there is also 
ongoing training in place for experienced personnel. The DRO compiles, 
for training purposes, detailed information on trends and reversals on 
appealed cases. Also, when appealed decisions are reversed by the DRO, 
the individual responsible for the original decision is informed of the 
action taken by the DRO and provided specific reasons for such action. 
This allows management to maintain accountability, identify problem 
areas, direct training accordingly and, as a result, improve the 
overall quality of decisions.
    Prior to the establishment of the Appeals Management Center (AMC), 
the DRO also prepared a complete list, used in conjunction with 
training, summarizing reasons for remands broken down by individual 
cases. Since the establishment of the AMC, the station has not been 
able to compile detailed information on individual remands nor identify 
trends for remands sent to the AMC. Although the appeals team receives 
summaries of reasons for remand, they are only by region and there is 
nothing specific for the individual stations. Not being able to 
identify reasons for remand by individual station will adversely impact 
the station's ability to identify remand trends and take corrective 
action. Additionally, there is no mechanism in place at the station for 
tracking BVA allowances. This not only makes it more difficult to 
respond to or prevent delays in payment authorization, as previously 
discussed, it negatively impacts training and, in turn, the quality of 
decisions. By not tracking reasons for BVA allowances, which are 
reversals of RO denials, the station is missing an important 
opportunity to identify trends in erroneous denials and take necessary 
action to avoid such errors in the future.
PITTSBURGH VA REGIONAL OFFICE
    Training for DROs, RVSRs, and VSRs is conducted on a regular basis. 
Training sessions are video taped for staff who couldn't attend and for 
those that work at home. Station work performance standards do not 
exceed standards established by VA Central Office. . . .
    The station does not have a mechanism in place for tracking BVA 
allowances. This negatively impacts training and, in turn, quality of 
decisions. By not tracking reasons for BVA allowances, which are 
reversals of RO denials, the station is missing an important 
opportunity to identify trends in erroneous denials and take necessary 
action to avoid such errors in the future. Additionally, as BVA 
remands, in most instances, are being sent to the Appeals Management 
Center (AMC) for development, the station is denied the opportunity to 
review and track individual remands. Although the appeals team receives 
summaries of reasons for remand by region, there is nothing specific 
for individual stations. Not being able to identify reasons for remand 
by individual station will adversely impact the station's ability to 
identify remand trends, include in training and take corrective action.
ST. PETERSBURG VA REGIONAL OFFICE
    . . . According to station management, current staffing is now 
largely made up of individuals with limited training and limited 
experience. We were informed that once basic training is completed, the 
only training conducted is that which is specifically mandated by VBA. 
There is no ongoing training program. With the current emphasis on 
production quotas and reducing the claims backlog, management is 
unwilling to take time away from production for training.
    It was noted that there were too few managers/supervisors and many 
of them lacked management training. It was also noted that some 
inexperienced trainers were assigned to train new employees.

                                 <F-dash>

                                     Committee on Veterans' Affairs
                             Subcommittee on Disability Assistance 
                                               and Memorial Affairs
                                                    Washington, DC.
                                                 September 22, 2008
Dr. Patricia Keenan
Program Manager
Human Resources Research Organization
66 Canal Center Plaza, Suite 400
Alexandria, VA 22314-1591
Washington, DC 20548

Dear Ms. Keenan:

    In reference to our House Committee on Veterans' Affairs 
Subcommittee on Disability Assistance and Memorial Affairs Hearing on 
``Examining the Effectiveness of Veterans Benefits Administration 
Training and Performance Management and Accountability'' on September 
18, 2008, I would appreciate it if you could answer the enclosed 
hearing questions as soon as possible.
    In an effort to reduce printing costs, the Committee on Veterans' 
Affairs, in cooperation with the Joint Committee on Printing, is 
implementing some formatting changes for material for all full 
committee and subcommittee hearings. Therefore, it would be appreciated 
if you could provide your answers consecutively on letter size paper, 
single-spaced. In addition, please restate the question in its entirety 
before the answer.

            Sincerely,
                                                       John J. Hall
                                                           Chairman

                               __________
  Response to Questions From the House Committee on Veterans' Affairs
 Subcommittee on Disability Assistance and Memorial Affairs Hearing on
   ``Examining the Effectiveness of Veterans Benefits Administration 
        Training and Performance Management and Accountability''
                       Patricia A Keenan, HumRRO

    Question 1: You mentioned the focus groups that you conducted with 
raters and noted that they develop their own ``individual rules.'' Can 
you tell me more about this practice? Do you have examples of what 
raters are doing when the medical evidence is ambiguous?

    Response: I would be reluctant to characterize this as a 
``practice,'' which makes the activity sound institutionalized. I see 
it as a coping mechanism that helps individuals reduce the stress 
associated with working in a situation that involves a high level of 
decision-making under uncertainty. It probably contributes to the 
variance in rating decisions as raters develop their own heuristics.
    My response is based on what we heard in focus groups and what I 
have learned about the RVSR job over the last few years as we have 
developed the RVSR and journey-level RVSR skills certification tests.
    We heard consistently that it takes several years for RVSRs to 
become comfortable making rating decisions. There are several reasons 
for this. These are very high stakes decisions, with a large impact on 
the lives of veterans and their families. Raters would understandably 
be very wary about making an error that could hurt these people. Many 
inexperienced raters are afraid of making a mistake that results in the 
case being appealed. Experienced raters have learned that everyone is 
going to have a case appealed sooner or later, that there are a variety 
of reasons for this happening (e.g., new evidence, error, differing 
interpretation of the regulation), and it should not prevent a 
decision. A third reason is that the criteria in some parts of the 
Rating Schedule are not sufficiently detailed to allow the rater to 
feel confident that an evaluation is exactly correct. For example, when 
rating a complaint for a disorder of the ulnar nerve, the schedule 
provides a detailed description of complete paralysis; however, no 
description is given for lesser evaluations characterized as severe, 
moderate or mild.
    The first two problems are overcome through experience; the third 
is more problematic. Currently, when there is no clear guidance in the 
Rating Schedule, RVSRs either try to reason the problem through on 
their own or solicit help from their peers, coaches or Decision Review 
Officers (who serve as RVSR trainers). Reasoning through on their own 
is mostly likely where developing individual decision rules is rooted. 
Trainee RVSRs have a mentor (a journey-level RVSR) with whom they 
discuss the evidence and compare it to the available guidance (e.g., 
the Rating Schedule, training materials, FAST letters). Discussing the 
claim with others allows the RVSR to take advantage of prior 
experiences of colleagues as well as their knowledge of the Rating 
Schedule. Some Service Centers (e.g., San Diego) have a medical 
professional (retired doctor or nurse) on site to help RVSRs with this 
type of situation. These people are familiar with the rating process 
and the Rating Schedule and can help the rater interpret the medical 
information and match it to the appropriate section of the Rating 
Schedule. Seeking input from others probably means that these 
individual decision rules become shared within an office.
    While the process is very understandable, it is important to 
recognize that this is not solely a training problem. The deeper roots 
are in the lack of detailed criteria in some areas of the Rating 
Schedule and the time pressure raters work under in trying to keep up 
with the ever increasing number of claims.

    Question 2: The practice of using analogous codes has increasingly 
permeated VA's rating process over the years and as you observed 
increases subjectivity and variance. This seems very unfair to the 
veteran. What would you suggest VA do instead of using these codes and 
how could they better train employees to reduce this subjectivity?

    Response: The use of analogous codes is not unfair, in and of 
itself. There are legitimate reasons for using them. The first is that 
maintenance of the Rating Schedule has not kept pace with medical 
discoveries and advancements. Many of these conditions had not been 
recognized at the time the Schedule was developed, so they were not 
included. The result is that many relatively common conditions (e.g., 
Cohn's disease, erectile dysfunction, insomnia, shin splints) are not 
currently included in the Rating Schedule. As the Schedule is updated, 
the conditions will likely be added to the appropriate section(s). 
Updating the Schedule, however, is likely to take years due to the 
enormity of the effort. It might be more expedient for VA to conduct a 
study to analyze the use of analogous codes and identify impairments 
that occur often enough to deserve their own code or for which the 
criteria in existing codes are not adequate.
    Conducting such a study is not a simple proposition as the data are 
not necessarily easy to interpret. For example, raters may use at least 
two different diagnostic codes to rate Cohn's disease. This use of 
multiple diagnostic codes makes it difficult to track the number of 
Cohn's disease claims which, in turn, makes it difficult to recognize 
when the number of cases would justify establishment of a separate 
diagnostic code.
    A second reason for using analogous codes is that there are some 
symptoms that are not easily diagnosed. Indeed, the ``Persian Gulf War 
Veterans' Benefits Act '' recognizes that many Gulf War (GW) veterans 
suffer from chronic disabilities (e.g., fatigue, headache) resulting 
from an undiagnosed illnesses. The Code of Federal Regulations (38 CFR, 
Part II, Chapter 11, Subchapter 11, Sec. 1117) specifies the use of 
analogous codes for evaluating these undiagnosed illnesses. Other 
times, a medical opinion does not specify a particular condition. The 
diagnosis may say that the symptoms are ``like'' a recognized, 
diagnosable condition, but that condition is not exactly applicable to 
the symptoms. In these cases, the rater should use a code that is 
analogous to the recognized condition. It is likely that this 
circumstance will never disappear, so analogous codes will always have 
a place in the rating process.
    Some studies have suggested using the same diagnostic categories 
(International Classification of Diseases (ICD) and Diagnostic and 
Statistical Manual for Mental Disorders (DSM)) used by VHA and other 
health-care providers. While there are some advantages to doing so, to 
do a wholesale change would cause a major upheaval in the rating 
process. It would take a lot of time to develop new training materials/
classes and job aids. Conducting training would require that RVSRs take 
a good deal of time away from their job to learn the new material. It 
might be more feasible to add parts of the ICD to the existing Rating 
Schedule, making the transition over time.
    For both situations, C&P Services could update the Rating Schedule 
and/or develop training and job aids for RVSRs to learn the new 
diagnostic codes. The problem of working with analogous codes properly 
is not entirely a training matter, although that is certainly one 
avenue to pursue. C&P Service could review existing training materials 
to make sure they provide adequate guidance for raters. It might be 
informative to gather input from raters as to the type of information 
they think would be most useful to them. C&P could also develop 
additional guidelines for identifying analogous codes. For example, 
raters might find it useful to take the time (or feel they had the 
time) to do a quick search of the Internet to give them information 
they might use to find the appropriate diagnostic code.

    Question 3: You outlined 3 recommendations in your testimony on 
September 18, 2008. Have you previously presented these ideas to VA and 
what was their response?

    Response: No, I had not discussed these ideas with VA. As a 
contractor working on the skills certification program, it was not my 
role to advise VA on areas outside the scope of that work.

                                 <F-dash>

                                     Committee on Veterans' Affairs
                             Subcommittee on Disability Assistance 
                                               and Memorial Affairs
                                                    Washington, DC.
                                                 September 22, 2008
Michael Walcoff
Deputy Under Secretary for Benefits
Veterans Benefits Administration
U.S. Department of Veterans Affairs
810 Vermont Avenue, NW
Washington, DC 20420

Dear Mr. Walcoff:

    In reference to our House Committee on Veterans' Affairs 
Subcommittee on Disability Assistance and Memorial Affairs Hearing on 
``Examining the Effectiveness of Veterans Benefits Administration 
Training and Performance Management and Accountability'' on September 
18, 2008, I would appreciate it if you could answer the enclosed 
hearing questions as soon as possible.
    In an effort to reduce printing costs, the Committee on Veterans' 
Affairs, in cooperation with the Joint Committee on Printing, is 
implementing some formatting changes for material for all full 
committee and subcommittee hearings. Therefore, it would be appreciated 
if you could provide your answers consecutively on letter size paper, 
single-spaced. In addition, please restate the question in its entirety 
before the answer.

            Sincerely,
                                                       John J. Hall
                                                           Chairman

                               __________
                        Questions for the Record
                 The Honorable John J. Hall, Chairman,
      Subcommittee on Disability Assistance and Memorial Affairs,
                  House Committee on Veterans' Affairs
                           September 18, 2008
    Examining the Effectiveness of Veterans Benefits Administration 
         Training and Performance Management and Accountability

    Question 1: What does VBA do about tying training to individual 
employee performance?

    Response: Supervisors are required to conduct oversight of employee 
training plans and are held responsible for ensuring that employees 
meet their training requirements. Employee training is tracked through 
the learning management system (LMS). Through LMS, employees complete a 
detailed 80-hour training plan each year, which contains curricula 
deemed appropriate to achieve successful performance in their position. 
In addition to the required course work, employees can add courses to 
their learning plan. In fiscal 2008, the Veterans Benefits 
Administration (VBA) hired training managers to provide additional 
oversight of the scheduling, and completion of training.
    In the event an employee's performance is not meeting the fully 
successful level of achievement for a critical element, the employee 
will be placed on a performance improvement plan (PIP). The PIP 
identifies the employee's specific performance deficiencies; the 
action(s) that must be taken by the employee to improve to the 
successful level of performance; the methods that will be employed to 
measure the improvement; and assistance to be provided such as 
counseling, or focused individualized training.

    Question 2: In your testimony you noted that VBA contracted with an 
independent consultant to evaluate the Challenge Training. Although, we 
discussed this briefly, can the Subcommittee staff get a copy of those 
results?

    Response: As part of its national level training evaluation 
program, VBA contracted for an evaluation of the challenge program. The 
evaluation sought to answer two questions:

    <bullet>  Does challenge training, as implemented, provide value to 
VBA?
    <bullet>  What are the opportunities for improving challenge 
training?

    The report indicates that much value has been realized by VBA's 
efforts to provide quality, timely training to its new claims 
processing employees. It also noted areas where VBA could improve the 
overall management and curriculum of challenge. Efforts are already 
underway to address the recommendations. A copy of the report is 
attached.
    [The report is being retained in the Committee files.]

    Question 3: How does the information gathered from the STAR review 
get integrated with the information from the Compensation and Pension 
Evaluation Program (CPEP) reviews regarding the quality of the exams 
conducted in cooperation with the Veterans Health Administration?

    Response: There is no mechanism for integration of systematic 
technical accuracy review (STAR) and CPEP reviews. However, the STAR 
questions and the CPEP key indicator questions are similar and 
essentially cover the appropriateness of the exam request. CPEP reviews 
are focused on the quality of the examination and STAR reviews are 
based upon the accuracy of the resulting decisions from those 
examinations.

    Question 4: At the hearing, the Chairman asked about the time in 
motion study, can you please share those results with the Subcommittee 
as well?

    Response: VBA contracted with SRA International, Inc., to conduct a 
work measurement study in March 2007 at 15 regional offices. VBA's 
pension maintenance centers, benefits delivery at discharge rating 
activity sites, and foreign claims processing offices were among the 
regional offices selected to participate in the study. The electronic 
work measurement application final work rate standards report, 
submitted by SRA International, is attached.
    [The report is being retained in the Committee files.]
    The work rates standards provided in SRA's final report contained 
some unexpected results, such as longer processing times for original 
disability compensation claims with 7 issues or less than for claims 
with 8 issues or more, which prompted a thorough review of the 
methodology used in the study. Critical flaws were uncovered that 
produced inaccurate results. The primary errors included:

    <bullet>  Some completed claims were double counted, resulting in 
artificially low work-rate standards.
    <bullet>  Brokered work (those claims completed by select regional 
offices for other regional offices) was not included in SRA's 
computations. Not including brokered work inflated the work-rate 
standard at the regional office completing the work and lowered the 
work-rate standard at the office of original jurisdiction. It also 
influenced the overall work-rate standard since only a fraction of 
regional offices were included in the study.
    <bullet>  Several formula errors were uncovered in the work-rate 
standard spreadsheet compiled by SRA that affected the outcome of the 
study. The errors causing the greatest impact on the work-rate standard 
calculations were observation count computations.

    Revisions were made by VBA to the work-rate standards spreadsheet 
in an attempt to remedy the above issues. The resulting data was then 
re-analyzed and compared to prior work-measurement study findings. The 
changes from prior findings were substantial and found to be associated 
with the factors below:

    <bullet>  Inconsistent adherence to guidance among participating 
regional offices on clearing appeals-related claims. A reliable number 
of completed appeals-related claims were unavailable; therefore, no 
valid conclusion could be drawn from the work-measurement results.
    <bullet>  Lack of record of the types of brokered claims completed. 
Without a record of the exact types of brokered claims completed, 
completed claims counts could not be properly credited or debited, 
leading to results not reflective of true workloads.
    <bullet>  Pension-related claim results were questionable. Prior 
studies ran for 4 months to account for the cyclical nature of the 
pension workload. The 2007 study was conducted for only 1 month, 
providing a narrower view of the pension workload cycle.
    <bullet>  The sample size for several claim types was too small or 
nonexistent. Because of the small to nonexistent sample size, the 
results were unreliable. This again was due to the fact that the study 
only ran for 30 days.

    The above issues contributed to a wide variation of results between 
participating regional offices. This disparity led to the conclusion 
that the results could not be representative of the time to process 
claims. It was therefore decided to not use the results of the work 
measurement study.
    The recently mandated study of the work credit system and work 
management system will measure and manage the work production of VBA 
employees who handle claims for compensation and pension benefits and 
will also evaluate more effective means of improving performance. 
Lessons learned from the 2007 study will be used to ensure a valid 
methodology.

                                 <F-dash>

                                     Committee on Veterans' Affairs
                             Subcommittee on Disability Assistance 
                                               and Memorial Affairs
                                                    Washington, DC.
                                                 September 22, 2008
Bradley Mayes
Director
Compensation and Pension Service
Veterans Benefits Administration
U.S. Department of Veterans Affairs
810 Vermont Avenue, NW
Washington, DC 20420

Dear Mr. Mayes:

    In reference to our House Committee on Veterans' Affairs 
Subcommittee on Disability Assistance and Memorial Affairs Hearing on 
``Examining the Effectiveness of Veterans Benefits Administration 
Training and Performance Management and Accountability'' on September 
18, 2008, I would appreciate it if you could answer the enclosed 
hearing questions as soon as possible.
    In an effort to reduce printing costs, the Committee on Veterans' 
Affairs, in cooperation with the Joint Committee on Printing, is 
implementing some formatting changes for material for all full 
committee and subcommittee hearings. Therefore, it would be appreciated 
if you could provide your answers consecutively on letter size paper, 
single-spaced. In addition, please restate the question in its entirety 
before the answer.

            Sincerely,
                                                       John J. Hall
                                                           Chairman

                               __________
                        Questions for the Record
                 The Honorable John J. Hall, Chairman,
      Subcommittee on Disability Assistance and Memorial Affairs,
                  House Committee on Veterans' Affairs
                           September 18, 2008
    Examining the Effectiveness of Veterans Benefits Administration 
         Training and Performance Management and Accountability

    Question 1: When the ROs report their 80 hours of training, do you 
know what materials they trained on or just that they completed the 
required hours?

    Response: Employees are required to complete 60 hours of core 
technical training. The topics for the core training are identified by 
Compensation and Pension (C&P) service. The remaining 20 hours are 
determined by the Regional Office (RO) based on local needs. The topics 
and numbers of hours each employee completes are recorded in the 
learning management system.

    Question 2: What level of supervision does C&P Service provide to 
the RO regarding training?

    Response: C&P service reviews the training accomplishments of each 
RO at the end of the fiscal year to ensure training requirements were 
met. Feedback from the reviews is provided to the regional offices.

                                 <F-dash>

                                     Committee on Veterans' Affairs
                             Subcommittee on Disability Assistance 
                                               and Memorial Affairs
                                                    Washington, DC.
                                                 September 25, 2008
Dorothy Mackay
Director
Employee Development and Training
Veterans Benefits Administration
U.S. Department of Veterans Affairs
810 Vermont Avenue, NW
Washington, DC 20420

Dear Ms. Mackay:

    In reference to our House Committee on Veterans' Affairs 
Subcommittee on Disability Assistance and Memorial Affairs Hearing on 
``Examining the Effectiveness of Veterans Benefits Administration 
Training and Performance Management and Accountability'' on September 
18, 2008, I would appreciate it if you could answer the enclosed 
hearing questions as soon as possible.
    In an effort to reduce printing costs, the Committee on Veterans' 
Affairs, in cooperation with the Joint Committee on Printing, is 
implementing some formatting changes for material for all full 
committee and subcommittee hearings. Therefore, it would be appreciated 
if you could provide your answers consecutively on letter size paper, 
single-spaced. In addition, please restate the question in its entirety 
before the answer.

            Sincerely,
                                                       John J. Hall
                                                           Chairman

                               __________
                        Questions for the Record
                 The Honorable John J. Hall, Chairman,
      Subcommittee on Disability Assistance and Memorial Affairs,
                  House Committee on Veterans' Affairs
                           September 18, 2008
    Examining the Effectiveness of Veterans Benefits Administration 
         Training and Performance Management and Accountability

    Question 1: When RO's develop their training strategic plan, how 
are the gaps identified and incorporated into future training?

    Response: In fiscal 2008, the Veterans Benefit Administration (VBA) 
created a training manager position at every regional office (RO) to 
improve the ability to identify gaps and plan training. The training 
manager is responsible for local training reviews, analyzing 
performance indicators to determine local training needs, and 
implementing the training necessary to meet those needs. For example, 
local accuracy reviews are conducted by the Compensation and Pension 
(C&P) service's systematic technical accuracy review (STAR) staff on 
claims decisions using national quality criteria. The results of the 
reviews are available to the RO training manager for trend analysis and 
formulation of remedial training as necessary.

    Question 1(a): How does joint data collection and root cause 
analyses with the VBA on cases that have been remanded inform training?

    Response: The C&P program review staff conducts monthly remand 
reviews of all pre-certification Board of Veterans Appeals (BVA) 
remands. The review results are available to all ROs on the C&P 
Intranet and are used to provide timely feedback on pre-certification 
remands in support of efforts to reduce avoidable remands. The results 
are also used for training purposes. As an example, BVA travel board 
attorneys use the results when they provide training at the regional 
offices.
    Recently, analysis was conducted that compared the primary STAR 
error for Veterans Claims Assistance Act (VCAA) compliant development 
to the corresponding pre-certification error categories on the remand 
reasons report. The results are under review.
    Detailed remand reason reports are run quarterly and are also 
posted on the C&P Intranet Web site by RO, area, and nationwide.

    Question 2: The Instructors Training manual is five volumes. That 
doesn't seem like an effective tool. Have you consulted with private 
sector organizations that specialize in developing training protocols 
for Federal and private sector agencies?

    Response: The instructors' training manual includes training 
materials for the three challenge training classes, each given over the 
course of 3 weeks. The three challenge curriculums include rating 
veterans service representative (RVSR), pre-determination veterans 
service representative (VSR) and post-determination VSR. The manual is 
split into five volumes, two for RVSR training, one for pre-
determination VSR training, and two for post-determination VSR 
training. Each volume includes instructor and student guides, 
presentations, and reference materials, including copies of fast 
letters, court decisions, flow charts, and sample letters.
    VBA is currently exploring ways to reduce the size of the training 
manuals as the curriculum is revised. All training materials are 
reviewed by internal certified instructional design specialists. VBA 
also works with a contractor, Camber Corporation, on the materials.

                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
